                U.S. Department of Agriculture
                   Office of Inspector General




        Audit Report




Commodity Credit Corporation
  Financial Statements for
 Fiscal Years 2009 and 2008




                        Audit Report 06401-24-FM
                                 November 2009
                                  U.S. Department of Agriculture
                                   Office of Inspector General
                                     Washington, D.C. 20250




DATE:         November 12, 2009

REPLY TO
ATTN OF:      06401-24-FM

TO:           Board of Directors
              Commodity Credit Corporation

              Heidi G. Ware
              Acting Director
              Office of Budget Finance

ATTN:         T. Michael McCann, Director
              Operations Review and Analysis Staff
              Office of Business and Program Integration
              Farm Service Agency

FROM:         Robert W. Young /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Commodity Credit Corporation’s Financial Statements for Fiscal Years 2009 and
              2008

This report presents the results of the audit of Commodity Credit Corporation’s (CCC)
consolidated financial statements for the fiscal years ending September 30, 2009 and 2008. The
report contains an unqualified opinion on the financial statements as well as an assessment of
CCC’s internal controls over financial reporting and compliance with laws and regulations.

Clifton Gunderson LLP (CG), an independent certified public accounting firm, conducted the
fiscal year 2009 audit. In connection with the contract, we reviewed CG’s report and related
documentation and inquired of its representatives. Our review, as differentiated from an audit in
accordance with Government Auditing Standards (issued by the Comptroller General of the
United States), was not intended to enable us to express, and we do not express, opinions on
CCC’s financial statements, internal control or on whether CCC’s financial management systems
substantially complied with the Federal Financial Management Improvement Act (FFMIA); or
conclusions on compliance with laws and regulations. CG is responsible for the attached
auditor’s report, dated November 6, 2009, and the conclusions expressed in the report. However,
our review disclosed no instances where CG did not comply, in all material respects, with
Government Auditing Standards and the Office of Management and Budget Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements, as amended.

It is the opinion of CG, that the financial statements present fairly, in all material respects,
CCC’s financial position as of September 30, 2009, and its net costs, changes in net position, and
budgetary resources for the year then ended, in conformity with generally accepted accounting
principles.

The CG report on CCC’s internal control structure over financial reporting identified seven
significant deficiencies. Specifically, CG identified weaknesses in CCC’s:

   •   Financial management system functionality;
   •   controls over farm storage facility loans;
   •   reconciliation controls over the Statement of Budgetary Resources gross outlays and
       offsetting collections;
   •   controls over Intra-governmental Balances;
   •   controls over accounts receivable and revenue;
   •   controls over child agency financial reporting; and
   •   information security controls.

CG considered the first significant deficiency to be a material weakness. The results of CG’s
tests of compliance with laws and regulations disclosed noncompliance with FFMIA.

CCC’s consolidated financial statements as of and for the year ended September 30, 2008 were
audited by KPMG LLP whose report dated November 12, 2008, expressed an unqualified
opinion on those financial statements.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, including the timeframes to address the
report’s recommendations. Please note the regulation requires a management decision to be
reached on all findings and recommendations within a maximum of 6 months from report
issuance.
                           U.S. DEPARTMENT OF AGRICULTURE
                           COMMODITY CREDIT CORPORATION

                                      September 30, 2009


                                       Table of Contents



Description                                                                      Page

INDEPENDENT AUDITOR’S REPORT                                                        1

    Exhibit 1 – Material Weakness                                                 1-1

    Exhibit 2 – Significant Deficiencies                                          2-1

    Exhibit 3 – Compliance with FFMIA                                             3-1

    Exhibit 4 – Status of Prior Year’s Findings and Recommendations               4-1

    Exhibit 5 – Management’s Response to Findings Contained in the Independent
      Auditor’s Report                                                            5-1


ANNUAL REPORT
a1
                                    INDEPENDENT AUDITOR’S REPORT


To the Inspector General,
U.S. Department of Agriculture:
To the Board of Directors
Commodity Credit Corporation:
In our audit of the Commodity Credit Corporation (CCC) for fiscal year (FY) 2009, we found:

     •    The consolidated balance sheet of CCC as of September 30, 2009, and the related
          consolidated statements of net cost and changes in net position, and the combined
          statement of budgetary resources for the year then ended (hereinafter referred to as
          “consolidated financial statements“), are presented fairly, in all material respects, in
          conformity with accounting principles generally accepted in the United States of
          America;
     •    One material weakness and six significant deficiencies in internal control over financial
          reporting;
     •    Substantial noncompliance with the Federal Financial Management Improvement Act
          (FFMIA) financial management systems requirements; and
     •    No instance of noncompliance with selected provisions of laws and regulations tested,
          exclusive of FFMIA.
The following sections discuss in more detail: (1) these conclusions, (2) our conclusions on
Management’s Discussion and Analysis (MD&A) and other supplementary information, (3) our
audit objectives, scope and methodology, and (4) CCC comments and our evaluation.
OPINION ON FINANCIAL STATEMENTS
The accompanying consolidated financial statements including the accompanying notes present
fairly, in all material respects, in conformity with accounting principles generally accepted in the
United States, CCC’s assets, liabilities, and net position as of September 30, 2009, and net
costs; changes in net position; and budgetary resources for the year then ended. CCC’s
consolidated financial statements as of and for the year ended September 30, 2008, were
audited by other auditors; whose report dated November 12, 2008, expressed an unqualified
opinion on those financial statements.
CONSIDERATION OF INTERNAL CONTROL OVER FINANCIAL REPORTING
In planning and performing our audit, we considered CCC’s internal control over financial
reporting as a basis for designing our auditing procedures and to comply with the Office of
Management and Budget (OMB) audit guidance for the purpose of expressing our opinion on
the financial statements, but not for the purpose of expressing an opinion on the effectiveness of
CCC’s internal control over financial reporting and compliance or on management’s assertion on
internal control included in the MD&A. Accordingly, we do not express an opinion on the
effectiveness of CCC’s internal control over financial reporting or on management’s assertion on
internal control included in the MD&A.

11710 Beltsville Drive, Suite 300
Calverton, MD 20705-3106


                                                                                  h
tel: 301-931-2050
fax: 301-931-1710                                        1
www.cliftoncpa.com                      Offices in 17 states and Washington, DC
Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in
internal control over financial reporting that might be significant deficiencies or material
weaknesses. However, as discussed below, we identified certain deficiencies in internal control
over financial reporting that we consider to be significant deficiencies. See Exhibit 2.
A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect misstatements on a timely basis. A significant deficiency is a control
deficiency, or combination of control deficiencies, that adversely affects CCC’s ability to initiate,
authorize, record, process, or report financial data reliably in accordance with generally
accepted accounting principles such that there is more than a remote likelihood that a
misstatement of the CCC’s consolidated financial statements that is more than inconsequential
will not be prevented or detected by the entity’s internal control.
A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the entity’s internal control. Our consideration of internal
control over financial reporting was for the limited purpose described in the first paragraph of
this section and would not necessarily disclose all significant deficiencies that are also
considered to be material weaknesses. However, we believe that the significant deficiency
described in Exhibit 1 is a material weakness.
We also noted certain other nonreportable matters involving internal control and its operations
that we communicated in a separate letter to CCC management.
Also, as required by OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements,
as amended, we compared the material weakness disclosed during the audit with those material
weaknesses reported in the CCC’s FMFIA report that relate to the financial statements. Our
audit did not identify any material weaknesses that were not identified by CCC in their FMFIA
report.
SYSTEM’S COMPLIANCE WITH FFMIA REQUIREMENTS
Under the Federal Financial Management Improvement Act of 1996 (FFMIA), we are required to
report whether the financial management systems used by CCC substantially comply with the
Federal financial management systems requirements, applicable Federal accounting standards,
and the United States Standard General Ledger (SGL) at the transaction level. To meet this
requirement, we performed tests of compliance with FFMIA Section 803(a) requirements.
The objective of our audit was not to provide an opinion on compliance with FFMIA.
Accordingly, we do not express such an opinion. However, our work disclosed instances,
described in Exhibit 3, in which CCC’s financial management systems did not substantially
comply with Federal financial management systems requirements. The results of our tests of
FFMIA disclosed no instances in which CCC did not substantially comply with the Federal
accounting standards or the SGL at the transaction level.
COMPLIANCE WITH LAWS AND REGULATIONS

Our tests of CCC’s compliance with selected provisions of laws and regulations for FY 2009
disclosed no instances of noncompliance that would be reportable under United States
generally accepted government auditing standards or OMB audit guidance. However, the object



                                                 2
of our audit was not to provide an opinion on overall compliance with laws and regulations.
Accordingly, we do not express such an opinion.

STATUS OF PRIOR YEAR’S CONTROL DEFICIENCIES AND NONCOMPLIANCE ISSUES

As required by United States generally accepted government auditing standards and OMB
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended, we have
reviewed the status of CCC’s corrective actions with respect to the findings and
recommendations included in the prior year’s Independent Auditor’s Report dated November 12,
2008. Exhibit 4 provides a discussion on the status of prior year findings and recommendations.

CONSISTENCY OF OTHER INFORMATION

CCC’s MD&A and other required supplementary information contains a wide range of
information, some of which is not directly related to the financial statements. We compared this
information for consistency with the financial statements and discussed the methods of
measurement and presentation with CCC officials. Based on this limited work, we found no
material inconsistencies with the financial statements; accounting principles generally accepted
in the United States, or OMB guidance. However, we do not express an opinion on this
information.

The introductory information, performance information and other accompanying information are
presented for additional analysis and are not a required part of the financial statements. Such
information has not been subjected to the auditing procedures applied in the audit of the
financial statements and, accordingly, we express no opinion on them.

OBJECTIVES, SCOPE AND METHODOLOGY

CCC management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the United States, (2) establishing, maintaining, and
assessing internal control to provide reasonable assurance that the broad control objectives of
the Federal Managers’ Financial Integrity Act (FMFIA) are met, (3) ensuring that CCC’s financial
management systems substantially comply with FFMIA requirements, and (4) complying with
other applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether the financial statements
are presented fairly, in all material respects, in conformity with accounting principles generally
accepted in the United States. We are also responsible for: (1) obtaining a sufficient
understanding of internal control over financial reporting and compliance to plan the audit, (2)
testing whether CCC’s financial management systems substantially comply with the three
FFMIA requirements, (3) testing compliance with selected provisions of laws and regulations
that have a direct and material effect on the financial statements and laws for which OMB audit
guidance requires testing, and (4) performing limited procedures with respect to certain other
information appearing in the Performance and Accountability Report.

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, (2) assessed the accounting principles
used and significant estimates made by management, (3) evaluated the overall presentation of
the financial statements, (4) obtained an understanding of CCC and its operations, including its
internal control related to financial reporting (including safeguarding of assets), and compliance
with laws and regulations (including execution of transactions in accordance with budget


                                                 3
authority), (5) tested relevant internal controls over financial reporting, and compliance, and
evaluated the design and operating effectiveness of internal control, (6) considered the design
of the process for evaluating and reporting on internal control and financial management
systems under FMFIA, (7) tested whether CCC’s financial management systems substantially
complied with the three FFMIA requirements, and (8) tested compliance with selected
provisions of certain laws and regulations.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
the FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements due to error or
fraud, losses, or noncompliance may nevertheless occur and not be detected. We also caution
that projecting our evaluation to future periods is subject to risk that controls may become
inadequate because of changes in conditions or that the degree of compliance with controls
may deteriorate. In addition, we caution that our internal control testing may not be sufficient for
other purposes.

We did not test compliance with all laws and regulations applicable to CCC. We limited our tests
of compliance to selected provisions of laws and regulations that have a direct and material
effect on the financial statements and those required by OMB audit guidance that we deemed
applicable to CCC’s financial statements for the fiscal year ended September 30, 2009. We
caution that noncompliance with laws and regulations may occur and not be detected by these
tests and that such testing may not be sufficient for other purposes.

We performed our audit in accordance with auditing standards generally accepted in the United
States; the standards applicable to the financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and OMB guidance.

CCC COMMENTS AND OUR EVALUATION

CCC’s response to the findings identified in our report is presented as Exhibit 5. We did not
audit CCC’s response and, accordingly, we express no opinion on it. CCC did not concur with a
few of our findings and recommendations. We disagree with CCC’s responses on the non-
concurrences and stand by the conclusions reached in our report.

                                  *********************************

This report is intended solely for the information and use of CCC’s management, USDA’s Office
of Inspector General, OMB, the Government Accountability Office, and the U.S. Congress, and
is not intended to be, and should not be, used by anyone other than these specified parties.


a1
Calverton, Maryland
November 6, 2009




                                                 4
                          U.S. DEPARTMENT OF AGRICULTURE
                           COMMODITY CREDIT CORPORATION
                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 1
                                  September 30, 2009


MATERIAL WEAKNESS

I.   Financial Management System’s Functionality (Modified Repeat Finding)

a. CCC’s financial management system is not capable of recording the producer payment
   obligations (budgetary entries) at the transaction level. The producer payments, which
   represent two of CCC’s major strategic goals, were approximately $15 billion of CCC’s $17
   billion gross cost in the statement of net cost as of September 30, 2009. This deficiency
   does not allow CCC to perform an automated and real time fund controls at the time
   producer payment contracts are initiated (obligated) by county offices.

b. CCC’s loan subsidiary system for the Farm Storage Facility Loan (FSFL) program is not fully
   integrated with the general Ledger. The loan subsidiary system does not comply with the
   Joint Financial Management Improvement Program’s (JFMIP) [(currently known as Financial
   Systems Integration Office (FSIO)] Direct Loan System Requirements dated June 1999. The
   financial management system lacks critical functionality such as reconciliation and reporting.

The CCC financial management system capture the activities of at least 50 farm programs from
over 2,000 county offices throughout the country. The current financial management systems
were put in place in the 1980s. Although functionality enhancements and updates are
continually made to the system, CCC recognizes that the aging of the financial management
and information systems with inherent limitations have posed significant challenges to its
financial operations. To address these challenges, CCC has started its Financial Management
Modernization Initiative (FMMI) through the agency wide Modernize and Innovate the Delivery
of Agricultural Systems (MIDAS) project since 2004. However, the FMMI is not expected to be
fully implemented until FY 2012.

Federal Management Financial Improvement Act states that one of the purposes of this Act is to
“increase the capability of agencies to monitor execution of budget by more readily permitting
reports that compare spending of resources to results of activities.”

Also, JFMIP Direct Loan Systems Requirements states that: “Of paramount importance is that
direct loan systems maintain accurate borrower detail records and record transactions
consistent with the loan contract and the United States Standard General Ledger (USSGL) as
these records form the subsidiary ledger to the receivable balance in the general ledger.”
Federal agencies should have systems that support unique activities and operations of agency
programs such as loan programs. Moreover, the Office of Management and Budget (OMB)
Circular A-127, Financial Management Systems, requires the implementation of a unified set of
financial systems and financial portions of mixed systems that provide for effective and efficient
interrelationships among software, hardware, personnel, procedures, controls, and data
contained within the system.

CCC plans to continue its efforts to develop and implement new systems that will substantially
comply with the financial management systems requirements; and refine their manual funds
control, therefore, we will not repeat the recommendation in this report.




                                               1-1
                          U.S. DEPARTMENT OF AGRICULTURE
                           COMMODITY CREDIT CORPORATION
                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                  September 30, 2009

SIGNIFICANT DEFICIENCIES
II. Strengthen Control Over the Farm Storage Facility Loans (New Finding)
Although the CCC (group) reconciles the cash related activities (disbursements and receipts by
Cohort) of the FSFL program monthly, the group did not reconcile loan receivable balances in
the FSFL subsidiary records (Price Support System) to the general ledger (USSGL 1350) as a
routine control activity until June 30, 2009, when the auditor requested a reconciliation. There
was no loan receivable balance reconciliation performed after June 30, 2009.
To reconcile the loans receivable subsidiary records to the general ledger at June 30, 2009,
CCC had to first manually establish the loan balance of each loan in a cohort. To establish a
loan balance at June 30, 2009, the group had to start from the time the loan was disbursed,
which could be as far back as 9 years ago. From the disbursed amount, all cash activities
(mostly repayments) for the life of the loan were added or subtracted. Then the group had to
research non-cash activities such as loans in bankruptcy that were transferred to claims
receivable, which is the responsibility of another CCC group. The process to establish an
individual loan receivable balance for purposes of reconciling the total of these balances to the
general ledger has been complex and time consuming. The components of the loan data are
gathered from different sources, reports and spreadsheets.
Also, as mentioned above, the group prepares monthly cash reconciliations. Although this
reconciliation process is manually intensive, time consuming and complex, it is not documented
in the group’s current policies and procedures. Moreover, we did not see evidence of
supervisory review control over these cash reconciliations or the loan receivable reconciliations.
Without written policies and procedures, especially for a manually intensive, complex and
important process such as the loan receivable reconciliation and cash reconciliation, the risks
that the process could not be duplicated by another employee in the event the current employee
becomes unavailable is high. Moreover, as the program grows with more cohorts and more
transactions, reconciliation of the subsidiary system to the general ledger trial balance will
become more difficult.

Also, the Government Accountability Office (GAO) Standards for Internal Control in the Federal
Government defines the minimum level of quality acceptable for internal control in government
and provides the basis against which internal control is to be evaluated. One of the five
standards in internal control is control activities. Control activities are the policies, procedures,
techniques, and mechanisms that enforce management’s directives. They include a wide range
of diverse activities such as approvals, authorizations, verifications, reconciliations, performance
reviews, maintenance of security, and the creation of related records which provide evidence of
execution of these activities as well as appropriate documentation.

Recommendations:

1. We recommend that CCC periodically reconcile the outstanding balances in the FSFL loan
   subsidiary records to the general ledger. The reconciliation should result in timely recording
   of the necessary adjustment needed to both or either system(s). At the end of the
   reconciliation, a summary sheet should be included showing both systems’ adjusted
   balances and any unrecognized difference that should be researched.



                                                2-1
                          U.S. DEPARTMENT OF AGRICULTURE
                           COMMODITY CREDIT CORPORATION
                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                  September 30, 2009

2. We recommend that CCC enhance its written policy and procedures to include reconciliation
   processes for the FSFL program including loan balances, cash activities, and claims
   receivables. The policy and procedures should also include the approvals, authorizations,
   and verifications, and the creation and maintenance of related records which provide
   evidence of execution of these control activities as well as appropriate documentation.

III. Strengthen Reconciliation Control over the Statement of Budgetary Resources’ (SBR)
     Gross Outlays and Offsetting Collections (New Finding)

Per the Accounting Procedures Act of 1950, integration of the administrative accounting of the
various departments and agencies and the fiscal accounting of U.S. Treasury (Treasury) is
based on cash transactions that are mutually applicable to Treasury and the operating agency
accounts. Agencies’ administrative accounting is firmly linked to Treasury through the reciprocal
relationship of the accounts for cash transactions.

Due to this reciprocal relationship, Treasury has implemented the Governmentwide Accounting
and Reporting Modernization (GWA) Project, which addresses the central accounting and
reporting functions and processes associated with budget execution, accountability, and
cash/other asset management. This includes the collection and dissemination of financial
management and accounting information from and to federal agencies. One of GWA’s
objectives is improve information timeliness and accuracy to support improved financial analysis
and decision-making.

During our audit of the Gross Outlays and Offsetting Collections lines in the SBR at June 30 and
September 30, 2009, we identified significant differences between amounts reported by CCC in
these SBR lines and the GWA report from Treasury. At June 30, 2009, CCC’s gross outlays and
offsetting collections are both higher than GWA report by approximately $1.555 billion. The
differences in gross outlays and offsetting collections netted to zero, therefore, not impacting the
net outlays, resulting in passing Treasury system’s edit checks when the amounts are reported
in Treasury’s Federal Agencies’ Centralized Trial-Balance System (FACTS) II. CCC prepared
reconciliation for the June 30 differences and identified reconciling items with an absolute value
of $2.173 billion. CCC was able to account for the propriety of the $1.977 billion of reconciling
items, but not the remaining $196 million.

Recommendation:

3. We recommend that CCC reconcile and investigate the differences between the gross
   outlays and offsetting collections recorded in their books and the balances reported in GWA
   monthly. CCC should also discuss with Treasury and understand why Treasury’s GWA is
   reporting collections received by CCC from its trading partners as a deduction to its
   disbursements (outlays).

IV. Strengthen Control Over Intra-governmental Balances (New Finding)

CCC is required to reconcile transactions and balances with other Federal entities in
accordance with the U.S. Treasury Federal Intra-governmental Transactions Accounting and
Policies Guide. In our audit of the Intra-governmental Deposit and Trust Liabilities, we noted the
following differences (rounded to the nearest million) between the agency balances reported on



                                                2-2
                             U.S. DEPARTMENT OF AGRICULTURE
                              COMMODITY CREDIT CORPORATION
                          INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                     September 30, 2009

the Intradepartmental Transactions Reconciliation (ITRS) Report and the general ledger (CCC-
CORE) as of September 30, 2009.

                                                                                      Absolute
                                                                        Difference      Value
                                                CCC-CORE     ITRS          CCC             of
                       Agency                    Balance    Balance    Over/(under)   Difference
         Agricultural Marketing Service (AMS)      $(274)     $(253)          $21           $21
         Food and Agricultural Service (FAS)       $(143)     $(148)          $(5)           $5
         Food and Nutrition Service (FNS)          $(441)     $(440)           $0            $0
         Natural Resources Conservation
         Service (NCRS)                            $(116)     $(128)         $(12)          $12
         Total                                     $(974)     $(969)            $5          $39

The differences between the agency balances fluctuate quarterly. As of June 30, 2009, the net
difference and absolute value of the differences was the same at $13 million. Also, we noted a
$45.8 million difference in what was recorded in CCC-CORE for the AMS and FNS program
categories versus what was on the ITRS report as of June 30, 2009. At year-end the difference
was $22.7 million.

Although CCC uses the department ITRS system to perform the reconciliation with other
agencies within the Department, CCC had not fully reconciled its intra-governmental
transactions and balances with these other Federal entities because CCC did not have an
internal control process to ensure that timing differences at period-end were reconciled and
differences were fully investigated and corrected; and that CCC records, including CCC-CORE
and the trial balance, agreed with what the agencies reported as their balances. As a result,
CCC’s transactions and balances with other Federal entities may not eliminate on the
Department-wide consolidated financial statements.

GAO Standards for Internal Control in the Federal Government (the Standard) defines Internal
Control as an integral component of an organization’s management that provides reasonable
assurance that objectives are being achieved. The standard describes control activities and
gives examples, such as reconciliations and reviews by management at the functional or activity
level.

Recommendation:

4. We recommend that CCC develop an internal control procedure to reconcile the ITRS
   Report and CCC-CORE and to reconcile the Funds Status Report and CCC’s trial balance.
   The reconciliation should be detailed enough to determine what is a timing difference and
   what differences are true differences in what was recorded on each agency’s general
   ledger. Identified differences are timely resolved with the trading partner and where
   necessary adjusting entries are made to clear the differences.
V. Strengthen Control over Accounts Receivable and Revenue (New Finding)

Maritime Administration Receivable and Revenue
CCC does not have an accrual methodology to account for the receivable and revenue related
to the Maritime Administration’s (MARAD) agreement. Also, CCC does not have documented
procedures in place for calculating the accrual and ensuring that the proper information is


                                                     2-3
                         U.S. DEPARTMENT OF AGRICULTURE
                          COMMODITY CREDIT CORPORATION
                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                 September 30, 2009

obtained in a timely manner to determine whether a receivable and revenue has been earned
and would need to be recorded.

Statement of Federal Financial Accounting Standard 1, Accounting for Selected Assets and
Liabilities, states that a receivable should be recognized when a federal entity establishes a
claim to cash or other assets against other entities, either based on legal provisions, such as a
payment due date, or goods or services provided. If the exact amount is unknown, a reasonable
estimate should be made.

Accrual accounting requires the recognition of economic events regardless of when cash
transactions occur.

Tobacco Transition Program (TTP) Receivable and Revenue

CCC does not periodically reconcile the balances recorded in USSGL accounts 1310, 1353,
135B, 1319, and 1340 to the subsidiary or supporting records.

In May 2009, CCC brought the TTP assessment invoicing, statements, and debt servicing in-
house. After the receivable data was entered into the System 36/AS400 (the system), it was
determined that the system could not handle the interest calculations and the demand letter
process needed under the guideline of the TTP. As a result, the data entered was transferred
out of the general ledger, and journal vouchers were prepared to rebook the balances. During
this process, certain errors occurred that resulted in a $31 million overstatement of the
receivable as of June 30, 2009. Thirty ($30) million of the $31 million overstatement was due to
a duplicate balance of $23 million in USSGL 1310 and 1353, and $7 million of overstated
collections in USSGL 1353. Due to lack of a reconciliation process, the discrepancy was not
detected until it was brought to the CCC’s attention during the audit.

In addition, CCC maintains the TTP receivable subsidiary records in an excel spreadsheet. The
spreadsheet has to be continually updated for new receivables billed and collections received
that are recorded in the general ledger via a journal voucher. This manually intensive
accounting process increases the risks of errors. Moreover, without a TTP receivable subsidiary
record that interfaces with the general ledger and could provide automated checks and
balances, it is more important to perform the periodic reconciliation.

Recommendations:

5. We recommend that CCC develop and implement policy and procedures related to the
   MARAD activities. The policy and procedures should include an accrual methodology and
   the gathering and reviewing of data on a quarterly basis to form an expectation of what year-
   end accrual should be.

6. We recommend that CCC perform a periodic reconciliation and review that ties out the
   details substantiating the balance to what is actually recorded in the accounts receivable for
   TTP in CORE.




                                              2-4
                          U.S. DEPARTMENT OF AGRICULTURE
                           COMMODITY CREDIT CORPORATION
                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                  September 30, 2009

VI. Strengthen Control Over Child Agency Financial Reporting (Modified Repeat Finding)

CCC is a party to allocation transfers with the U.S. Agency for International Development
(USAID) as the transferring entity (parent). In accordance with OMB Circular A-136, Financial
Reporting Requirements, “The parent is accountable for and maintains the responsibility for
reporting while the child performs on behalf of the parent and controls how the funds are
expended. The parent is responsible for the program’s overall performance and may decide to
reallocate funds if the parent is not satisfied with the child’s performance.” It further states that
“The key to timely and accurate quarterly reporting by the child agency is the communication
between the parent and child. It is strongly recommended that issues such as formats, abnormal
balances, capitalization thresholds, useful lives, depreciation methodologies, transfer of trading
partner information, etc., be discussed and resolutions reached at a date required by the parent
to meet its reporting and auditing deadlines.”

During fiscal year 2009, CCC allocated funds of approximately $1.5 billion to USAID (the child)
to fund P.L. 480 Title II, transportation and other administrative costs in connection with foreign
donations.

Reconciliation of Unliquidated Obligation

CCC’s unliquidated obligation is approximately $1.4 billion as of September 30, 2009. USAID
does not perform periodic reconciliations between unliquidated obligations in the general ledger
(GL) and subsidiary records. During the audit, it took USAID over two months to explain the
variance between the balances in the subsidiary details provided to us and the GL as of June
30, 2009. During the audit, USAID notified us that the $54 million variance was reduced to $43
million. Also, we were told that the $54 million was due to the fact that the data criteria used in
generating the detail records did not include all the elements required to properly match the
unliquidated obligation balances in the GL to the subsidiary details. As of September 30, the
reconciliation provided to us showed a variance of $1.16 million.

In USAID’s response to our finding, it stated that USAID does not complete a full reconciliation
of unliquidated obligations on all funds on a regular basis. The periodic reconciliation of
unliquidated obligations is completed based on materiality and whether the appropriation is
cancelling; therefore, a regular reconciliation of the CCC funds may not be completed if
differences are immaterial.

We questioned the implementation or the effectiveness of this reconciliation process.

GAO Standards for Internal Control in the Federal Government states that internal control
should generally be designed to assure that ongoing monitoring occurs in the course of normal
operations. It is performed continually and is ingrained in the agency’s operations. It includes
regular management and supervisory activities, comparisons, reconciliations, and other actions
people take in performing their duties.

Recommendation:

7. We recommend that CCC amend their memorandum of agreement with USAID to require
   certain control procedures to be implemented.



                                                2-5
                           U.S. DEPARTMENT OF AGRICULTURE
                            COMMODITY CREDIT CORPORATION
                        INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                   September 30, 2009

Single Audit Act Monitoring and Oversight

USAID, as the federal awarding agency of the CCC funds, does not have a system in place to
ensure that award recipients subject to single audits have a single audit performed and submit
their audit reports in a timely manner. Moreover, the office responsible for monitoring the audit
findings could not provide documentation to show how many audit reports were received and
reviewed, or whether management decisions were issued on audit findings or follow up to
ensure that the recipient takes appropriate and timely corrective actions. The risk that USAID
may continue to provide grants to organizations that do not deserve to receive the federal grants
increases when there is inadequate monitoring and oversight. Moreover, potential fraud, waste,
or abuse may not have been followed up or timely followed up.

OMB A-133, Audits of States, Local Government, and Non-Profit, Subpart D, Section .400 (c)
states that the Federal awarding agency shall (3) ensure that audits are completed and reports
are received in a timely manner and in accordance with the requirements of this part; (5) issue a
management decision on audit findings within six months after receipt of the audit report and
ensure that the recipient takes appropriate and timely corrective action.

Recommendation:

8. We recommend that CCC amend their memorandum of agreement with USAID to require
   certain control procedures to be implemented.

VII. Strengthen Information Security Controls (Modified Repeat Finding)

CCC applications are in many cases hosted on systems managed by the United States
Department of Agriculture (USDA), the USDA Farm Service Agency (FSA), and the USDA
Information Technology Services (ITS).

FSA/CCC relies on extensive information technology (IT) systems to accomplish its mission and
in the preparation of its financial statements. Internal controls over these operations are
essential to ensure the integrity, confidentiality, and reliability of critical data while reducing the
risk of errors, fraud, and other illegal acts. The entity’s use of IT may affect the internal controls
relevant to the achievement of the entity’s financial reporting, operations or compliance
objectives, and its operating units or business functions.

Our review of IT controls covered general controls and selected business process application
controls. General controls are the structure, policies, and procedures that apply to an entity’s
overall computer systems. They include entity-wide security management, access controls,
configuration management, segregation of duties and contingency planning controls. Business
process application controls are those controls over the completeness, accuracy, validity,
confidentiality, and availability of transactions and data during application processing. The
American Institute of Certified Public Accountants (AICPA) AU Section 314 Understanding the
Entity and Its Environment and Assessing the Risks of Material Misstatement states that while
general controls do not, by themselves, cause misstatements, they may permit application
controls to operate improperly and allow misstatements to occur and not be detected.
Furthermore, GAO Financial Audit Manual (FAM) states that the effectiveness of general
controls is a significant factor in determining the effectiveness of application controls and certain



                                                 2-6
                         U.S. DEPARTMENT OF AGRICULTURE
                          COMMODITY CREDIT CORPORATION
                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                 September 30, 2009

user controls. Without effective general controls, application controls may be rendered
ineffective by circumvention or modification.
FSA/CCC has remediated specific IT findings identified in prior year audits. However, continued
efforts are needed to implement entity-wide controls for effective security management,
certification and accreditation process, and computer operations. Control weaknesses
remediated in FY 2009 included the following:
       Implemented periodic Vulnerability Assessments of the servers that support its Financial
       Applications;
       Applied USDA password settings to the Active Directory for one domain and obtained a
       waiver for the E-authentication password settings;
       Implemented regular reviews of the technical user profiles for the CCC CORE
       application to ensure access was appropriately granted.
Security Management Controls:

The security management program establishes a framework and continuous cycle of activity for
assessing risk, developing and implementing effective security procedures, and monitoring the
effectiveness of these procedures. Through the Federal Information Security Management Act
of 2002 (FISMA), Congress requires each federal agency to establish an agency-wide
information security program to provide security to the information and information systems that
support the operations and assets of the agency, including those managed by a contractor or
other agency. OMB Circular No. A-130, Appendix III, Security of Federal Automated Information
Resources, requires agencies to implement and maintain a program to assure that adequate
security is provided for all agency information collected, processed, transmitted, stored, or
disseminated in general support systems and major applications.

Without a fully implemented security management program, there is increased risk that security
controls are inadequate; responsibilities are unclear, misunderstood, and improperly
implemented; and controls are inconsistently applied. Such conditions may lead to insufficient
protection of sensitive data and high expenditures for controls over low risk resources.

In FY 2009, we noted the following security management control weaknesses:

       Inconsistencies are noted between FSA/CCC management’s current practices and
       FSA’s approved security management policies (i.e. Information Systems Security
       Program Directive 6-IRM). Directive 6-IRM requires State and County Offices to
       implement contingency plans and test those plans at the state and county level. We
       found that some State and County Offices conducted tests of their contingency plans,
       but others did not. In addition, FSA/CCC management’s interpretation of Directive 6-IRM
       is to implement these controls at the Kansas City Central Office.
       FSA’s Certification and Accreditation (C&A) process did not have a rigorous review
       process to review and maintain documentation of the results, and validate the
       conclusions reached. Test results were not supported. There was a consistent lack of
       documentation. Certain “Inherited Controls” could not be supported.
       No formalized review and approval process for System Security Plans (SSPs). We noted
       frequent modifications to SSPs without formal approval.


                                              2-7
                         U.S. DEPARTMENT OF AGRICULTURE
                          COMMODITY CREDIT CORPORATION
                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                 September 30, 2009

       Errors were noted in the C&A packages. In some cases, controls noted in the SSPs did
       not reflect controls that applied to the system. Some controls had no relation to the
       platform being accredited.
       Management could not provide an approved, current Configuration Plan or a standard
       baseline configuration for the AS-400/S-36 platforms to measure and document system
       security features for all FSA AS-400/System 36 systems.

Computer Operations:

Computer operations should be in place so that all critical data, transactions and programs are
processed in a timely manner. These include controls over the effective configuration and
maintenance of operating system software, system logging and monitoring functions.
FSA/CCC’s information systems employ aging and unsupported platforms that pose additional
risk to the availability of financially significant systems. GAO noted the same weaknesses in its
report Agriculture Needs to Strengthen Management Practices for Stabilizing and Modernizing
Its Farm Program Delivery Systems, dated May 2008.

Additionally, access to resources and records should be limited to authorized individuals, and
accountability for the custody and use of resources should be assigned and maintained.
Ineffective access controls do not provide FSA/CCC with sufficient assurance that financial
information is adequately safeguarded from inadvertent or deliberate misuse, improper
disclosure or destruction.

In FY 2009, we noted that FSA/CCC has partially addressed the significant deficiency reported
in FY 2008 by identifying an alternate processing site for Web Farm applications. However,
FSA/CCC is still in the process of building the functionality of the site for it to serve as the
alternate processing site.

We noted additional computer operations control weaknesses in FY 2009, as follows:

       The FSA currently hosts some of its County Office (CO) applications on IBM AS/400 V4-
       R4 platforms that have been configured to emulate the IBM System 36 System. Both the
       AS/400 V4-R4 and the System 36 operating systems are no longer supported by the
       vendor, which may render it difficult for FSA/CCC to have access to security patches
       and hot fixes to remediate any flaws and vulnerabilities within the operating system.
       Audit and accountability policies and procedures have not been developed. FSA/CCC
       has not identified auditable triggers or events that need to be captured in financially
       significant systems. Consequently, audit-logging capability has not been turned on for
       security events on the AS/400 platform.
       FSA/CCC Human Resources division does not have an exhaustive database of
       contractor personnel. In addition, they could not determine whether transferred
       employees have had their former access removed/modified.
       Two (2) out of a sample of 30 (6.67%) new hires did not have their fingerprinting
       completed prior to their hire date, while revocation of access for 23 out of 42 (54.76%)
       terminated employees was requested several days after the employees’ effective
       termination date.


                                              2-8
                        U.S. DEPARTMENT OF AGRICULTURE
                         COMMODITY CREDIT CORPORATION
                     INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                September 30, 2009

Recommendations:

We recommend that FSA/CCC Office of Chief Information Officer (OCIO), in coordination with
FSA/CCC system owners and USDA OCIO officials:
9. Review and update FSA/CCC-wide security policies and directives in a timely manner.
10. Formalize the review and approval process for FSA/CCC’s Systems Security Plans (SSP) to
    ensure that updates follow a well-defined structure.
11. Develop, approve and implement a Configuration Management Plan and/or baseline
    configurations for the AS-400/S-36 platforms.
CCC has started implementing the prior year recommendations related to the alternate
processing facility, migration of its application to web-based platforms, and implement
mitigation/remedial action; therefore, we will not repeat the recommendations in this report.




                                            2-9
                         U.S. DEPARTMENT OF AGRICULTURE
                          COMMODITY CREDIT CORPORATION
                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 3
                                 September 30, 2009

COMPLIANCE WITH FFMIA

The result of our test of FFMIA disclosed instances, summarized below where CCC’s financial
management systems did not substantially comply with the federal financial management
systems requirements

   •   CCC’s financial management system’s functionality does not record the producer
       payment’s obligations (budgetary entries) at the transaction level.

   •   CCC’s loan subsidiary system for the FSFL program is not fully integrated with the
       general Ledger. The loan subsidiary system does not comply with the JFMIP/FSIO
       Direct Loan System Requirements.

   •   CCC’s mission critical financial applications are currently supported by aging and
       outdated technology, and are in need of improvement to address performance, flexibility,
       and system interface issues. The FSA currently hosts some of its County Office
       applications on IBM AS/400 platforms that have been configured to emulate the IBM
       System 36 System. Both the AS/400 V4-R4 and the System 36 operating systems are
       no longer supported by the vendor, which may render it difficult for FSA to have access
       to security patches and hot fixes to remediate any flaws and vulnerabilities within the
       operating system.




                                             3-1
                        U.S. DEPARTMENT OF AGRICULTURE
                         COMMODITY CREDIT CORPORATION
                     INDEPENDENT AUDITOR’S REPORT EXHIBIT 4
                                September 30, 2009

STATUS OF PRIOR YEAR’S FINDINGS AND RECOMMENDATIONS

As required by Government Auditing Standards and OMB Bulletin No. 07-04 Audit
Requirements for Federal Financial Statements, as amended, we have reviewed the status of
the CCC corrective actions with respect to the findings and recommendations included in CCC
internal control report for FY 2008 dated November 12, 2008. The following analysis provides
our assessment of the progress CCC has made through September 30, 2009 in correcting the
noted deficiencies.


        FY 2008 Findings                              Years           FY 2009 Status
                                                     Reported
        Improvement needed in financial           2002 – 2008 /       Open/Modified
        system functionality and funds            Material                MW
        control                                   Weakness
        Improvement needed in                     2005 – 2006 /           Closed
        management’s review procedures            Reportable
        over its cash flow models                 Condition
                                                  2007 – 2008 /
                                                  MW
        Improvement needed in                     2008 / MW               Closed
        management’s analysis of
        obligations and liabilities for the
        Direct and Countercyclical Payment
        Programs
        Improvement needed in                     2002 – 2007 /       Open/Modified
        information security controls             MW                       SD
                                                  2008 /
                                                  Significant
                                                  Deficiency
                                                  (SD)
        Improvement needed in Monitoring          2008 /              Open/Modified
        of Child Agency Financial                 Significant              SD
        Information                               Deficiency
                                                  (SD)




                                            4-1
                EXHIBIT 5

Management’s Response to Findings Contained
     in the Independent Auditor’s Report
United States
Department of
                    -
                    USDA



                    Exhibit V
Agriculture

Farm and Foreign
                    TO:            Lynette Cockrell
Agricultural                       Acting Regional Inspector General
Services
                                   Office ofthe Inspector General
Commodity Credit
Corporation
                                   Mia Leswing
1400 Independence                  Partner-in-Charge
Avenue,SW
Stop 0581                          Clifton Gunderson, LLP
                                                                                                 NOV 1 0 2009
                                                          ~~~(jj~
Washington, DC
20250-0581          FROM:          Heidi G. Ware
                                   Acting Controller
                                   Commodity Credit Corporation

                    SUBJECT:       Response to the Draft Combined Independent Auditor's Report on the
                                   Commodity Credit Corporation's (CCC) Fiscal Years 2009 and 2008
                                   Comparative Financial Statements


                    We have reviewed Clifton Gunderson's Draft Combined Independent Auditor's Report
                    dated November 6, 2009, and do not concur with some of its contents.

                    Condition b, Page 5 and Federal Financial Management Improvement Act (FFMIA)
                    Compliance on Page 15: CCC's loan subsidiary system for the Farm Storage Facility
                    Loan (FSFL) program is not fully integrated with the general Ledger. The loan subsidiary
                    system does not comply with the Joint Financial Management Improvement Program's
                    (JFMIP) [(currently known as Financial Systems Integration Office (FSIO)] Direct Loan
                    System Requirements dated June 1999. The financial management system lacks critical
                    functionality such as reconciliation and reporting.

                    CCC Response to Condition b, Page 5 and FFMIA Compliance on Page 15: CCC
                    does not concur with the condition noted. The FSFL subsidiary system processes loan
                    activity that is ultimately recorded in the general ledger in CORE. The activity related to
                    loan disbursements, loan repayments, claims, and loan obligations is systemically
                    generated and fed to the CORE general ledger. While the FSFL application is a separate
                    system, the associated accounting activity is integrated with the general ledger through
                    interfaces.

                    Management is not aware of any specific audit work that was performed on the FSFL
                    application that would substantiate the claim that the system does not comply with
                    JFMIPIFSIO Direct Loan System Requirements. No specific findings were identified to
                    management.

                                                         USDA is an Equal Opportunity Employer




                                                           5-1
Lynette Cockrell
Mia Leswing
Page 2


Repeat Recommendation Addressing Prior Years' Material Weakness (MW): CCC
plans to continue its efforts to develop and implement new systems that will substantially
comply with the financial management systems requirements; and refine their manual
funds control, therefore, we will not repeat the recommendation in this report.

CCC Response to the Repeat Recommendation for Prior Years' MW: CCC concurs
with continuing the corrective actions to implement compliant systems, however, CCC
does not concur with refining its manual processes since management believes any
additional manual controls would be too cumbersome and labor intensive to be cost
effective.

Recommendation #1: We recommend that CCC periodically reconcile the outstanding
balances in the FSFL subsidiary records to the general ledger (GL). The reconciliation
should result in timely recording of the necessary adjustment needed to both or either
system(s). At the end of the reconciliation, a summary sheet should be included showing
both systems' adjusted balances and any unrecognized difference that should be
researched.

CCC Response to Recommendation #1: Management does not concur with the
condition, cause, and recommendation. The FSFL subsidiary system processes loan
activity that is ultimately recorded in the GL in CORE. One key component in the GL
that was in question during the audit related to the loan receivable balance, GL account
1350. The loan receivable balance consists of activity from loan disbursements, loan
repayments, and claim activity. This activity feeds the GL from automated transactions
processed by the FSFL system.

The loan disbursement and loan repayment activity is fully reconciled on an on-going
basis by the Fund and Commodity Management Office (FCMO). Discrepancies in the
activity are identified and communicated to the Price Support Division or county offices
for correction. The reclassification of a loan receivable to a claim is also generated
systemically by the FSFL system. If discrepancies exist, they are identified during the
loan repayment reconciliation and forwarded for correction.

Reconciling the activity within the loan receivable account is an efficient and productive
reconciliation, compensating for a reconciliation of the ending balance to the general
ledger. As long as the activity components are reconciled, management has assurance
that the loan receivable balance is reasonably accurate.




                                     5-2
Lynette Cockrell
Mia Leswing
Page 3


For the period ending September 30,2009, FCMO performed a loan receivable balance
reconciliation for cohorts 2009 and 2008 to provide reasonable assurance. The results of
this loan balance reconciliation revealed the same discrepancies as those revealed by the
September 30, 2009, loan activity reconciliation. Therefore, management concluded that
the current reconciliation procedures were adequate to provide reasonable assurance of
the ending loan receivable balance. In addition, loan obligation activity systemically
feeds to the general ledger from the FSFL system and reconciled in the same manner.

During the 2009 audit, no audit adjustments were recommended. Furthermore, no
significant balance errors were brought to the attention of management that would cause
reasonable doubt.

Recommendation #2: We recommend that CCC enhance its written policy and
procedures to include reconciliation processes for the FSFL program including loan
balances, cash activities, and claims receivables. The policy and procedures should also
include the approvals, authorizations, and verifications, and the creation and maintenance
of related records which provide evidence of execution of these control activities as well
as appropriate documentation.

CCC Response to Recommendation #2: Management does not concur with the
recommendation to develop additional loan balance reconciliation. Current
reconciliations are adequate to validate the GL balances.

Management will concur to take action to have the operating procedures updated.
Additionally, management will provide resources to review and identifY process
improvement opportunities that will reduce the labor intensive and manual workload
required to account for the FSFL program.

Recommendation #3: We recommend that CCC reconcile and investigate the
differences between the gross outlays and offsetting collections recorded in their books
and the balances reported in the Government Wide Accounting and Reporting system
(GWA) monthly. CCC should also discuss with the U.S. Treasury (Treasury) and
understand why Treasury's GWA is reporting collections received by CCC from its
trading partners as a deduction to its disbursements (outlays).

CCC Response to Recommendation #3: CCC does not concur with both the condition
and recommendation. Disbursements and collections are reconciled to Treasury as net
outlays. The following guidance from the Office of Management and Budget (OMB)




                                     5-3
Lynette Cockrell
Mia Leswing
Page 4


Circular A-I36 verifies the requirement currently followed by management and is stated
below:

        "Outlays. Outlays consist of disbursements net of offsetting collections. The
        outlays shall agree with, and be reconciled to, the Agency outlay totals reported in
        the Budget of the United States Government (i.e., with the aggregate of the
      . outlays for accounts within the budget). The outlays shall also agree with, and be
        reconciled to, the aggregate ofoutlays reported on the standard form (SF)-133 for
        the aggregate of all budget accounts, including non-budgetary financing accounts
        and the disbursements and collections reported to Treasury on a monthly basis
        (SF- 224, Statement of Transactions; SF-1219, Statement of Accountability; and
        SF-1220 Statement of Transactions) per OMB Circular No. A-II.

         Net Outlays. Line 19D is calculated. It is computed as Line 19A (gross outlays)
         less Line 19B (offsetting collections) less Line 19C (Distributed Offsetting
         Receipts). This amount shall agree with, and be reconciled to the net outlays as
         reported in the Budget of the United States Government."

Reconciliations are performed at various stages to ensure that net outlays are reported
correctly. Those reconciliations consist of:

            1. 	 Cash Reconciliation - to verifY the accuracy of cash balances reported at
                 Treasury to the general ledger;

            2. 	 Federal Agencies' Centralized Trial-Balance System II (FACTS II)
                 Reconciliation - to verifY that net outlays reported in FACTS II agree with
                 Treasury cash balances [FACTS II is a computer program that allows
                 agencies to submit one set of accounting data. This data includes mostly
                 budgetary information that is required for the Report on Budget Execution
                 and Budgetary Resources (SF-I33), the Year-End Closing Statement
                 (FMS 2108), and much of the initial data that will appear in the prior year
                 column ofthe Program and Financing (P&F) Schedule ofthe President's
                 Budget]; and

            3. 	 Statement of Budgetary Resources (SBR) to SF-133 Reconciliation - to
                 verifY that net outlays reported on the SBR are in agreement with net
                 outlays reported in FACTS II that generates the SF-I33.




                                      5-4
Lynette Cockrell
Mia Leswing
Page 5



For the period ending June 30, 2009, management performed a reconciliation of the
differences between GWA gross disbursements and collections to the GL. Management
explained how transactions are summarized at GWA and concluded that the posting to
the GL was accurate and reliable. Due to timing issues, management did not attempt to
reconcile the remaining $196 million, less than one percent of gross disbursements, but
has reasonable assurance that the differences could be identified if given more time.

Management has not been made aware of any requirement that requires gross
disbursements or collections to agree with GWA or that established GWA as the
authoritative source of gross disbursements or collections. Management maintains that
the posting of transactions to the GL are accurate and reliable and should be used as the
basis for financial reporting, in conjunction with the previous reconciliations mentioned.

Recommendation #4: We recommend that CCC develop an internal control procedure
to reconcile the Federal Intra-governmental Transactions Accounting and Reporting
System (lTRS) Report and CCC-CORE and to reconcile the Funds Status Report and
CCC's trial balance. The reconciliation should be detailed enough to determine what is a
timing difference and what differences are true differences in what was recorded on each
agency's general ledger. Identified differences are timely resolved with the trading
partner and where necessary adjusting entries are made to clear the differences.

CCC Response to Recommendation #4: CCC concurs with the condition and
recommendation. CCC will develop a Corrective Action Plan (CAP) to address the
conditions and recommendation.

Recommendation #5: We recommend that CCC develop and implement policy and
procedures related to the Maritime Administration (MARAD) activities. The policy and
procedures should include an accrual methodology and the gathering and reviewing of
data on a quarterly basis to form an expectation of what year-end accrual should be.

CCC Response to Recommendation #5: CCC concurs with the recommendation for
MARAD. CCC will develop a CAP to mitigate the conditions noted.

Recommendation #6: We recommend that CCC perform a periodic reconciliation and
review that ties out the details substantiating the balance to what is actually recorded in
the accounts receivable for the Tobacco Transition Program (TTP) in CORE.




                                       5-5
Lynette Cockrell
Mia Leswing
Page 6


CCC Response to Recommendation #6: CCC concurs with the condition and
recommendation for TTP. CCC will develop a CAP to address the conditions and
recommendation.

Recommendation #7: We recommend that CCC amend their memorandum of
agreement with the U.S. Agency for International Development (USAID) to require
certain control procedures to be implemented.

CCC Response to Recommendation #7: CCC concurs with the recommendation and
will develop a CAP to revise the MOU with USAID.

Recommendation #8: We recommend that CCC amend their memorandum of
agreement with USAID to require certain control procedures to be implemented.

CCC Response to Recommendation #8: CCC concurs with the recommendation and
will develop a CAP to revise the MOU with USAID.
Recommendation #9: Review and update the Farm Service Agency (FSA)/CCC-wide
security policies and directives in a timely manner.

CCC Response to Recommendation #9: CCC concurs with the condition and
recommendation; however it must be noted that the conditions noted did not have a
significant or material impact on the financial statements.

Recommendation #10: Formalize the review and approval process for FSAlCCC's Systems
Security Plans to ensure that updates follow a well-defined structure.

CCC Response to Recommendation #10: CCC concurs with the condition and
recommendation; however it must be noted that the conditions noted did not have a
significant or material impact on the financial statements.

Recommendation #11: Develop, approve and implement a Configuration Management
Plan and/or baseline configurations for the AS-400/S-36 platforms.
CCC Response to Recommendation #11: CCC concurs with the condition and
recommendation; however it must be noted that the conditions noted did not have a
significant or material impact on the financial statements.




                                     5-6
Lynette Cockrell
Mia Leswing
Page 7


CCC will develop corrective action plans, where necessary, to address the findings and
recommendations identified during the audit. As we consider the required corrective
actions, we will continue to work with the Office of the Inspector General in ensuring that
the specific actions will assist us in successfully addressing the recommendations and
reaching management decision.

If you have any questions or require additional information, please contact
Elizabeth Russell at (703) 305-1283.




                                      5-7
U.S. DEPARTMENT OF
   AGRICULTURE
COMMODITY CREDIT
  CORPORATION




2009 ANNUAL REPORT



        1
U.S. Department of Agriculture
Commodity Credit Corporation
  1400 Independence Avenue, SW
      Washington, DC 20250

   2009 Annual Report

               2
Preface

This Annual Report shows the results of the Commodity Credit Corporation’s (CCC) operations for fiscal year 2009
and meets the requirements of the CCC Charter Act, as amended, and the Government Corporation Control Act, as
amended.

CCC worked closely with Clifton Gunderson LLP and the Office of Inspector General (OIG) for the United States
Department of Agriculture (USDA) in the development of this report.

The Management’s Discussion and Analysis section of the report contains the purpose, authority, mission and goals
of the Corporation, financial and program summaries and performance measures. This information is followed by
the audit opinion letter, financial statements, and accompanying notes.




The U.S. Department of Agriculture (USDA) prohibits discrimination in all its program and activities on the basis of
race, color, national origin, age, disability, where applicable, sex, marital status, familial status, parental status,
religion, sexual orientation, genetic information, political beliefs, reprisal, or because all or part of an individual’s
income is derived from any public assistance program. (Not all prohibited bases apply to all programs.) Persons
with disabilities who require alternative means for communication of program information (Braille, large print,
audiotape, etc.) should contact USDA’s TARGE Center at (202) 720-2600 (voice and TDD). To file a complaint of
discrimination, write to USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W., Washington, DC
20250-9410, or call (800) 795-3272 (voice) or (202) 720-6382 (TDD). USDA is an equal opportunity provider and
employer.




                                                           3
                                                         Table of Contents
Part I: Management’s Discussion and Analysis (Unaudited) ......................................................... 5
  History of the Commodity Credit Corporation .......................................................................................................... 6
  Structure of the Commodity Credit Corporation ....................................................................................................... 7
  CCC Board of Directors ............................................................................................................................................ 8
  CCC Program Areas .................................................................................................................................................. 9
  Future Effects of Demands, Events, and Conditions ............................................................................................... 10
  Performance Highlights Summary........................................................................................................................... 12
  Financial Highlights ................................................................................................................................................ 14
  Management Controls, Systems, and Compliance with Laws and Regulations ...................................................... 20
  Federal Managers’ Financial Integrity Act (FMFIA) .............................................................................................. 23
     Fiscal Year 2009 Results ..................................................................................................................................... 23
     Material Weakness Remaining in Fiscal Year 2009 ............................................................................................ 25
  Antideficiency Act (ADA) ...................................................................................................................................... 27
  Management Summary, Initiatives, Information and Issues.................................................................................... 28
  Limitations of the Financial Statements .................................................................................................................. 32
Part II: Performance Section (Unaudited)..................................................................................... 33
  Performance Section ................................................................................................................................................ 34
     Income Support and Disaster Assistance Program Area...................................................................................... 35
     Conservation Program Area ................................................................................................................................ 41
     Commodity Operations and Food Aid Program Area ......................................................................................... 43
     Marketing Expansion and Trade Building Program Area.................................................................................... 45
     Export Credit Program Area ................................................................................................................................ 48
Part III: Financial Section ........................................................................................................... 50
  Consolidated Financial Statements .......................................................................................................................... 51
  Notes to the Financial Statements............................................................................................................................ 55
  Required Supplementary Information (Unaudited) ............................................................................................... 103
Part IV: Other Accompanying Information (Unaudited) ............................................................ 108




                                                                                  4
   Part I: Management’s
   Discussion and Analysis
   (Unaudited)
Mission Statement
The Commodity Credit Corporation is a Government-owned and
operated entity dedicated to:

   Stabilizing, supporting, and protecting farm income and
    prices.

   Maintaining balanced and adequate supplies of agricultural
    commodities and aiding in their orderly distribution.

   Conservation of soil, air, and water resources and
    protection and improvement of wildlife habitats.

   Developing new domestic and foreign markets and
    marketing facilities for agricultural commodities.




                               5
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis



            History of the Commodity Credit Corporation

  E        stablished in 1933, the Commodity Credit Corporation (hereinafter CCC, Agency, or Corporation) is a
           government-owned corporation within the United States Department of Agriculture (USDA), created to
           stabilize, support, and protect farm income and prices. CCC is also the Federal government’s primary
financing arm for many domestic and international agricultural programs. CCC helps maintain balanced and
adequate supplies of agricultural commodities and aids in their orderly distribution.


CCC helps America’s agricultural producers through commodity and farm storage facility loans,
purchases, and income support payments. CCC also works to make available materials and facilities required in the
production and marketing of agricultural commodities. In addition, CCC provides incentives and payments to
landowners to establish conservation practices on their land.


CCC provides agricultural commodities to other Federal agencies and foreign governments.                    CCC also
donates commodities to domestic and international relief agencies as well as foreign countries. CCC assists in the
development of new domestic and foreign markets and marketing facilities for American agricultural commodities.
CCC operates numerous domestic programs such as income support, disaster, and conservation programs. It also
extends direct credit and guarantees commodity sales to foreign countries throughout the world.


CCC has its own disbursing authority and utilizes the Federal Reserve Bank system and United States
Treasury to make payments. This disbursing authority allows CCC to make payments quickly and to provide
financial support to America’s producers and farmers immediately. CCC has multiple funding mechanisms. Most
of the domestic programs are operated out of a revolving fund, which has a $30 billion borrowing authority from the
Treasury. This fund also receives money from appropriated funding for costs incurred (i.e., realized losses), loan
repayments, inventory sales, interest income, and fees. Additionally, CCC receives direct appropriations for specific
programs such as its Credit Reform programs, foreign grant and donation programs, and disaster relief.




         Certain information contained in this discussion is considered “forward-looking information” as
         defined by the Federal Accounting Standards Advisory Board’s (FASAB) Statement of Federal
         Financial Accounting Standards (SFFAS) No. 15, Management’s Discussion and Analysis, and
         Statement of Federal Financial Accounting Concepts (SFFAC) No. 3, Management’s Discussion
         and Risk Analysis Concepts. Such forward-looking information includes estimates and is subject
         to risks and uncertainties that could cause actual results to differ materially from this discussion.




                                                           6
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis



           Structure of the Commodity Credit Corporation
A Board of Directors manages CCC subject to the general supervision and direction of the Secretary of Agriculture
who is an ex officio director and chairperson of the Board. The Board consists of seven members in addition to the
Secretary. The President of the United States, with the advice and consent of the Senate, appoints the board
members to office. The members of the Board and the Corporation’s officers are officials of USDA. CCC officers,
directly or through officials of designated USDA agencies, maintain liaison with numerous other governmental and
private trade operations. 1

CCC has no actual employees; it carries out the majority of its programs through the personnel and facilities of the
Farm Service Agency (FSA) as well as other USDA agencies. Most of CCC’s programs are delivered through an
extensive nationwide network of FSA field offices, including approximately 2,400 USDA Service Centers and 51
state offices (including Puerto Rico). This network enables CCC to maintain a close relationship with customers,
successfully addressing their needs and continually improving program delivery.

Though FSA provides the staff for CCC, several CCC funded programs fall under the Foreign Agricultural Service
(FAS) or Natural Resources Conservation Service (NRCS). FAS has the primary responsibility for USDA’s
international activities—market development, trade agreements and negotiations, and the collection and analysis of
statistics and market information. It also administers USDA’s export credit guarantee and food aid programs and
helps increase income and food availability in developing nations by mobilizing expertise for agriculturally led
economic growth.

NRCS is the primary conservation agent for the USDA. NRCS provides leadership in a partnership effort to help
America's private landowners and managers conserve their soil, water, and other natural resources. NRCS provides
financial assistance for many conservation activities. NRCS reaches out to all segments of the agricultural
community, including underserved and socially disadvantaged farmers and ranchers to ensure that CCC’s programs
and services are accessible to everyone.




1
  As required by 5 U.S.C. 552 b (j), by filing this report, CCC is notifying the Congress of the United States that the
CCC Board did not hold any open or closed meetings this fiscal year. Additionally, there was no litigation brought
against the Board under the Government in the Sunshine Act this year. Similarly, there are no changes in policies or
statutes requiring notification under this subsection.


                                                          7
                        COMMODITY CREDIT CORPORATION
                               Management Discussion and Analysis


                            CCC Board of Directors
                 Chairperson, Thomas James Vilsack, Secretary of Agriculture
                 Vice Chairperson, Vacant, Deputy Secretary of Agriculture
           Member, Vacant, Under Secretary, Farm and Foreign Agricultural Services (FFAS)
                  Member, Vacant, Under Secretary, Rural Development (RD)
           Member, Vacant, Under Secretary, Food, Nutrition, and Consumer Services (FNCS)
            Member, Vacant, Chief Financial Officer and Chief Information Officer, USDA
            Member, Vacant, Under Secretary, Marketing and Regulatory Programs (MRP)
            Member, Vacant, Under Secretary, Natural Resources and Environment (NRE)

                                      CCC Officers
                      President, James W. Miller, Under Secretary, FFAS
    Executive Vice President, Jonathan W. Coppess, Administrator, Farm Service Agency (FSA)
         Vice President, Carolyn Cooksie, Acting Associate Administrator, Programs, FSA
      Vice President, Vacant, Acting Associate Administrator, Operations and Management, FSA
         Vice President, Rayne Pegg, Administrator, Agricultural Marketing Service (AMS)
       Vice President, Michael Michener, Administrator, Foreign Agricultural Service (FAS)
             Vice President, Patricia R. Sheikh, Acting General Sales Manager, FAS
          Vice President, Julie Paradis, Administrator, Food and Nutrition Service (FNS)
        Vice President, David White, Chief, Natural Resources Conservation Service (NRCS)
  Deputy Vice President, James W. Monahan, Deputy Administrator, Commodity Operations, FSA
        Deputy Vice President, Philip G. Short, Deputy Administrator, Management, FSA
       Deputy Vice President, Brandon Willis, Deputy Administrator, Farm Programs, FSA
  Deputy Vice President, James W. Monahan, Acting Deputy Administrator, Field Operations, FSA
      Deputy Vice President, Joy Harwood, Director, Economic & Policy Analysis Staff, FSA
                Deputy Vice President, Dana D. York, Associate Chief, NRCS
         Deputy Vice President, Thomas W. Christensen, Deputy Chief, Programs, NRCS
        Deputy Vice President, Katherine C. Gugulis, Deputy Chief, Management, NRCS
        Secretary, Steven N. Mikkelsen, Acting Executive Assistant to the Administrator, FSA
                    Deputy Secretary, Vacant, Farm Service Agency (FSA)
                Assistant Secretary, Monique B. Randolph, Staff Assistant, FSA
           Controller, Heidi G. Ware, Acting Director, Office of Budget and Finance, FSA
       Treasurer, Monty D. Tranbarger, Acting Director, Financial Management Division, FSA
Chief Accountant, Agnes Leung, Acting Center Director, Policy, Accounting, Reporting, and Loan Center,
                                 Financial Management Division, FSA


                                          Advisors
                  General Counsel, Vacant, Office of the General Counsel
 Associate General Counsel, Ralph A. Linden, International Affairs, Commodity Programs and Food
                                         Assistance Programs




                                                  8
                              COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis


                                      CCC Program Areas
CCC funds many programs that fall under multiple agencies within the USDA. Each CCC funded program helps
achieve parts of both the CCC mission and the strategic plan of the agency under which the program falls. CCC’s
mission and agency strategic goals are achieved through the successful implementation of the following key
programs:


Income Support and Disaster Assistance – Income support and disaster assistance programs provide
financial assistance to protect farmers and ranchers from fluctuations in market conditions and unexpected natural or
man-made disasters. Assistance is provided through income support programs, disaster assistance programs, and the
Noninsured Crop Disaster Assistance Program (NAP). FSA is responsible for administering income support and
disaster assistance. The agency is expanding the way it interfaces with farmers and producers in its traditional
“safety net” programs by adding on-line options while maintaining more traditional approaches. This has been a
monumental challenge for FSA. The performance discussion will cover the progress of the on-line initiatives.


Conservation – Supported by the Food, Conservation, and Energy Act of 2008 (2008 Farm Bill), conservation
programs offer farmers and ranchers a variety of financial and economic incentives to conserve natural resources on
the nation’s privately owned farmlands. Programs focus on reducing erosion, protecting streams and rivers,
restoring and establishing fish and wildlife habitats, and improving air quality through several conservation
incentive payments, technical assistance, and cost-share programs.


Commodity Operations and Food Aid – Commodity Operations personnel handle the procurement,
acquisition, storage, disposition, and distribution of commodities, and the administration of the U.S. Warehouse Act
(USWA). These programs help achieve domestic farm program price support objectives, produce a uniform
regulatory system for storing agricultural products, and ensure the timely provision of food products for domestic
and international food assistance programs and market development programs.


Market Expansion and Trade Building – Expanding markets for agricultural products is critical to the
long-term health and prosperity of the U.S. agricultural sector; and with 96 percent of the world’s population living
outside the United States, future growth in demand for food and agricultural products will occur primarily in
overseas markets. FAS market development programs play a critical role in helping to open new markets and in
facilitating U.S. competitiveness; and by doing so, help to secure a more prosperous future for American
agriculture. Support for economic development and trade capacity building reinforces these efforts by helping
developing countries to become economically stable and improve their prospects to participate in and benefit from
expanding global trade in agricultural products.


Export Credit – CCC export credit guarantee and direct loan programs, administered by FAS in conjunction
with FSA, provide payment guarantees for third party commercial financing and direct financing of U.S. agricultural
exports. These programs facilitate exports to buyers in countries where credit is necessary to maintain or increase
U.S. sales but where financing may not be available without CCC credit facilities.




                                                          9
                             COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis



       Future Effects of Demands, Events, and Conditions
2008 Farm Bill Passage: The “Food, Conservation, and Energy Act of 2008” (2008 Farm Bill) has a variety
of new and revised provisions to CCC funded programs that are placing significant strain on the Farm Service
Agency. The new farm bill contains over 600 sections/provisions, which is more than a 50 percent increase when
compared to the 2002 Farm Bill. Major changes include: the Average Crop Revenue Election program; Planting
Transferability Pilot Project for fruit and vegetables grown for processing on base acres in the upper Midwest; direct
attribution for payment limitations; new adjusted gross income limitation provisions; the Biomass Crop Assistance
Program; Feedstock Flexibility Program for Bio-energy Producers; compensation for dairy producers when
domestic milk prices fall below a specified level and payment rate adjustment for feed prices; greater access and
portability of Geospatial Information System data; state specific requirements; farm storage loan provisions; and,
extension of the Pigford settlement to late filers. Policy development and implementation of these programs require
a substantial amount of information technology software development, as well as additional staff time at both
headquarters and field offices. The 2008 Farm Bill authorized $50 million for implementation expenses. The actual
costs to implement the 2002 Farm Bill were approximately $157 million. The effect of the projected funding
shortfall may affect the timing of overall delivery.

Various programs have also been expanded or added that will impact conservation efforts. Authority has been
expanded under the Conservation Reserve Program (CRP) for the Farmable Wetlands Program land eligibility
which now includes certain: (1) Wetlands; (2) Constructed wetlands designed to provide nitrogen removal and other
wetland functions; (3) Land that was devoted to commercial pond-raised aquaculture; and (4) Land that is subject to
the natural overflow of a prairie wetland. A new grant program, Voluntary Public Access, has been added for State
and Tribal governments to encourage owners and operators of privately-held farm, ranch, and forest land to
voluntarily make that land accessible to the public for wildlife-dependent recreation, including hunting or fishing
under programs administered by State or Tribal governments. Also added is a new Emergency Forestry Restoration
Program which assists owners of non-industrial private forest lands to carry out emergency measures to restore the
land after the land is damaged by a natural disaster.



Administrative Resource Constraints and Challenges:                    Although most CCC program outlays are
mandatory, the salaries and administrative expenses (S&E) for the Agencies responsible for administering CCC
programs are subject to a continuously constrained discretionary spending environment. The Agencies are under
significant pressure to modernize the service delivery environment in order to provide more flexibility in responding
to fluctuations in program demand. In addition, there is a risk of knowledge loss as experienced employees retire.
USDA agencies are addressing these issues through a series of information technology modernization initiatives
coupled with human capital planning.

Succession planning efforts are critical to ensuring the continuity of leadership and workforce in CCC-funded
programs. The most immediate and critical human capital issue is the high number of employees in Mission Critical
Occupations (MCO) who are, or soon will be retirement eligible. By FY 2012, there is the potential of losing 50%
of the mission critical leadership positions and 34% of workforce within the MCO’s. To address this challenge, a
Human Capital Plan will be implemented at Farm Service Agency. This includes Leadership Training Programs and



                                                         10
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis

related funding. Also, recruiting and retaining a skilled IT workforce is among the most critical challenges as
customers’ requirements and program offerings grow more complex and market conditions change. There is also
need to develop a Knowledge Management program that can immediately focus on an effective and efficient
knowledge transfer program agency-wide. The Farm Service Agency plans to reorganize several major functional
areas beginning with the transformation of the Human Resources Division. In order to accomplish its strategic
human capital goals and objectives as well as address and close gaps in the Agency’s Human Capital Plan, financial
funding must be dedicated.


Economic Fluctuation and Volatility:              Global and domestic economic volatility is causing corresponding
volatility to the CCC program portfolio. Increased production by foreign producers can lower commodity prices and
affect the ability of farmers and ranchers to compete in the global marketplace. Policy changes in foreign countries
may create trade barriers that will affect the ability of American producers to market and sell their products in
overseas markets. The strength of the U.S. dollar relative to other currencies can also affect the competitiveness of
American products in foreign countries. Volatile energy prices affect farmers and ranchers by impacting the prices
of inputs required to produce commodities. Increasing energy concerns are projected to have a significant effect on
farm economics. These concerns may alter conservation decision making. If commodity prices increase,
landowners are less willing to retire cropland for conservation practices.

Natural Disasters and Weather Conditions:                 Extreme climate and weather events often cause extensive
flooding and sustained droughts that profoundly affect our society in general and agriculture in particular.
Agriculture is vulnerable to variations and fluctuations in weather and climate because existing agricultural practices
were developed for average weather and climate conditions. Furthermore, global climate change is acknowledged
as a reality which will affect farming and ranching practices and conservation measures. Agencies are in the process
of developing plans to review programs and operations to help mitigate global climate change while ensuring
efficient and abundant agricultural production.




                                                         11
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis



                         Performance Highlights Summary
The CCC met the performance target to maintain or increase the percentage of program benefits delivered through a
Web environment. Of the nine farm programs designated to be web-enabled, benefits for three programs are
currently available to producers through a Web environment. CCC met the performance target by maintaining the
percentage at 33% for Web-enabled programs available to producers.


The Noninsured Crop Disaster Assistance Program (NAP) provides financial assistance to producers of crops for
which there is no available crop insurance when low yields, loss of inventory, or prevented planting occur because
of a natural disaster. The program did not meet its target for increasing the percentage of eligible crops with NAP
coverage due to policy changes that negatively impacted the validity of data, and significant changes in commodity
prices. Because the NAP figure depends on proxy data from several program partners, the results are dependent on
reconciling operational parameters so that data is comparable. Targets were set based on agency practices that have
recently been altered.


In FY 2008, significant commodity price differences resulted in a negative crop value for NAP. NAP participation
fees increased by 14 percent and crops covered increased more than 34 percent, after removal of mandated NAP fee
increases during FY 2009. To compensate for the anomaly affecting the NAP formula, data inputs were adjusted to
compensate for changes in operational parameters, resulting in a NAP eligibility figure of 6.4 percent, similar to
previous years. However, with this adjustment, the data is still not representative of actual producer participation in
NAP.


The recent passage of the Food, Conservation, and Energy Act of 2008 requires participation in NAP and/or
purchase of crop insurance in order to gain eligibility for USDA permanent disaster programs. Permanent disaster
programs include: the Supplemental Revenue Assistance Payments Program, Livestock Forage Program, and
Emergency Assistance for Livestock, Honey Bees, and Farm-Raised Fish Program, and the Tree Assistance
Program. NAP results are based on non-insurable crops that have been affected by natural disasters and weather
conditions occurring in FY 2008. Program outcomes depend on the extent and severity of natural disasters, and
therefore are difficult to measure or predict from year to year. The measure represents payments made in FY 2009
for disasters that occurred in FY 2008. A total of $ 59.8 million in NAP payments were made in FY 2009, a
decrease of $ 3.6 million from the FY 2008 figure of over $ 63.4 million. However, the actual number of crops
enrolled in NAP increased from 168,843 crops in FY 2008 to 227,468 crops in FY 2009, an increase of 34.7 percent.


The FSA/CCC performance measure “Reduce the average number of days between warehouse examinations,”
achieved its goal to reduce the average time between warehouse examinations. The FY 2009 target was 400 days
between warehouse examinations. In FY 2009, examinations were performed more frequently, an average of 363



                                                          12
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis

days. This was due in part to efficient examination practices and time savings through the use of electronic
warehouse receipts. The warehouse examination program performs examinations of licensed and contracted
warehouse facilities that store or handle commodities for CCC. The more frequently warehouses are examined for
compliance with CCC storage agreements and United States Warehouse Act licensing agreements by FSA
warehouse examiners, the sooner any potential pest infestation or quality deterioration of commodities in store will
be discovered. Factors affecting the time between examinations of these warehouses include the number of
warehouses participating in storage programs for the account of CCC, the number of USWA licensed warehouses,
the amount or value of commodity in store with CCC interest, the length of time the commodities have been in store,
whether the commodities have been forfeited or are simply under loan, staff losses during FY 2009, and funding for
the examination program.


CRP surpassed its performance target of 2.01 million acres for the measure “Increase Conservation Reserve
Program (CRP) acres of riparian and grass buffers (million acres)” by approximately 20,000 acres. For FY 2009,
producers have set aside approximately 2.03 million acres as CRP buffer areas. The Conservation Reserve Program
(CRP) is the nation’s largest private-lands conservation financial assistance program with over 33.7 million acres
enrolled as of September 30, 2009. The USDA Strategic Plan for FY 2005-2010 set a strategy of helping producers
increase the number of riparian and grass buffers on agricultural lands. As one indicator of its performance in
achieving this strategy, FSA monitors acreage of agricultural lands to be enrolled as buffer zones in CRP. These
buffers intercept sediment and nutrients before they reach surface waters.


CRP exceeded its annual FY 2009 performance target of 50,000 acres enrolled for the measure “Increase wetlands
acres restored” by 31,443 acres. The major increase is due to the announcement of increased incentives for certain
wetland practices and underestimating the number of general signup acres re-enrolled into wetland practices.
Contributing to the total cumulative wetlands enrollment were several initiatives, including the 500,000-acre
Bottomland Hardwood Timber Initiative and the 250,000-acre non-floodplain Wetland Restoration Initiative. These
wetlands and buffers have increased prime wildlife habitat and water storage capacity and have led to a net increase
in wetland acres on agriculture land. The CRP continues to be acknowledged for its environmental benefits
generated by long-term conservation contracts protecting air, soil, water, and wildlife resources.




                                                         13
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis



                                      Financial Highlights
As part of its mission to stabilize, support, and protect farm income and prices, CCC is also responsible for
providing accurate, timely, and useful financial management information to all Agency stakeholders. The financial
statements have been prepared from the accounting records of the Agency as of September 30, 2009 and September
30, 2008 in accordance with generally accepted accounting principles for Federal entities and policies prescribed in
the Office of Management and Budget (OMB) Circular A-136, Financial Reporting Requirements.


Assets:    The Balance Sheet shows the Agency had total assets of $12.5 billion as of September 30, 2009, a
decrease of $2.1 billion (14 percent) below the previous year’s total assets of $14.5 billion. The decrease in Fund
Balance with Treasury is due to the fewer loan repayments in upland cotton, corn, refined beet sugar, and rough rice.
Upland cotton farmers utilized certificate payments instead of cash payments in fiscal year 2009. This resulted in
fewer regular cash loan repayments.

The increase in Commodity Inventory reflects an increase in purchase of surplus nonfat dry milk from dairy
manufacturers in order to stabilize domestic dairy prices as required by the Agricultural Act of 1949. The decrease
in Other Assets is due to Export Guarantee Program Negative subsidies transferred to Treasury and a decrease in
advancements of P.L 480 Title II Grants payments to USAID.



  Assets                                                                                      Dollars in Millions
 As of September 30                                                          2009     2008 Variance Variance %
 Fund Balance with Treasury                                              $ 1,315 $ 3,035 $ (1,720)         -57%
 Cash and Other Monetary Assets                                                92       92        -           0%
 Accounts Receivable, Direct Loans and Loans Guarantees, Net               10,726   11,147     (421)         -4%
 Commodity Inventories, Net                                                   205       15      190       1267%
 General Property and Equipment, Net                                           44       51       (7)       -14%
 Other                                                                         83      189     (106)       -56%
 Total Assets                                                            $ 12,465 $ 14,529 $ (2,064)       -14%



Liabilities:   The Balance Sheet shows the Agency had total liabilities of $22.5 billion as of September 30, 2009.
This represents a decrease of $741 million below the previous year’s total liabilities of $23.3 billion. The decrease
in Debt to the Treasury is primarily due to a decrease in the repayment of interest bearing Treasury notes. Total
borrowings and repayments on borrowings from Treasury decreased in FY 2009 as a result of these payments.




                                                         14
                                                            COMMODITY CREDIT CORPORATION
                                                                        Management Discussion and Analysis


   Liabilities                                                                                                                                                   Dollars in Millions
   As of September 30                                                                                                                           2009     2008 Variance Variance %
   Accounts Payable                                                                                                                         $    302 $    287 $     15           5%
   Debt to the Treasury                                                                                                                        4,877    5,877   (1,000)       -17%
   Loan Guarantee Liabilities                                                                                                                    221      161       60         37%
   Environmental and Disposal Liabilities                                                                                                          8        8        -           0%
   Other                                                                                                                                      17,134   16,950      184           1%
   Total Liabilities                                                                                                                        $ 22,542 $ 23,283 $ (741)           -3%




    Assets and Liabilities
                                50,000                                                                                                                                    $46,036
                                45,000
                                                                                                                                                    $38,821
                                40,000
                                35,000
        Dollars in Millions




                                30,000
                                25,000               $22,542                   $23,283               $23,210
                                                                                                                                                                $19,203
                                20,000                                                                                                      $15,689
                                                                     $14,529
                                15,000        $12,465                                         $12,647

                                10,000
                                  5,000
                                         0
                                                    2009                      2008                  2007                                            2006                 2005
                                                                                                 Fiscal Year
               Assets                         Liabilities



Ending Net Position:                                     As of September 30, 2009 and September 30, 2008, the Agency’s net position was
$10.1 billion and $8.8 billion, respectively. Net Position is the sum of the Unexpended Appropriations, Cumulative
Results of Operations, and Capital Stock.


    Unexpended Appropriations and Cumulative Results of Operations

               Unexpended Appropriations                                                                                           Cumulative Results of Operations
                                                                                                           D o llars in M illio n s (-)




                                                                                                                                          $30,000                                               $27,647
        Dollars in M illio ns




                                $3,000
                                $2,500          $2,028                                                                                                                                $24,074
                                $2,000                                                                                                    $20,000   $12,205
                                                            $1,470                                                                                            $10,324
                                $1,500                                $643      $842      $714                                            $10,000                           $11,306
                                $1,000
                                 $500
                                    $0                                                                                                        $0
                                             2009    2008        2007        2006      2005                                                         2009      2008      2007       2006   2005
                                                              Fiscal Year                                                                                            Fiscal Year




                                                                                                   15
                          COMMODITY CREDIT CORPORATION
                                   Management Discussion and Analysis

Results of Operations:           The Commodity Credit Corporation categorizes the net cost of operations based
on the Agency’s strategic goals. Net cost of operations was $14.2 billion and $11.0 billion for the fiscal years
ended September 30, 2009 and September 30, 2008, respectively. Overall total net cost of operations increased
29 percent from the prior year. As shown in the table below, Supporting Productive Farms and Ranches
expenses underlie a majority of the costs for the fiscal years ended September 30, 2009 and September 30,
2008. The activity that caused the fluctuation in the Statement of Net Cost for the fiscal year ended September
30, 2009 relates to the following strategic goals:


  •    Supporting Productive Farms and Ranches – Two major factors contribute to the increase from the
       prior year. First, an increase in the Price Support Commodity Certificate program was caused by market
       prices and the Adjusted World Price for upland cotton being lower than the National Average Loan rate.
       In addition, a Court Order Payment, initially an unfunded liability of $100 million for the Pigford Claims,
       increased to $1.25 billion in legal liabilities in anticipation of pending litigation.

   •   Supporting Secure and Affordable Food and Fiber – The increase in net cost is due to a decrease in
       earned revenue from the sale of wheat for the Bill Emerson Humanitarian Trust (BEHT) in FY 2009.
       There was an authorized release of wheat from BEHT in FY 2008, which generated higher earned
       revenue.

   •   Conserving Natural Resources and Enhancing the Environment – The increase in net cost is due to
       an increase in the Conservation Reserve Program annual payments.

   •   Supporting International Economic and Trade Capacity – The decrease in net cost is a result of the
       P.L. 480 Title II Export program. In FY 2008, the program purchased additional commodities to meet
       emergency needs in foreign countries. Thus, the net cost for FY 2009 has decreased due to less
       commodities being purchased than in the previous year.




Summary of Net Cost of Operations by Strategic Goals                                       Dollars in Millions
For the Fiscal Years Ended                                           2009           2008 Variance Variance %
Supporting Productive Farms and Ranches                          $ 10,335 $        7,211 $ 3,124         43%
Supporting Secure and Affordable Food and Fiber                       156            (29)    185        638%
Conserving Natural Resources and Enhancing the                      2,222          2,123      99           5%
 Environment
Supporting International Economic Development and                     1,444        1,651        (207)    -13%
 Trade Capacity Building
Total Net Cost of Operations                                     $ 14,157     $ 10,956      $ 3,201      29%




                                                       16
                                                              COMMODITY CREDIT CORPORATION
                                                                          Management Discussion and Analysis



Supporting Productive Farms and Ranches




                                   40,000
                                                                                                                               $34,537
                                   35,000
    Dollars in Millions




                                   30,000
                                                                                                            $22,716
                                   25,000
                                   20,000
                                                                                                                                           $12,650
                                   15,000                $12,682                          $12,905
                                   10,000                                 $8,351                      $4,393          $4,291
                                                                                   $1,140
                                                                 $2,347
                                                5,000
                                                   0
                                                            2009              2008             2007             2006               2005
                                                                                             Fiscal Year
      Gross Cost                                         Earned Revenue




Supporting Secure and Affordable Food and Fiber




                                                                                   $271
                                                 300                        $242

                                                 200      $171
                                                                                                               $109
                          Dollars in Millions




                                                 100                                                                                     $62
                                                                   $15                               $22              $34
                                                    0
                                                                 2009              2008              2007             2006               2005
                                                 (100)
                                                                                            ($110)
                                                 (200)

                                                 (300)

                                                 (400)
                                                                                                                                ($375)
                                                                                              Fiscal Year
                           Gross Cost                     Earned Revenue




                                                                                               17
                                                COMMODITY CREDIT CORPORATION
                                                         Management Discussion and Analysis



Conserving Natural Resources and Enhancing the Environment




                                   2500                                                      $2,366
                                           $2,223          $2,125         $2,158                              $2,157
                                   2000
      Dollars in Millions




                                   1500

                                   1000

                                    500
                                                 $1              $2                $1                 $35            $2
                                      0
                                               2009            2008            2007            2006             2005
                                                                          Fiscal Year
                            Gross Cost              Earned Revenue




Supporting International Economic Development and Trade Capacity Building




                                    $2,500
                                                               $2,067
                                    $2,000      $1,749                         $1,712
             Dollars in Millions




                                    $1,500                                                                        $1,253

                                                                                               $852           $907
                                    $1,000
                                                                        $416            $552           $670
                                                        $305
                                      $500

                                          $-
                                                    2009         2008             2007          2006            2005
                                                                               Fiscal Year
                               Gross Cost             Earned Revenue




                                                                               18
                                               COMMODITY CREDIT CORPORATION
                                                         Management Discussion and Analysis

Obligations and Outlays:                              Between September 30, 2009 and September 30, 2008, Obligations Incurred
increased by $1.8 billion. For Direct Obligations, the decrease is attributed to a non-expenditure transfer and an
increase in funding P.L. 480 Title II Grants for emergency food assistance in FY 2008 with no similar activity in FY
2009. For Reimbursable Obligations, the increase is attributed to the Direct and Counter Cyclical Payment program,
which made producer payments available at the end of December 2008.

   Summary of Obliglations                                                                                                 Dollars in Millions
   For the Fiscal Years Ended                                                                   2009           2008      Variance Variance %
   Obligations Incurred:
     Direct                                                                                $  4,420      $  5,128       $  (708)        -14%
     Reimbursable                                                                            24,232        21,704         2,528          12%
   Total Obligations                                                                       $ 28,652      $ 26,832       $ 1,820           7%


Between FY 2009 and FY 2008, Net Outlays increased by $3.7 billion. The increase reflects a decrease in
Offsetting Collections from loans repaid due to market conditions in FY 2008. In FY 2009, market prices were
below Adjusted World Prices thus, the producers were able to repay loans at a rate lower than the loan rate. This
resulted in fewer repayments and lower Offsetting Collections in FY 2009.



   Summary of Net Outlays                                                                                                  Dollars in Millions
   For the Fiscal Years Ended                                                                   2009           2008      Variance Variance %
   Net Outlays:
     Gross Outlays                                                                         $ 26,927 $ 25,563 $ 1,364                      5%
     Offsetting Collections                                                                  (13,559) (16,022) $ 2,463                  -15%
     Less: Distributed Offsetting Receipts                                                      (473)    (353) $ (120)                   34%
   Net Outlays                                                                             $ 12,895 $ 9,188 $ 3,707                      40%




    Budgetary Resources


                                                                                                          $49,291
                                  $50,000                                                  $46,050                  $45,292
                                                                                                     $43,257
                                  $40,000
            Dollars in Millions




                                            $31,643                    $34,898
                                                         $31,446
                                                                               $31,153
                                  $30,000         $28,652        $26,832

                                  $20,000

                                  $10,000

                                      $0
                                               2009            2008             2007           2006            2005
                                                                             Fiscal Year
                Budgetary Resources                   Obligations Incurred




                                                                                19
                   COMMODITY CREDIT CORPORATION
                        Management Discussion and Analysis



  Management Controls, Systems, and Compliance with
              Laws and Regulations
FMFIA and FFMIA Assurance Statement




                                       20
COMMODITY CREDIT CORPORATION
   Management Discussion and Analysis




                  21
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis




Note: The Assurance Certification is due to the Department by August 30, 2009, which is almost three months
before the final audit report is provided to CCC on November 7, 2009. Therefore, CCC must predict the outcome
and results of reportable conditions it will expect to be reported in the audit report at the beginning of August in
order to prepare the report and send it through the chain of command for signatures. CCC believes that the credit
reform material weakness will be downgraded to a control deficiency, and all outstanding audit recommendations
for credit reform will be closed. In addition, CCC is reporting the material weakness in Management’s analysis of
obligations and liabilities for the Direct and Countercyclical Payment Programs as closed. The significant
deficiency reported in the information technology area will be considered downgraded to a control deficiency.


If the FY 2009 final audit report contains any new unexpected reportable conditions, a revised certification will be
submitted in December 2009.




                                                          22
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis



        Federal Managers’ Financial Integrity Act (FMFIA)
Overview
The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires Federal agencies to submit an annual
report to the President and Congress reflecting the status of management controls for program, financial, and
administrative operations. The Commodity Credit Corporation’s (CCC) FMFIA Annual Report contains CCC’s
material weaknesses, significant deficiencies, and related corrective action plans including material deficiencies
identified through the Office of Management and Budget (OMB) Circular A-123, Management’s Responsibility for
Internal Control, Appendix A, implementation and assessment process conducted during Fiscal Year (FY) 2009.
The CCC Controller provides an annual statement of assurance to the Department of Agriculture’s (USDA) Office
of the Chief Financial Officer certifying that CCC is compliant with FMFIA and is fulfilling requirements to
perform ongoing evaluations of internal control. The assurance statement also includes a certification from the
Controller that:


        Obligations and costs comply with applicable laws and regulations;
        Federal assets are safeguarded against fraud, waste, and mismanagement;
        Transactions are accounted for and properly recorded; and
        Financial management systems conform to standards, principles, and other requirements to ensure that
         Federal managers have timely, relevant, and consistent financial information for decision-making purposes.


Fiscal Year 2009 Results

In compliance with the requirements of FMFIA, CCC evaluated, assessed, and tested its management controls for
program, financial, and administrative operations through the OMB Circular A-123, Appendix A, assessment for
FY 2009.


In FY 2008, management’s assessment of internal controls over financial reporting as of September 30, 2008,
identified three material weaknesses (MW): Financial Reporting – “Credit Reform” and “Management’s analysis of
obligations and liabilities for the Direct and Countercyclical Payment Programs” both reported under FMFIA
Section 2, Material Weaknesses in Internal Controls. Funds Control Management is reported in Section 4, Material
Non-conformances in Financial Systems. There were two significant deficiencies reported in the 2008 audit report,
one in the Information Technology (IT) area, and one in the monitoring of child agency financial information [U.S.
Agency for International Development (USAID)].




                                                         23
                             COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis

During FY 2009, CCC took corrective actions to address prior years’ credit reform deficiencies by developing two
new models and incorporating the Change Control Board (CCB) review and approval of any newly developed
models or modifications to the models. Upon fiscal year end, CCC intends to submit all completed documentation
of the models as well as the reviews and testwork to the Department and request closure of all audit
recommendations stemming back to FY 2005.


For the audit recommendations that gave CCC a material weakness in 2008 for “Management’s Analysis of
Obligations and Liabilities for the Direct and Countercyclical (DCP) Programs”, CCC has mitigated this deficiency
and anticipates the 2008 material weakness to be removed in the 2009 report.


Regarding the significant deficiency for the lack of “Monitoring of Child Agency Financial Information”, CCC has
addressed this deficiency with the implementation of additional financial analytics and improved communication
with the U.S. Agency for International Development. However, additional recommendations based on the audit may
warrant a modification to the initial recommendations proposed in 2008.


The significant deficiency for IT Security and Contingency Planning is anticipated to remain in the 2009 report.


CCC continues to report a material weakness for a system nonconformance based on the fact that the system cannot
record an obligation at the time a contract is executed by the county offices. The Funds Control Management
material weaknesses will be mitigated through the Financial Management Modernization Initiative (FMMI) which
continues to be on track and fully implemented by FY 2012.




                                                        24
                             COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis



Material Weakness Remaining in Fiscal Year 2009
Material Weakness 1: Improvement Needed in Financial System Functionality and Funds
Control

This was a repeat condition under which CCC was collaborating with the Office of the Chief Information Officer to
identify and implement additional improvements needed to enhance USDA’s general control environment.
Weaknesses were identified in information security program management, technical security access controls,
software change/configuration management, contingency planning, and end-user computing.


Critical Corrective Action Milestones included the following:


Information security program management
       Identified and implemented controls to better track security training efforts and outstanding risk mitigation
        plan milestones;
       Formalized and better controlled the process by which employees who no longer need access to systems
        and applications have their access rights suspended/removed;
       Required periodic management review of AS/400 county office system users’ access;
       Updated application risk assessment documentation and then ensured that the documentation is updated at
        least every three years (or when major system or application changes are made) to support CCC’s overall
        security program; and
       Verified that risk mitigation plans incorporated all the risks identified in the risk assessments.


Technical security access controls
       Performed more consistent vulnerability scans on all workstations, servers, routers, switches, and printers;
       Ensured that remediation controls were timely implemented as security vulnerabilities were identified;
       Implemented additional controls to review access to production libraries, including periodic review of
        accounts by FSA/CCC security administrators and implemented a software configuration management tool
        for the various FSA/CCC application platforms;
       Required domain and VPN passwords to comply with policy of three invalid attempts prior to locking the
        account (or obtained a waiver to this policy);
       Developed a process to verify that systems identified with a high risk vulnerability do not show up on
        subsequent monthly vulnerability scan reports; and
       Established and enforced a policy that requires physical access authorizations to be completed in their
        entirety.



                                                          25
                             COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis


Software change/configuration management
       Updated 14-ADM or an equivalent policy guide to reflect the current IT processing environment and
        CCC’s software change management processes and controls; and
       Provided training to applicable staff regarding the CCC software change management process.


Contingency planning
       Updated all application contingency plans with testing results and ensured that the plans continued to be
        updated based on future testing efforts and any relevant IT environment changes or business process
        changes.
End user computing
       Encrypted all workstations and computing devices that utilized spreadsheets and localized access databases
        for processing of financial data.




                                                        26
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis



         Federal Financial Management Improvement Act
                            (FFMIA)
The Federal Financial Management Improvement Act (FFMIA) is designed to improve financial and program
managers’ accountability, provide better information for decision-making, and improve the efficiency and
effectiveness of Federal programs. FFMIA requires that financial management systems provide reliable, consistent
disclosure of financial data in accordance with generally accepted accounting principles and standards. These
systems must also comply substantially with the following 4 sections: (1) Federal financial management system
requirements; (2) applicable Federal accounting standards; (3) the Standard General Ledger at the transaction level;
and (4) Information security policies, procedures, and practices meet the reporting requirements of the Federal
Information Security Management Act (FISMA).


During FY 2009, CCC evaluated its financial management systems to assess substantial compliance with the Act.
CCC has demonstrated substantial compliance with Sections 2, 3, and 4. CCC is not substantially compliant with
Section 1 - Federal financial management system requirements, which are reported above in the FMFIA section of
this report. As part of the financial systems strategy, CCC continues to progress in its corrective actions to meet
FFMIA objectives.


                                Antideficiency Act (ADA)
There are no known violations of this act to be reported in FY 2009.




                                                          27
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis



      Management Summary, Initiatives, Information and
                        Issues
INITIATIVE: BUDGET AND PERFORMANCE MANAGEMENT SYSTEM (BPMS)
The Budget and Performance Management System (BPMS) is a management initiative led by the FSA in
collaboration with the FAS, FSIS, RD, and ITS. A primary objective of BPMS is to integrate and improve
management processes and information systems to enable the Agencies to better respond to administrative resource
challenges and constraints (noted in Future Effects of Current Demands, Events, and Conditions). BPMS
encompasses the management processes and information systems for CCC planning, budget formulation, budget
execution, managerial cost accounting, and elements of financial statement preparation.


BPMS has already delivered a modernized budgeting platform and a more integrated framework for reporting CCC
performance results. A CCC managerial cost accounting model that will provide full program costs and other cost
management reports and analyses is in progress. Each FSA program area, including non-CCC program areas, is in
the process of defining direct unit cost and indirect cost metrics using a standard methodology, activity dictionary,
and formulas. Implementation of the CCC managerial cost accounting capability will be enabled by a new labor
data collection system, improvements to workload data collection, and a new commercial off-the-shelf (COTS)
budgeting and cost accounting tool.


The BPMS is the featured initiative on the USDA Financial Data Integration Improvement Plan (FDIIP) for the
Farm and Foreign Agricultural Service (FFAS) business area. Progress is reported on a quarterly basis to USDA
through the FDIIP. Implementation of several budget models and a performance data collection model were
completed in FY 2009. Efforts to obtain unit counts for managerial cost accounting will continue, as will efforts on
new software demonstrating strategic planning measures.


INITIATIVE: MODERNIZE AND INNOVATE THE DELIVERY OF
AGRICULTURAL SYSTEMS (MIDAS)
Modernize and Innovate the Delivery of Agricultural Systems (MIDAS) will improve the Farm Service Agency's
(FSA) delivery of Farm Program benefits, on behalf of the Commodity Credit Corporation (CCC). This project will
provide capability to meet the increasing demand for customer self-service and eliminate FSA's reliance on aging
technology. This project will reduce the risk of hardware failure by replacing the outdated AS400/S36 computing
platform. This project will reengineer business processes to be common and will centralize data assets to support all
farm programs, eliminate program specific duplication of functionality and non-integrated, distributed data that
exists between farm program software applications. It will accomplish increased compliance with modern internal
control structures and effectively implement improved IT security. MIDAS will install commitment-based


                                                          28
                                COMMODITY CREDIT CORPORATION
                                       Management Discussion and Analysis

accounting practices (e.g., obligations, commitments, outlays, funds control) to upgrade both the program and
financial management business practices of the CCC. When finished, FSA’s Farm Programs will become compliant
with federal financial accounting standards (FISMA/A-123/FMFIA). The project is intended to align with the
Office of the Chief Financial Officer's (OCFO) Financial Management Modernization Initiative (FMMI) investment.
As of September 30, 2009, MIDAS is in the planning phase and has not procured the services of a system integrator;
therefore, no development activities have begun. MIDAS anticipates the system integrator contract being awarded
the first quarter of FY 2010.


INITIATIVE: HOMELAND SECURITY INITIATIVES
Homeland Security is a significant, ongoing priority for FSA/CCC. Since 2005, FSA/CCC has been conducting risk
assessments for the various sectors with which it is involved. FSA has collaborated with the Department of
Homeland Security, the Food and Drug Administration, and the Federal Bureau of Investigation, as well as private
industry and State governments in the Strategic Partnership Program Agroterrorism (SPPA) Initiative for the various
sectors affected by FSA operations. The SPPA Initiative is designed to identify sector-specific vulnerabilities
through critical infrastructure/key resource assessments and to develop sector-specific mitigation strategies to reduce
the threat of attack. To date, SPPA Initiative risk assessments have been conducted for the export and country
elevator sectors, the processed commodity sector, and the sugar beet sector. FSA will continue to monitor these
sectors, as required. Each of the four risk assessments will be reviewed on a biennial basis to access progress in
implementing mitigation practices. FSA has used the results of the completed assessments to formulate action plans
on food safety and security and establish safeguard requirements for the commodities that it manages, handles,
transports, stores, and distributes.


INITIATIVE: FOOD AND HUMANITARIAN AID

The Farm Service Agency has successfully transitioned to the Federal Acquisition Regulation and is reorganizing
Commodity Operations to increase efficiency in food aid purchases and dispositions.


The Bill Emerson Humanitarian Trust was established as the Food Security Wheat Reserve in 1980. The Trust is
used to meet emergency humanitarian food needs in developing countries. The Trust is not a continuous food aid
program, but is a cash and/or a commodity reserve that is maintained to provide food aid for unanticipated
emergency needs that cannot otherwise be met through P.L. 480, Title II.


In addition, in FY 2009, Commodity Operations administered the Stocks for Food Initiative, under which
government owned stocks were exchanged for processed and bulk commodities that were made available to
domestic and international food assistance programs. Through these exchanges, CCC eliminated storage and
handling expenses incurred on government owned commodity inventories and increased the quantity of food
assistance that was provided.



                                                         29
                                COMMODITY CREDIT CORPORATION
                                        Management Discussion and Analysis


INITIATIVE: FINANCIAL MANAGEMENT - LINE OF BUSINESS (FM-LOB) AND
FINANCIAL MANAGEMENT MODERNIZATION INITIATIVE (FMMI)
FM-LoB: The FM-Lob Initiative, mandated by OMB, identifies Centers of Excellence for various business functions
performed in the Government. These Centers of Excellence will become the service providers for other Government
Agencies that perform similar lines of business. The goal is to reduce the redundancy of systems development
within the Government by consolidating services into those Centers of Excellence. FM-Lob is designed to reduce
the costs of managing the government's transactions and statements by sharing accounting systems across agencies
to ensure transparency in accounting, improve budget decisions and planning, and share financial data easily.



USDA’s FMMI INITIATIVE: FSA/CCC, in partnership with USDA’s OCFO modernizing aging financial
systems to address challenges and opportunities in the rapidly changing Federal financial management and
technology environment. The primary objective of the FMMI is to improve financial management performance by
efficiently providing USDA agencies with a modern core financial management system that both complies with
Federal accounting and systems standards, (including FM-LoB) while providing maximum support to the Agencies’
mission.

FSA/CCC, in partnership with USDA, is undertaking the FMMI program for four main reasons:

          Grants Management Line of Business:                   USDA continues its development of a strategy to
           implement the Grants Management Line of Business (GMLoB) approach to managing grant activity as part
           of the President’s Management Agenda. The GMLoB is an Office of Management and Budget initiative
           that will identify Centers of Excellence for various business functions performed in the Government.


     Support USDA Mission: To support all elements of the departmental mission, USDA officials
           require high quality financial and performance information to make and implement effective policy,
           management, stewardship, and program decisions. The implementation, operations, and maintenance of
           certified, technologically advanced, and reliable financial systems will contribute to USDA’s mission,
           strategic goals, and objectives.


          Meet Legislative and Management Mandates: The FMMI program will enable FSA/CCC to
           meet its fiduciary responsibilities, including accountability for U.S. tax dollars, and to comply with several
           legislative and regulatory mandates. These mandates include regulations such as the Chief Financial
           Officer’s (CFO) Act, the Federal Managers’ Financial Integrity Act (FMFIA), the Federal Financial
           Management Improvement Act (FFMIA), the Clinger-Cohen Act, the Government Paperwork Elimination
           Act (GPEA), Financial System Integration Office (FSIO, formerly the Joint Financial Management



                                                            30
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis

         Improvement Program or JFMIP), the Government Performance and Results Act (GPRA), the Federal
         Information Security Management Act (FISMA), and associated National Institute of Standards and
         Technology (NIST) guidance in NIST SP 800-53.


        Address Legacy System Support and Material Weaknesses:                           The USDA has selected
         Systems Applications Products (SAP) for the replacement of its legacy accounting systems. The CCC
         legacy accounting systems are no longer supported by the vendor, and CCC must address material
         weaknesses in agency-specific general ledger systems.


FSA is working to replace legacy financial systems, like CCC and FSA-CORE general ledger systems, while
consolidating data and business functions into SAP’s Commercial-Off-the-Shelf (COTS) selected for USDA.


To meet this objective, an assessment of all FSA/CCC’s financial/ program applications functionality is underway to
determine which systems are candidates for:


        Full replacement by FMMI
        Partial replacement of only financial functionality by FMMI
        Interfaces into FMMI.


INITIATIVE: IMPLEMENTATION OF OMB CIRCULAR No. A-123, Appendix A

OMB Circular No. A-123 defines management’s responsibility for internal control in Federal agencies. OMB A-
123 and the statute it implements, the Federal Managers’ Financial Integrity Act of 1982 (FMFIA), are at the center
of the existing Federal requirements to improve internal controls. Appendix A lays out an assessment process that
management should implement in order to properly assess and improve internal control over financial reporting.
The assessment process provides management with the information needed to properly support a separate assertion
as to the effectiveness of internal controls over financial reporting as a subset of the overall FMFIA.


For FY 2009, FSA utilized the services of a contractor to help with documentation and testing of various CCC
business cycles and processes as part of the OMB A-123 internal control assessment. FSA followed the
Departmental methodology for completing the assessment using a systematic method for identifying and
documenting controls within business processes. From the documented controls, FSA then defined those that are
key controls to operations. FSA tested the key controls (both automated and manual) and documented the
performance of those controls. Failed control deficiencies that did not perform as intended or were not designed
properly were further evaluated and in many cases, remediated with corrective action plans prepared for follow-up
resolution.




                                                          31
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis



                   Limitations of the Financial Statements
The principal financial statements have been prepared to report the financial position and results of operations of the
entity pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements have been prepared from the books
and records of the entity in accordance with Generally Accepted Accounting Principles (GAAP) for Federal entities
and the formats prescribed by OMB, the statements are in addition to the financial reports used to monitor and
control budgetary resources which are prepared from the same books and records. The statements should be read
with the realization that they are for a component of the U.S. Government, a sovereign entity.




                                                         32
   Part II: Performance Section
   (Unaudited)
                   U.S. Department of Agriculture Strategic Goals
    Enhance                                  Enhance the                  Protect and Enhance
  International                            Competitiveness                    the Nation’s
 Competitiveness                          and Sustainability               Natural Resource
  of American                               of Rural Farm                       Base and
   Agriculture                                Economies                      Environment




CCC Strategic Goal        CCC Strategic Goal         CCC Strategic Goal   CCC Strategic Goal

    Supporting               Supporting                 Supporting        Conserving Natural
   International             Productive                 Secure and          Resources and
     Economic                Farms and                  Affordable          Enhancing the
 Development and              Ranches                 Food and Fiber        Environment
  Trade Capacity
     Building

  Program Area                            Program Area

Market Expansion            Income Support and Disaster Assistance
and Trade Building                                                           Program Area

                                                                             Conservation
  Program Area                            Program Area

  Export Credit              Commodity Operations and Food Aid




    Foreign
  Agricultural                                  Farm Service Agency
    Service


                          Commodity Credit Corporation


                                               33
                              COMMODITY CREDIT CORPORATION
                                                Performance Section



                                      Performance Section
Given that most of CCC services are carried out by the employees of USDA agencies, the mission of CCC aligns
towards the strategic goals of the Department as well as to the strategic goals of the Farm Service Agency (FSA) and
Foreign Agricultural Service (FAS). Each of these strategic goals, in turn, has objectives that support the results that
the Agencies want to achieve. The performance measures allow CCC to tangibly measure how well it is achieving
these objectives without creating a duplicate reporting burden. The table on page 33 summarizes the relationship
between the USDA strategic goal, and the Agency’s strategic goal, CCC program area. The table also displays
which USDA agency administers the strategic goal.




                                                          34
                                          COMMODITY CREDIT CORPORATION
                                                             Performance Section



        Income Support and Disaster Assistance Program Area
                                                   MISSION                  ELEMENT
                                       Stabilizing, supporting, and protecting farm income and prices.


CCC is the financial instrument for millions of income support and disaster assistance payments each year to
agricultural commodity producers. These payments stabilize, support, and protect farm income and prices. CCC
payment volume for these programs is driven by commodity market prices, payment eligibility rules established in
public policy, and natural or human-caused disasters. CCC payments are best explained in the context of a
commodity crop year. Crop years do not directly correspond to financial statement reporting, so this creates some
unique challenges for discussing payment trends and performance.


Program Area Performance Summary
                                                                                Key Performance
              FY 2008 Performance Targets and Actual Results                         Measures                 2009       2008      2007       2006   2005
                             (In Percentages)                               Maintain or increase
                                                                            percentage program
        40                                                                  benefits delivered through        33.0       33.0      33.0       33.0   22.0
                      33        33                                          web environment
                                                                            (percentage)
        30
                                                         23.52              Increase percent eligible
                                                                            crops with NAP coverage           6.41       7.2       11.8       12.7   12.8
        20                                                                  (percentage)

        10                                         6.4                                         Key Performance Measures
                                                                                                    (In Percentages)
          0
                                                                                 40
                    Benefits via Web              NAP Coverage
         Actual     Target                                                       30

                                                                                 20
                                     FY 2009   Actual YTD
            Measure                   Target   Performance       Result          10
    Maintain or increase
    percentage program                                                            0
    benefits delivered                                            Met                   2009        2008          2007           2006         2005
                                       33.0       33.0
    through web                                                  Target                                        Fiscal Year
    environment
    (percentage)                                                                           Benefits via Web                    NAP Coverage
    Increase percent eligible                                         2
    crops with NAP                   23.52%       6.4%           Target
    coverage (percentage)                                        Not Met
1
    Estimated as of September 30, 2009 and adjusted for data anomaly.
2
    Met range for NAP is 22.52% - 24.52%

CCC met all but one of its performance targets for FY 2009. CCC met the performance target to maintain or
increase the percentage of program benefits delivered through a web environment. Of the nine farm programs
designated to be web-enabled, benefits for three programs are currently available to producers through a web
environment. CCC met the performance target by maintaining the percentage at 33% for web-enabled programs
available to producers.




                                                                           35
                                COMMODITY CREDIT CORPORATION
                                                   Performance Section

With a FY 2009 goal of 23.52 percent, USDA has not met its FY 2009 target for increasing the percentage of
eligible crops with NAP coverage. The unmet goals are due to policy changes that negatively impacted the validity
of data and significant changes in commodity prices. Because the NAP figure depends on proxy data from several
program partners, the results are dependent on reconciling operational parameters so that data is comparable.
Targets were set based on agency practices that have recently been altered.

In FY 2008 significant commodity price differences resulted in a negative crop value for NAP. NAP participation
fees increased by 14 percent and crops covered increased more than 34 percent, after removal of mandated NAP fee
increases during FY 2009. To compensate for the anomaly affecting the NAP formula, data inputs were adjusted to
compensate for changes in operational parameters, resulting in a NAP eligibility figure of 6.4 percent, similar to
previous years. However, with this adjustment, the data is still not representative of actual producer participation in
NAP.

Due to the changing policies across programs, the current NAP measure does not provide data that accurately
reflects NAP progress and cannot be effectively used to set performance targets. A new NAP measure will need to
be developed. Due to the eligibility requirement in the 2008 Farm Bill, NAP performance is expected to increase in
the next fiscal year. This statute requires NAP participation and/or the purchase of crop insurance to gain eligibility
for USDA permanent disaster programs. Permanent disaster programs include: the Supplemental Revenue
Assistance Payments Program, Livestock Forage Program, and Emergency Assistance for Livestock, Honey Bees,
and Farm-Raised Fish Program, and the Tree Assistance Program. FY 2009 NAP results are based on non-insurable
crops that have been affected by natural disasters and weather conditions occurring in FY 2008. Program outcomes
depend on the extent and severity of natural disasters, and therefore are difficult to measure or predict from year to
year. The measure represents payments made in FY 2009 for disasters that occurred in FY 2008. A total of $ 59.8
million in NAP payments were made in FY 2009, a decrease of $ 3.6 million from the 2008 figure of over $ 63.4
million. However, the actual number of crops enrolled in NAP increased from 168,843 crops in FY 2008 to 227,468
crops in FY 2009, an increase of 34.7 percent.


Program Overview and Performance
           Program                   COUNTER-CYCLICAL PAYMENT PROGRAM
                                                                                                      Income Support and
                                      Enhance the Competitiveness and Sustainability
        Strategic Goal                                                                                 Disaster Assistance
                                             of Rural and Farm Economies
                                                                                                         Program Area
         Lead Agency                              Farm Service Agency

 The Direct Crop and Counter-Cyclical Programs (DCP) are key programs in the Agency's effort to mitigate market losses.
 The Food, Conservation, and Energy Act of 2008, Pub. L. 110-234, was enacted into law on May 22, 2008. The DCP is
 authorized for FY 2008 through FY 2012. FSA provides direct payments (cash) to eligible crop producers. The intent is to
 allow planting flexibility while providing a safety net for producers. Counter-cyclical payments will be issued for each of the
 2008 through 2012 crop years of each covered commodity if the effective price for the covered commodity is less than the
 target price for the covered commodity. Counter-cyclical payments vary as market prices change. The FSA electronic Direct
 and Counter-Cyclical Payment Program (eDCP) service allows agricultural producers to enroll in DCP online. Producers can
 choose DCP payment options, assign crop shares, and sign, view, print, and submit their DCP contracts from any computer
 with Internet access at any time. This service is available to all eligible producers for the FY 2008-2012 DCP program years
 and helps the Agency maintain participation rates for this program. While producers still have the option to sign up for the
 program in person at their local USDA Service Center, offering sign-up options through the Internet helps the Agency meet its
 performance objectives, in accordance with the USDA’s mandate to expand E-Gov options for program participants.

        Recommendations
                                                            Status of Implementing Recommendations
    for Performance Measures
 Establish policy within              Completed: On December 29, 2008, the regulations governing the Direct and Counter-



                                                              36
                                COMMODITY CREDIT CORPORATION
                                                   Performance Section

parameters of new Farm Bill           Cyclical Program for the 2009-2012 crop years were published in the Federal Register at
legislation to improve delivery of    7 CFR Part 1412.
the program.
Work to achieve its long-term         Action taken, but not completed: Data continues to be collected on an annual basis on
performance goals.                    the percentage of farm income derived from counter-cyclical payments. This data is
                                      useful in determining the producers' level of dependence on government assistance,
                                      which can serve as an indicator of success.




          Program                         DIRECT CROP PAYMENT PROGRAM
                                                                                                     Income Support and
                                      Enhance the Competitiveness and Sustainability
        Strategic Goal                                                                                Disaster Assistance
                                                of Rural and Farm Economies
                                                                                                         Program Area
         Lead Agency                                Farm Service Agency
FSA/CCC provides Direct Crop Payments (cash) to eligible crop producers. The intent is to allow planting flexibility while
providing a safety net for producers. In FY 2008, the Direct Crop Payments Program was assessed by the Office of
Management & Budget. The program was found to be strong in Strategic Planning and Program Management. It was also
acknowledged that Direct Crop Payments were found to have minimal trade distorting effects. The Food Conservation and
Energy Act of 2008 (2008 Farm Bill) reduced the Adjusted Gross Income (AGI) limitation in order to more effectively reach
lower income producers who can benefit from the stability and safety net provisions of the program. Although the program
has been effective in reducing improper payments, it needs to continue to improve its results. As a partner with the Natural
Resources Conservation Service (NRCS), the Direct Crop Payment Program needs to continue to improve information sharing
to improve its services.
        Recommendations
                                                           Status of Implementing Recommendations
    for Performance Measures
Reviewing and implementing the        Completed: On December 29, 2008, the regulations governing the Direct and Counter
new Farm Bill including               Cyclical Program for the 2009-2012 crop years were published in the Federal Register at
developing rules and regulations.     7 CFR Part 1412.

Continuing to lower improper          Action Taken But Not Completed: Improper Direct Crop Payments continued to decline
payments.                             in FY 2009. The FY 2009 improper payment rate of .42 percent was down .28 percent
                                      from the FY 2008 improper payment rate of .7 percent. FSA is in the process of issuing
                                      a notice to State and County Offices providing FY 2009 IPIA findings related to Direct
                                      Crop Payments and directing follow-up action within each State to ensure that all offices
                                      review the discovered errors and take any needed corrective action.

Improving information sharing         Completed: FSA and NRCS managers routinely meet to improve communication and to
with other USDA agencies.             assure that one agency’s actions do not adversely affect the other agency’s programs.
                                      The tri-Agency Geospatial Data Management Group (comprised of FSA, NRCS, and
                                      RMA) will continue to meet once every month to identify and resolve geospatial data
                                      issues. This includes development of enterprise-wide geospatial architecture as part of
                                      the Geospatial Enterprise Data Center establishment and associated activities. FSA and
                                      RMA conduct weekly teleconferences to facilitate information sharing. FSA and RMA
                                      provide data updates to the Comprehensive Information Management System (CIMS)
                                      weekly for CIMS 2005-2008 data. Additionally, FSA and RMA share data through
                                      CIMS and have weekly teleconferences. FSA also shares data with NASS and work
                                      closely together to develop National spot check selection processes.


    Program                MARKETING ASSISTANCE LOAN PROGRAM
                                                                                                    Income Support and
                             Enhance the Competitiveness and Sustainability
 Strategic Goal                                                                                      Disaster Assistance
                                       of Rural and Farm Economies
                                                                                                        Program Area
  Lead Agency                               Farm Service Agency
The Marketing Assistance Loan (MAL) program provides a safety net for farmers producing the major field crops. The MAL
program is intended to help alleviate the price risk inherent in selling commodities and provides short-term or interim financing.
Instead of selling immediately at harvest, the MAL program allows a producer who grows an eligible crop to store the



                                                              37
                               COMMODITY CREDIT CORPORATION
                                                   Performance Section

production and pledge the crop as loan collateral. The loan proceeds help the producer to maintain financial stability without
having to sell the harvested crop at the time of year when prices tend to be at their lowest levels. Later, when market conditions
may be more favorable, a producer can sell the crop and repay the loan. This program was reviewed by the Office of
Management and Budget (OMB) during FY 2007. The MAL program has been proven to successfully provide short-term
financing. In order to improve the performance of the program, the MAL program is implementing policies to reduce improper
payments, conducting more frequent external audits of program effectiveness, and making the delivery of services to producers
consistent across county offices.

Recommendations
 for Performance                                      Status of Implementing Recommendations
     Measures
Implement policies     Action Taken But Not Completed: During the FY 2009 CORP review, it was determined that MAL’s
to reduce improper     IPIA error rates increased slightly from 1.76% in 2008 to 2.56% in 2009 because of the lack of proper
payments.              supporting documentation before MAL disbursement. The slight increase reflects lien searches and lien
                       waivers being obtained before a MAL request was received in the FSA County Office. Lien search and
                       waiver policy is under review to provide a uniform manner of obtaining and recording lien searches and
                       lien waivers.

                       Additionally, the Agency has requested that State Executor Directors ensure that: 1) additional internal
                       control procedures are developed to avoid findings indicated by program reviews, and 2) applicable
                       State Office program divisions provide additional program training where needed and implement
                       corrective actions to reduce improper payments. The program continues to take action to improve the
                       improper payment percentages in the future.

Conduct more           Action Taken But Not Completed: In its FY 2008 Annual Plan, the USDA OIG indicated it plans to
frequent external      audit the MAL and Loan Deficiency Payments to Cooperative Marketing Associations (CMA) and
audits of program      Designated Marketing Associations (DMA).
effectiveness.
                       All CMA, DMA and Loan Servicing Agents are subject to reviews by Agency staff which are randomly
                       selected. The reviewer will verify if entities reviewed are in compliance with the regulations when
                       disbursing a loan or payment and document results on the Field Review Plan. The reviewer will then
                       issue a statement of findings to the entity reviewed. If any findings are significant, the reviewed entity
                       must create and submit a Corrective Action Plan to the Agency.

                       Additionally, based on OMB A-123 Appendix A, CCC’s external audit firm Price Waterhouse and
                       Coopers (PwC) selected and reviewed three plans during October and December 2008. As a result of
                       PwC’s review, the controls were found to be adequate.

Establish policy       Action Taken But Not Completed: Established Farm Bill Task Force to improve program delivery. The
within parameters      task force met during June and August 2008 and was instrumental in the revision of federal regulations
of new Farm Bill       7CFR-1421. Additionally, the Task Force developed and recommended new standards for National
legislation to         training. During January 5-9, 2009, the Task Force met to revise the MAL policy and procedure
improve delivery of    handbook, 8-LP, and to ensure that MAL policy is consistent with established program regulations. The
the program.           Task Force held additional teleconference meetings in 2009 to complete its task of revising Handbook,
                       8-LP. The projected date for issuing the revised Handbook is December 2009. In addition, various
                       program notices have been issued to notify State and County FSA Offices of new Farm Bill policies and
                       procedures.




                                                              38
                               COMMODITY CREDIT CORPORATION
                                                  Performance Section


          Program                    NONINSURED CROP DISASTER PROGRAM
                                                                                                     Income Support and
                                     Enhance the Competitiveness and Sustainability
       Strategic Goal                                                                                 Disaster Assistance
                                            of Rural and Farm Economies
                                                                                                        Program Area
        Lead Agency                              Farm Service Agency
The Noninsured Crop Disaster Assistance Program (NAP) is a risk management tool for producers of noninsurable crops—
those who are unable to obtain crop insurance through an insurance product. A component of this objective is to increase the
percentage of eligible crops with NAP coverage.
       Recommendations
                                                           Status of Implementing Recommendations
   for Performance Measures
Develop and implement a              Action Taken But Not Completed: FSA is developing cost structures for the Budget and
performance-based budgeting          Performance Management System (BPMS) that will allow for new management reports
process that will improve            that demonstrate cost per service unit and ratios for indirect administrative costs. An
accountability of budget and         activity reporting system pilot has been successfully completed, and agency-wide
financial systems.                   implementation is scheduled for 2nd quarter of FY 2010.

Investigate options to commission    Action Taken But Not Completed: In January 2007, a NAP working group was
independent evaluations that         established, consisting of representatives from the following FSA offices: Deputy
analyze program performance.         Administrator for Farm Programs; Economics, Policies and Analysis Staff; Budget
                                     Division; and Production, Emergencies and Compliance Division. The NAP working
                                     group met to discuss options to conduct an independent evaluation. However, the NAP
                                     survey evaluation has been delayed awaiting an analysis of the impact that the
                                     Supplemental Revenue Assistance Payments Program (SURE) will have on NAP.
                                     SURE requires producers to obtain NAP coverage to maintain eligibility. It is
                                     anticipated that participation rates for NAP will significantly increase. After SURE has
                                     been fully implemented, the survey evaluation can be conducted to obtain the most
                                     accurate survey assessment for NAP.




          Program                     MILK INCOME LOSS CONTRACT PROGRAM
                                                                                                       Income Support and
                                       Enhance the Competitiveness and Sustainability
        Strategic Goal                                                                                  Disaster Assistance
                                                 of Rural and Farm Economies
                                                                                                          Program Area
         Lead Agency                                  Farm Service Agency
The USDA Farm Service Agency's (FSA) Milk Income Loss Contract (MILC) Program compensates dairy producers when
domestic milk prices fall below a specified level. MILC provides direct counter-cyclical style payments to milk producers on
a monthly basis when the Boston Federal Milk Marketing Order Class I price for fluid milk falls below the benchmark of
$16.94 per hundredweight (cwt.). The 2008 Farm Bill changed the $16.94 per cwt. of milk trigger for MILC payments to a
variable trigger that may be adjusted monthly for variations in feed costs above $7.35 per cwt. for a 16-percent protein feed
ration. Monthly MILC payment rates will be determined and payments issued to eligible dairy operations when the Boston
Class I price falls below the feed-cost-adjusted trigger. MILC signup began January 2009, and over $700 million has been
issued to MILC participants as of September 2009.

Eligible dairy producers are those who commercially produce milk in the United States. To receive program approval,
producers must enter into a MILC contract with CCC and provide monthly milk marketing data. Dairy producers can apply
for MILC at local FSA offices. All payments in the program are subject to limits in the contract, regulations, and to changes
in statutory provisions for payment.

        Recommendations
                                                           Status of Implementing Recommendations
   for Performance Measures
Establish policy and develop rules   Completed: Amended regulations at 7 CFR 1430 were published as a final rule in the
and regulations within parameters    Federal Register on December 8, 2008. New handbook policies including revised
of the new Farm Bill to improve      program procedures for field offices were issued in November 2008. Additionally, the
delivery of the program              MILC Task Force comprised of National and State Office specialists was brought to the




                                                             39
                              COMMODITY CREDIT CORPORATION
                                                 Performance Section

                                    National Office to work on aspects of the MILC program and improve efficiency of
                                    program delivery. The Task Force also developed and recommended new standards for
                                    the 2008 Farm Bill National training.

Eliminate shortcomings identified   Action Taken But Not Completed: Following the publishing of new regulations and
in financial audits by              policies required for the 2008 Farm Bill, the program continues to review and update
strengthening the processes and     modify policy and procedure as appropriate. County Offices are required to perform
controls in the program’s           second party reviews for each MILC payment issued. To ensure that FSA is issuing
disbursement program.               MILC payments on eligible production, MILC participants are required to provide
                                    production evidence for commercially marketed production.

                                    Additionally, program notices are issued to notify State and County FSA Offices of
                                    changes and/or clarifications to MILC policy.




                                                           40
                                          COMMODITY CREDIT CORPORATION
                                                                     Performance Section




                                             Conservation Program Area
                                                         MISSION                 ELEMENT
             Conservation of soil, air, and water resources and protection and improvement of wildlife habitats.


The focus of USDA conservation programs administered by FSA is to use environmentally sound management for
agricultural production to meet food and fiber needs of the Nation.


Program Area Performance Summary
                                                                                     Key Performance
           FY 2009 Performance Targets and Actual Results                               Measures                  2009               2008            2007     2006      2005
                         (In Million Acres)
                                                                                 Increase Conservation
                                                                                 Reserve Program (CRP)
     3                                                                                                            2.03                *2.0            1.92     1.86      1.75
                                2                    2                           acres of riparian and grass
     2                                                                           buffers (in million acres)

     2
                                                                                 CRP Wetlands                    81,443            80,103            68,834   61,279    50,934
     1                                                                           acres enrolled (annual):
     1
                                                                                                               Key Performance Measures
     0                                                                                                              (In Million Acres)
                               Riparian and Grass Buffers
                                                                                                                   Ripa ria n a nd Gra ss Buffe rs
      Actual      T arget

           FY 2009 Performance Targets and Actual Results                                 3
                             (Annual)                                                   2.5
                                 83,000                                                   2
     80,000
                                                                                        1.5
     70,000
                                                                                          1
     60,000                                                                             0.5
                                                    50,000
     50,000                                                                               0
     40,000                                                                                        2009         2008               2007               2006       2005
     30,000                                                                                                                   Fiscal Year
     20,000
     10,000                                                                                                      Riparian and Grass Buffers
          0
                                     Restored Wetlands                                                         Key Performance Measures
         Actual      T arget                                                                                            (Annual)
                                                                                                                        Re st ore d We t la nds
                                 FY 2009         Actual YTD
           Measure                Target         Performance           Result
                                                                                         100000
 Increase Conservation
 Reserve Program (CRP)                                                                    75000
                                                             3          Met
 acres of riparian and               2.01             2.03                                50000
                                                                       Target
 grass buffers (in million
 acres)                                                                                   25000
                                                                                               0
                                                                                                      2009        2008                 2007            2006     2005
 Increase wetlands acres                                              Exceeded
                                                                 3                                                                Fiscal Year
 restored (in million               50,000           81,443                  1
 acres)                                                                Target
                                                                                                                         Restored Wetlands




                                                                                41
                                   COMMODITY CREDIT CORPORATION
                                                       Performance Section
1
  Met range for Riparian buffers is 1.90 - 2.11 m. acres.
2
  Met range for Wetlands is 47,500 – 52,500 acres.
3
  Actual performance as of September 30, 2009
*
  Revised 7/09 due to updated enrollment data

The Conservation Reserve Program (CRP) is the nation’s largest private-lands conservation financial assistance
program with a cumulative total of over 33.7 million enrolled acres. The USDA Strategic Plan for FY 2005-2010
set a strategy in place to help producers increase the number of riparian and grass buffers on agricultural lands.
These buffers intercept sediment and nutrients before they reach surface waters. CRP met its performance target of
2.01 million acres for the measure “Increase Conservation Reserve Program” (CRP) acres of riparian and grass
buffers. Through the end of FY 2009, producers had set aside, approximately, a cumulative 2.03 million acres as
CRP buffer areas.

Land currently under contract for the 2009 crop year is down 1 million acres from last year’s 34.7 million acres.
High commodity prices have reduced the attractiveness of retiring cropland from production and enrolling it in CRP.
The Food, Conservation, and Energy Act of 2008 (2008 Farm Bill) reduced the maximum CRP enrollment to 32
million acres beginning in FY 2010.

The annual performance target of 50,000 acres enrolled for the measure “Increase wetlands acres restored” has been
exceeded by 81,443 acres. The major increase is due to the announcement of increased incentives for certain
wetland practices and underestimating the number of general signup acres reenrolled into wetland practices. These
restored wetlands are the result of several initiatives, including the 500,000 acre Bottomland Hardwood Timber and
the 250,000 acre non-floodplain Wetland Restoration Initiatives. These wetlands and buffers have increased prime
wildlife habitat and water storage capacity and have led to a net increase in wetland acres on agriculture land. The
CRP continues to be acknowledged for its environmental benefits generated by long-term conservation contracts
protecting air, soil, water, and wildlife resources.


Program Overview and Performance
              Program                       CONSERVATION RESERVE PROGRAM
                                                Protect and Enhance the Nation’s                             Conservation
           Strategic Goal
                                             Natural Resource Base and Environment                           Program Area
            Lead Agency                               Farm Service Agency
    The Conservation Reserve Program (CRP) is a voluntary program available to agricultural producers to help them safeguard
    environmentally sensitive land. Producers enrolled in CRP plant long-term, resource-conserving covers to improve the quality
    of water, control soil erosion and enhance wildlife habitat. In return, FSA provides participants with rental payments and cost-
    share assistance. Contract duration is between 10 and 15 years. The long-term goal for USDA conservation programs is to
    protect and enhance the Nation’s natural resources and environment to meet the needs of current and future generations.
           Recommendations
                                                                Status of Implementing Recommendations
       for Performance Measures
    Improving the Farm Service           Action Completed: The agency has reengineered CRP technical assistance delivery by
    Agency's technical assistance        utilizing the private sector for technical assistance. In FY 2007, 2008 and 2009, the
    accountability systems               agency issued contracts for training staff to implement third party technical assistance.
                                         In 2007 and 2009 the agency issued contracts and for third party conservation planning.
                                         These actions will continue in 2010, subject to the availability of funding.

    Performing independent program       Action Taken But Not Completed: The agency has expended the funds available for
    evaluations to identify              monitoring, assessing, and evaluating (MAE) CRP. Requests for funds in FY 2009 were
    recommendations for improving        not granted, and new MAE activity has not been undertaken on CRP.
    performance and efficiency




                                                                  42
                                           COMMODITY CREDIT CORPORATION
                                                            Performance Section




              Commodity Operations and Food Aid Program Area
                                                  MISSION               ELEMENT
      Maintaining balanced and adequate supplies of agricultural commodities and aiding in their orderly distribution.


Commodity Operations handles the procurement, acquisition, storage, disposition, and distribution of commodities,
and the administration of the U.S. Warehouse Act (USWA). These programs help achieve domestic farm program
price support objectives, produce a uniform regulatory system for storing agricultural products, and ensure the
timely provision of food products for domestic and international food assistance and market development programs.


Program Area Performance Summary
                                                                            Key Performance
                 FY 2008 Performance Targets and Actual Results                Measures            2009      2008       2007    2006   2005
                                   (In Days)
                                                                        Reduce average time
                                  390            387                    between warehouse           363       387       381     384    365
           400                                                          examinations (in days)


           300                                                                             Key Performance Measures
                                                                                                   (In Days)
    Days




           200
                                                                                   400
           100
                                                                                   300
                                                                            Days




             0                                                                     200
                                Warehouse Examinations                             100
           T arget        Actual
                                                                                     0
                                  FY 2009     Actual YTD                                 2008    2007        2006        2005      2004
              Measure              Target     Performance     Result
                                                                                                          Fiscal Year
    Reduce average time                                      Exceeded
    between warehouse                400          363               1
                                                                                     Warehouse Examinations
    examinations (in days)                                    Target

1
    Performance threshold to exceed is >102 percent

The FSA/CCC performance measure “Reduce the average number of days between warehouse examinations,”
achieved its goal to reduce the average time between warehouse examinations. The FY 2009 target was 400 days
between warehouse examinations. In FY 2009, examinations were performed more frequently, an average of 363
days. This was due in part to efficient examination practices and time savings through the use of electronic
warehouse receipts. The warehouse examination program performs examinations of warehouse facilities which
store or handle commodities for CCC and/or are licensed under the United States Warehouse Act. The more
frequently warehouses are examined for compliance by FSA warehouse examiners, the sooner any potential pest
infestation or deterioration of quality for commodities in store will be discovered. Factors affecting the time
between examinations of these warehouses include: 1) the number of warehouses participating in storage programs
for the account of CCC, 2) the amount or value of commodity in store with CCC interest, 3) the length of time the



                                                                       43
                                COMMODITY CREDIT CORPORATION
                                                   Performance Section

commodities have been in store, 4) whether the commodities are owned by CCC or pledged as collateral for loan, 5)
staff losses during FY 2009, and funding for the examination program.


Program Overview and Performance
           Program                   DAIRY PRODUCT PRICE SUPPORT PROGRAM
                                                                                                     Commodity Operations
                                        Enhance the Competitiveness and Sustainability
        Strategic Goal                                                                                     and Food Aid
                                                   of Rural Farm Economies
                                                                                                           Program Area
         Lead Agency                                   Farm Service Agency
 Dairy Product Price Support Program. Under the authority of the Agricultural Act of 1949, as amended, national policies and
 procedures are formulated and administered through the Dairy Product Price Support Program (DPSP). The
 Dairy Product Price Support Program is authorized for FY 2008 through FY 2012 under the Food, Conservation, and Energy
 Act of 2008, Pub. L. 110-234, which was enacted into law on May 22, 2008. In order to stabilize domestic dairy prices as
 required by law, dairy products are purchased at announced prices under this program. Commodity Operations arranges for
 the purchase, warehouse storage, transportation, handling, and inspection of the dairy products until the commodities are used
 in domestic or international food assistance programs or otherwise disposed of by CCC.
        Recommendations
                                                             Status of Implementing Recommendations
    for Performance Measures
 Add price variability data for an     Action Taken But Not Completed: A USDA Working Group has been meeting
 annual outcome performance            monthly to review several price variability models to determine appropriate measure for
 measure.                              price variability.

 Establish policy within              Action Taken But Not Completed: FSA drafted new regulations for price support.
 parameters of new Farm Bill          Revision is currently in the clearance process
 legislation to improve delivery of
 the program.




                                                              44
                                    COMMODITY CREDIT CORPORATION
                                                         Performance Section



   Marketing Expansion and Trade Building Program Area
                                                MISSION                 ELEMENT
         Developing new domestic and foreign markets and marketing facilities for agricultural commodities.



The Foreign Agriculture Service (FAS) promotes market expansion and trade building through cooperative
agreements between CCC and nonprofit agricultural trade commodity groups and through grant agreements with
private voluntary organizations, foreign governments, and the World Food Program. USDA uses funds or
commodities from CCC to encourage development, maintenance, and expansion of commercial export markets for
agricultural commodities.


Program Area Performance Summary
                                                                            Key Performance
                     Key Performance Measures                                  Measures                 2009     2008    2007   2006   2005
                            In Millions ($)
                                                                        Application Response
                                                                        Time—Food Aid (in days)
                                                                                                         85       132     90    N/A    N/A
                                                                        ** Estimate; Final data not
        800                                                             yet available
        600
                                                                                            Key Performance Measures
        400                                                                                         (In Days)

        200
                                                                               150
           0
               2009**     2008*     2007*       2006*    2005*                 125
                                                                               100
                                  Fiscal Year
                                                                                75
                      Actual Sales for Small Companies
                                                                                50
      Key Performance                                                           25
          Measures             2009     2008      2007   2006    2005            0
 Target Dollar value of
                                                                                       2009      2008          2007     2006    2005
 actual sales for small
 companies (dollars in                                                                                   Fiscal Year
 millions)                     **750    700*      462*   460*    490*
                                                                                               Application Response T ime
 * Target exceeded
 ** Estimate; Final data not
 yet available


Key performance measures for the Market Expansion and Trade Building program area are noted above, with targets
established for FY 2007.




                                                                   45
                               COMMODITY CREDIT CORPORATION
                                                   Performance Section

Program Overview and Performance

          Program                                USDA FOOD AID PROGRAMS
                                                                                                         Market Expansion
                                             Enhance International Competitiveness
        Strategic Goal                                                                                  and Trade Building
                                                     of American Agriculture
                                                                                                           Program Area
         Lead Agency                               Foreign Agricultural Service
The USDA food aid programs address non-emergency food needs of developing countries through donation and long-term
low interest loans for the purchase of U.S. agricultural commodities.
      Recommendations for
                                                               Status of Implementing Recommendations
     Performance Measures
Develop and implement a new            Action taken, but not completed. USDA has selected a firm to build the Food Aid
food aid database with user web-       Information System (FAIS).
interface - the Food Aid
Information System
Improve the timeliness of              Action taken. FAS sends delinquency letters to organizations that fail to report. The
notifying cooperating sponsors         letters are sent within 60-90 days of the infraction.
when they are late in submitting
required semi-annual reports on
logistics and monetization.
FAS has developed and continues The USDA food aid programs meet both development and nutrition needs and involve
to refine a new food security          direct distribution of food and monetization of commodities donated. The development
annual performance measure and         aspects of food aid involve the monetization (sale) of the food aid and the
baseline.                              implementation of long-term development projects that benefit the people of the
                                       recipient country. The Food Aid Targeting Effectiveness Ratio (FATER) examines the
                                       degree to which food aid contributes to reducing a country's food distribution gap. The
                                       food distribution gap is the amount of food needed to raise consumption of each income
                                       group to the minimum nutritional requirement. When the FATER is zero, then this
                                       suggests that food aid was given to a country or countries, in which all people were at or
                                       above the minimum nutritional requirement. When the FATER is 100, then it is
                                       estimated that food aid raised the consumption of all income groups in a recipient
                                       country or countries to the minimum nutritional requirement level or above. USDA is
                                       also developing frameworks for the food aid programs and will be incorporating results
                                       oriented management.
Financial management                   Completed. MARAD reimbursement process has improved significantly. Improvements
improvements in the areas of           in the reconciliation and reporting of unobligated balances have been made and will be
credit reform, budget reporting        strengthened through development of the Food Aid Information System.
and reimbursements are on-going.
FAS has contracted for a review        Completed. Improvements in the food aid information and reporting systems will be
of food aid information and            achieved through implementation of the Food Aid Information System. Development of
reporting systems that will            the database system began in FY 2006. The second phase of implementation will begin
identify areas for improvement in      in FY 2009.
IT systems that will lead to
program efficiencies down the
road. This review is on-going.


                                                USDA FOREIGN MARKET
          Program
                                              DEVELOPMENT PROGRAMS                                  Market Expansion
                                          Enhance International Competitiveness                     and Trade Building
      Strategic Goal
                                                  of American Agriculture                             Program Area
       Lead Agency                              Foreign Agricultural Service
The purpose of these programs is to expand markets for U.S. agricultural commodities. Government funds provided through
FAS are used to help producers, exporters, private companies, and other trade organizations promote U.S. agricultural
commodities overseas.



                                                              46
                               COMMODITY CREDIT CORPORATION
                                                  Performance Section

      Recommendations for
                                                           Status of Implementing Recommendations
     Performance Measures
Reallocate funding to target funds   Completed. Review of the application review process has been completed and program
to those that would benefit the      allocation criteria ensure that funds are targeted to those non-profit industry groups with
most from the programs.              a demonstrated ability to make the most effective use of the funds. Enhancements to the
                                     program evaluation process were completed in May 2007.
Include performance measures in      Completed. Relevant performance measures have been included in FAS’ Office of
the Foreign Agricultural Service’s   Trade Programs’ (OTP) final strategic plan.
strategic plan.
Work with cooperators to             Action taken, but not yet completed. Performance information will be collected through
systematically collect long-term     the 2010 program application process and direct discussions with program participants.
performance information for use
in the OTP strategic plan.
Complete enhancement of the          Action taken, but not yet completed. Assigned contractor is on target to complete the
Unified Export Strategy online       planned software enhancement/upgrade in time for the 2011 application program year.
system for the 2011 program year.




                                                             47
                                   COMMODITY CREDIT CORPORATION
                                                            Performance Section



                                    Export Credit Program Area
                                                  MISSION                 ELEMENT
         Developing new domestic and foreign markets and marketing facilities for agricultural commodities.


CCC promotes exports of U.S. agricultural commodities through sales, payments, export credits, and other related
activities. Currently, CCC makes available export credit guarantees and export bonuses to promote exports. These
programs are administered by FSA and FAS on behalf of CCC.


Program Area Performance Summary

                                        Key Performance Measures
                                             In Billions ($)


                       10
                         8
                         6
                         4
                         2
                         0
                              2009*        2008          2007     2006        2005
                                                   Fiscal Year
                                            T rade Value from GSM


      Key Performance Measures                    2009          2008      2007       2006   2005

 Estimated trade value resulting from
 USDA GSM export credit guarantee                 5.3*          3.11      1.47       1.39   2.91
 programs (dollars in billions)


* Estimate; Final data not yet available




                                                                         48
                                COMMODITY CREDIT CORPORATION
                                                   Performance Section

Program Overview and Performance
                                             AGRICULTURAL EXPORT CREDIT
          Program
                                                  GUARANTEE PROGRAMS                                     Market Expansion
                                            Enhance International Competitiveness                       and Trade Building
        Strategic Goal
                                                     of American Agriculture                               Program Area
         Lead Agency                               Foreign Agricultural Service
CCC’s Export Credit Guarantee Programs (ECGPs) encourage U.S. agricultural exports by underwriting credit to pay for food
and agricultural products sold to foreign buyers.
        Recommendations
                                                               Status of Implementing Recommendations
   for Performance Measures
Develop a means of regularly           Completed. In FY 2006, USDA's Office of the Inspector General (OIG) stated in its
performing independent                 business plan that it will conduct a review of the Export Credit Guarantee Program. In
evaluations to examine program         FY 2008, a subsequent review of the Export Credit Guarantee Program was conducted
effectiveness.                         by OIG. FAS will continue its objective to conduct an independent review of the Export
                                       Credit Guarantee Program, using FAS S&E funds, with USDA/ERS, OIG or another
                                       independent party.
Provide funding in the Budget to       Completed. SCGP and GSM-103 were repealed in the 2008 Farm Bill. For recoveries
improve claims recoveries.             of prior claims, FAS has continued to secure funding each fiscal year to contract for legal
                                       services and investigators in overseas markets, claims processing and debt recovery. We
                                       continue to work with the OIG and the Department of Justice to pursue claims
                                       recoveries.
Examine administrative costs in        Completed. The WTO Brazil cotton case led to the adoption of higher fees that are
light of changes to the supplier       country risk-based but do not affect administrative costs. However, all USDA credit
credit guarantee program               programs, including the ECGP, adopted with OMB approval, an efficiency measure
stemming from the WTO cotton           comparing program administrative costs to the overall guarantees issued and outstanding.
case.                                  On this basis, the ECGP demonstrated a high degree of efficiency, recording in FY 2005
                                       an efficiency measure of .06% (=.0006 cents/$1 ECG). In FY 2006, the efficiency
                                       measure was .10% (=.001 cents/$1 ECG), and .12% in FY 2007. The decrease in the
                                       efficiency measure between FY 2005 and FY 2007 is due in part to the significant
                                       reduction in registered sales under the program.
Develop meaningful targets for         Completed. All USDA credit programs, including the CCC Export Credit Guarantee
the efficiency measure.                Program, adopted with OMB approval an efficiency measure comparing program
                                       administrative costs to the overall guarantees issued and outstanding. On that basis, the
                                       program has demonstrated a high degree of efficiency which is reflected in the targets
                                       established for the efficiency performance measure.
Improve claims recoveries and          Completed. Excluded non-credit worthy countries from program and limited the length
reduce defaults.                       of guarantees. Adopted a risk-based fee structure so that transactions involving higher
                                       risk are charged higher program fees. Supplier credit guarantee program was not
                                       announced for FY 2006 and to date, has not been announced for FY 2007. The agency
                                       has contracted for legal services and investigations in overseas markets and continues to
                                       work with USDA's OIG & the Dep. of Justice to pursue claims recoveries.
Review and modify underlying           Action Taken But Not Completed. A contractor has been hired to evaluate the
assumptions of defaults and            assumptions used to create the existing model for credit reform subsidy cash flow
recoveries                             calculations with the objective of determining whether the default and recovery
                                       assumptions are appropriate and true. Update: Contractor submitted adjusted credit
                                       subsidy rate to OMB for review, based on compilation of 10 years worth of data on
                                       registration guarantees, claims, recoveries and rescheduled payments. April Update:
                                       The adjusted credit subsidy rate has been accepted by OMB for the fiscal year 2009
                                       President's Budget Submission. This initial phase of the study determined that historical
                                       assumptions used to estimate recoveries and restructurings were significantly
                                       understated, thereby overstating the program's overall "subsidy" cost. The revised
                                       assumptions on recovery and loan restructuring reduced the subsidy to 0.85 percent, a
                                       significant reduction over previous years. The above study was applied to changing the
                                       assumptions in the current subsidy model. October 2009 update: CCC is now planning
                                       Phase III - to create a new credit reform subsidy model.



                                                               49
Part III: Financial Section




             50
                                    COMMODITY CREDIT CORPORATION
                                          Consolidated Financial Statements

                                           Commodity Credit Corporation
                                     CONSOLIDATED BALANCE SHEETS
                                         As of September 30, 2009 and 2008
                                                (Dollars in Millions)

                                                                   2009                  2008
Assets:
 Intragovernmental:
   Fund Balance with Treasury (Note 2)                         $             1,315   $           3,035
   Accounts Receivable, Net (Note 4)                                           129                 125
   Other                                                                         2                   -
 Total Intragovernmental Assets                                $             1,446   $           3,160
 Cash and Other Monetary Assets (Note 3)                                        92                  92
 Accounts Receivable, Net (Note 4)                                           5,057               5,667
 Direct Loans and Loans Guarantees, Net:
   Commodity Loans, Net (Note 5)                                             414                   643
   Credit Program Receivables, Net (Note 6)                                5,126                 4,712
 Subtotal                                                      $           5,540     $           5,355
 Commodity Inventories and Related Property, Net (Note 7)                    205                    15
 General Property and Equipment, Net (Note 8)                                 44                    51
 Other                                                                        81                   189
Total Assets                                                   $          12,465     $          14,529

  Stewardship Land (Note 1)

Liabilities:
  Intragovernmental:
    Debt to the Treasury (Note 10)                             $             4,877   $           5,877
    Other:
      Resources Payable to Treasury (Note 12)                                2,744               3,197
      Deposit and Trust Liabilities (Note 11)                                  974                 820
      Other (Note 12)                                                          592                 663
    Subtotal                                                   $             4,310   $           4,680
  Total Intragovernmental Liabilities                          $             9,187   $          10,557
  Accounts Payable                                                             302                 287
  Loan Guarantee Liability (Note 6)                                            221                 161
  Environmental and Disposal Liabilities (Note 13)                               8                   8
  Other Liabilities:
    Accrued Liabilities (Note 14)                                         11,560                12,154
    Deposit and Trust Liabilities (Note 11)                                    7                     6
    Other (Note 12)                                                        1,257                   110
  Subtotal                                                     $          12,824     $          12,270
Total Liabilities (Note 9)                                     $          22,542     $          23,283

Commitments and Contingencies (Note 15)

Net Position:
 Unexpended Appropriations                                     $            2,028    $            1,470
 Capital Stock                                                                100                   100
 Cumulative Results of Operations                                         (12,205)              (10,324)
Total Net Position                                             $          (10,077)   $           (8,754)
Total Liabilities and Net Position                             $           12,465    $           14,529

The accompanying notes are an integral part of these statements.



Consolidated Financial Statements



                                                            51
                                    COMMODITY CREDIT CORPORATION
                                                Consolidated Financial Statements


                                                      Commodity Credit Corporation
                                CONSOLIDATED STATEMENTS OF NET COST (NOTE 16)
                                        For the Fiscal Years Ended September 30, 2009 and 2008
                                                          (Dollars in Millions)

                                                                                      2009                   2008
Strategic Goals:

Supporting Productive Farms and Ranches:
    Gross Cost                                                                 $             12,682      $           8,351
    Less: Earned Revenue                                                                      2,347                  1,140
    Net Goal Cost                                                              $             10,335      $           7,211

Supporting Secure and Affordable Food and Fiber:
    Gross Cost                                                                 $                  171    $            242
    Less: Earned Revenue                                                                           15                 271
    Net Goal Cost                                                              $                  156    $            (29)

Conserving Natural Resources and Enhancing the Environment:
    Gross Cost                                                                 $                 2,223   $           2,125
    Less: Earned Revenue                                                                             1                   2
    Net Goal Cost                                                              $                 2,222   $           2,123

Supporting International Economic Development and Trade Capacity Building:
    Gross Cost                                                             $                     1,749   $           2,067
    Less: Earned Revenue                                                                           305                 416
    Net Goal Cost                                                          $                     1,444   $           1,651

Total Gross Cost                                                              $              16,825      $          12,785
Less: Total Earned Revenue                                                                    2,668                  1,829
Net Cost of Operations                                                         $             14,157      $          10,956

The accompanying notes are an integral part of these statements.




                                                                   52
                              COMMODITY CREDIT CORPORATION
                                        Consolidated Financial Statements

                                           Commodity Credit Corporation
                CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
                             For the Fiscal Years Ended September 30, 2009 and 2008
                                               (Dollars in Millions)

                                                                    2009                  2008

Capital Stock                                                   $             100     $             100

Cumulative Results of Operations:
 Beginning Balance                                              $          (10,324)   $          (11,306)

Budgetary Financing Sources:
 Appropriations Used                                                       13,929                14,180
 Non-exchange Revenue                                                           8                    18
 Transfers in/out without Reimbursement, Net                               (2,445)               (3,215)

Other Financing Sources (Non-Exchange):
 Transfers in/out without Reimbursement, Net                                  (550)                 (379)
 Imputed Financing                                                           1,334                 1,334
Total Financing Sources                                         $           12,276    $           11,938
Net Cost of Operations                                                     (14,157)              (10,956)
Net Change                                                      $           (1,881)   $              982
Cumulative Results of Operations                                $          (12,205)   $          (10,324)

Unexpended Appropriations:
 Beginning Balance                                              $           1,470     $             643

Budgetary Financing Sources:
 Appropriations Received                                                    14,494                15,015
 Other Adjustments                                                              (7)                   (8)
 Appropriations Used                                                       (13,929)              (14,180)
Total Budgetary Financing Sources                               $              558    $              827
Total Unexpended Appropriations                                 $            2,028    $            1,470

Net Position                                                    $          (10,077)   $           (8,754)

The accompanying notes are an integral part of these statements.




                                                           53
                                     COMMODITY CREDIT CORPORATION
                                                 Consolidated Financial Statements

                                                         Commodity Credit Corporation
                                 COMBINED STATEMENTS OF BUDGETARY RESOURCES
                                          For the Fiscal Years Ended September 30, 2009 and 2008
                                                            (Dollars in Millions)

                                                                                     2009                                      2008

                                                                                          Non-Budgetary                             Non-Budgetary
                                                                                          Credit Program                            Credit Program
                                                                       Budgetary        Financing Accounts       Budgetary        Financing Accounts
Budgetary Resources:
 Unobligated balance, brought forward, October 1:                  $         2,098      $         2,516      $         1,605      $         2,140
 Recoveries of prior year unpaid obligations                                   182                   10                1,246                   27
 Budget authority:
   Appropriation                                                            15,444                     -             16,154                      -
   Borrowing authority (Note 17)                                            28,870                   340             30,267                    302
   Spending authority from offsetting collections:
      Earned:
       Collected                                                            11,722                   553             13,811                 1,249
       Change in receivables from Federal sources                              (89)                    -                 10                  (177)
      Change in unfilled customer orders:
       Advance received                                                         154                   -                   3                     -
       Without advance from Federal sources                                       -                 (18)                  -                   194
      Expenditure transfers from trust funds                                  1,130                   -                 959                     -
   Subtotal                                                        $         57,231     $           875      $       61,204       $         1,568
 Nonexpenditure transfers, net, actual                                       (2,241)                  -              (2,620)                    -
 Permanently not available                                                  (27,445)             (1,583)            (33,374)                 (350)
Total Budgetary Resources                                          $         29,825     $         1,818      $       28,061       $         3,385

Status of Budgetary Resources:
  Obligations incurred:
    Direct                                                         $         3,574      $            846     $        4,259       $            869
    Reimbursable                                                            24,232                     -             21,704                      -
  Subtotal                                                         $        27,806      $            846     $       25,963       $            869
  Unobligated balance:
    Apportioned                                                    $           330      $           363      $          276       $         1,662
    Exempt from apportionment                                                  841                    4                 811                     5
  Subtotal                                                         $         1,171      $           367      $        1,087       $         1,667
  Unobligated balance not available                                            848                  605               1,011                   849
Total Status of Budgetary Resources                                $        29,825      $         1,818      $       28,061       $         3,385

Change in Obligated Balance:
 Obligated balance, net
   Unpaid obligations, brought forward, October 1                  $         7,967      $            201     $         8,047      $            125
   Less: Uncollected customer payments from Federal sources,
   brought forward, October 1                                                  (322)                (195)              (312)                  (178)
 Total unpaid obligated balance, net                               $          7,645     $              6     $        7,735       $            (53)
 Obligations incurred, net                                                   27,806                  846             25,963                    869
 Less: Gross outlays                                                        (26,049)                (878)           (24,797)                  (766)
 Less: Recoveries of prior year unpaid obligations, actual                     (182)                 (10)            (1,246)                   (27)
 Change in uncollected customer payments from Federal sources                    89                   18                (10)                   (17)
 Total Change in Obligated Balance                                 $          9,309     $            (18)    $        7,645       $              6
 Obligated balance, net, end of period:
   Unpaid obligations                                              $         9,542      $            159     $         7,967      $            201
   Less: Uncollected customer payments from Federal sources                   (233)                 (177)               (322)                 (195)
Total, unpaid obligated balance, net, end of period                $         9,309      $            (18)    $         7,645      $              6

Net Outlays:
 Gross outlays                                                     $         26,049     $            878     $       24,797       $           766
 Offsetting collections                                                     (13,006)                (553)           (14,773)               (1,249)
 Less: Distributed Offsetting receipts                                            -                 (473)                 -                  (353)
Total Net Outlays                                                  $         13,043     $           (148)    $       10,024       $          (836)

The accompanying notes are an integral part of these statements.




                                                                       54
Notes to the Financial
Statements




               55
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements


Note 1 - Significant Accounting Policies

Reporting Entity
The Commodity Credit Corporation (CCC or the Corporation) is a Federal corporation operating within and through
the United States Department of Agriculture (USDA). It was established to stabilize, support, and protect farm
income and prices; assist in the maintenance of balanced and adequate supplies of agricultural commodities; and
facilitate the orderly distribution of those commodities.

CCC’s statutory authority for its operations is found in the CCC Charter Act, 15 U.S.C. 714, et seq. The
Corporation is managed by a Board of Directors subject to the general supervision and direction of the Secretary of
Agriculture who is an ex-officio director and chairperson of the Board. The members of the Board and the
Corporation's officers are officials of USDA.

CCC operations are financed through appropriated funds as well as an authority to borrow from the U.S. Treasury
(Treasury). The Treasury also holds capital stock in the amount of $100 million with no obligation to repay, on
which the Corporation pays interest. CCC receives direct appropriations for several of its foreign assistance
programs and special activities, such as disaster aid. Permanent indefinite borrowing authority exists for programs
subject to the Federal Credit Reform Act of 1990, as amended (Credit Reform). Receipts flowing through CCC's
related revolving fund include proceeds from the sale of CCC commodities, loan repayments, interest income, and
various program fees.

CCC has no employees or facilities. Its programs are administered through various agencies including USDA’s
Farm Service Agency (FSA), Agricultural Marketing Service (AMS), Natural Resources Conservation Service
(NRCS), Foreign Agricultural Service (FAS), and the United States Agency for International Development
(USAID). The accompanying financial statements include an allocation, as appropriate, of salaries and expenses
(e.g., facility costs) incurred by these agencies. In other instances, CCC reimburses the other agencies for their
administrative costs.

Basis of Presentation
The Corporation’s financial statements report the financial position and results of operations of CCC pursuant to the
requirements of 31 U.S.C. 3515 (b). These statements have been prepared from the accounting records of the
Agency as of September 30, 2009 and September 30, 2008 in accordance with generally accepted accounting
principles for Federal entities and policies prescribed in the Office of Management and Budget (OMB) Circular A-
136, Financial Reporting Requirements. OMB financial reporting guidelines require the presentation of
comparative financial statements for all principal financial statements. The statements are in addition to the external
financial reports used to monitor and control budgetary resources, which are also prepared from CCC’s general
ledger. These financial statements have been prepared for the Corporation which is a component of the U.S.
Government, a sovereign entity.

Basis of Accounting
The accounting structure of Federal agencies is designed to reflect both accrual and budgetary accounting
transactions. Under the accrual method, revenues are recognized when earned, and expenses are recognized when a
liability is incurred without regard to receipt or payment of cash. The budgetary accounting principles, on the other
hand, are designed to recognize the obligation of funds according to legal requirements, which in many cases is prior
to the occurrence of an accrual-based transaction. The recognition of budgetary accounting transactions is essential
for compliance with legal constraints and controls over the use of Federal funds. The financial statements include
all Treasury funds of CCC, which encompass its domestic and foreign activities. CCC consolidates all costs related
to its child activities for the allocated funds transfers and shared appropriations. In consolidation, intra-agency
activities and balances have been eliminated except for the Statement of Budgetary Resources (SBR), which is
presented on a combined basis as required by OMB guidance.




                                                         56
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements


Note 1 - Significant Accounting Policies, continued

Fund Balance with Treasury
CCC disbursements are made by checks or electronic funds transfers that are deducted from CCC’s account at
Treasury. Generally, receipts and disbursements for CCC are processed by the Federal Reserve Banking system.

Cash
Treasury requires that the Fund Balance with Treasury amounts reported via Federal Agencies' Centralized Trial-
Balance System II (FACTS II) be in agreement with Treasury’s records. To comply with these requirements, cash
timing differences due to deposits in-transit or outstanding checks are reported as “in-transit”. The cash balance
consists of these timing differences as a result of varying processing times and cut-off dates between CCC, Treasury,
and other USDA entities.

CCC does not maintain cash in commercial bank accounts.

Accounts Receivable
Accounts receivable arise from claims to cash or other assets against other entities, either based on legal provisions,
such as payment due date or goods or services provided.

Accounts receivable are adjusted by a valuation allowance based on historical collection, write-off information, and
other analysis which reduces the receivables to their estimated net realizable value.

Commodity Loans
CCC makes both recourse and nonrecourse loans to producers of designated agricultural commodities. In the case
of nonrecourse loans, producers have the option to: (a) repay the principal plus interest; (b) for certain designated
commodities repay the loan at the market rate; or (c) at maturity, forfeit the commodity in satisfaction of the loan.
These loans are not subject to the accounting and reporting requirements of Credit Reform (Note 6) because these
loans are less than 12 months in duration.

Interest is accrued on the unpaid principal balance of commodity loans and is included in the reported net
commodity loans receivable balances.

Commodity loans are reported net of an allowance for doubtful accounts which reduces the loans to their estimated
net realizable value. The allowance is based on the estimated loss on ultimate disposition when it is more likely than
not that the loans will not be fully collected. When CCC disposes of forfeited commodities, depending on the type
of disposition, any loss on the disposition is realized as either a cost of sales or donation.

Tobacco Transition Payment Program (TTPP)
The American Jobs Creation Act of 2004, which included the Fair and Equitable Tobacco Reform Act (the Law),
effectively ended the tobacco loan program for CCC, which provided recourse loans to tobacco producers or quota
holders. The quota holders are the landowners of the farm where a tobacco quota was assigned. Quota was the
quantity of tobacco required to meet the national domestic needs during the year. That national amount was
allocated among all the prior year quota holders to establish the quantity of tobacco that each individual quota holder
could market during the program year.

The Law required CCC to dispose of its outstanding tobacco loan portfolio and establish contracts with and make
payments to tobacco producers and quota holders to transition from the previous price support program to a free
market. This transition period encompasses ten years and began in fiscal year (FY) 2005. The Law authorized a




                                                          57
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements


Note 1 - Significant Accounting Policies, continued
total maximum of $10.14 billion over the period to cover the realized losses of $292 million related to the
disposition of the tobacco loan collateral in FY 2005, making payments to producers and quota holders, and other
eligible expenses. CCC estimates that payments made over the 10-year period will be approximately $6.7 billion to
quota holders and $2.9 billion to tobacco producers. The total source of revenue or other financing for the program
is intended to be derived from assessments levied upon manufacturers and importers of tobacco products and
collected quarterly. Manufacturers and importers are expected to pass these costs on to consumers of tobacco
products through increased sales prices. All collections from the tobacco industry are deposited into the Tobacco
Trust Fund.

Generally, payments are made to quota holders and producers in January, which is prior to the quarterly collection
of assessments from the tobacco manufacturers and importers. Because of the difference in timing of the collections
and assessments, collections will not match disbursements on an annual basis. The Law allows CCC’s revolving
fund to make payments to the quota holders and producers, and allows for reimbursement from the Tobacco Trust
Fund. The assessments collected from the tobacco industry are subsequently transferred to CCC’s revolving fund,
reimbursing that fund for the payments made to quota holders and producers based on approved contracts.

In FY 2005, CCC recognized a public receivable for the present value of the expected future collections from the
manufacturers and importers over the 10-year period ending in 2014. In addition, CCC recognized an accrued
liability for the present value of the remaining pay-out amount to the quota holders and producers. Because the trust
fund collections from the tobacco manufacturers and importers are intended to fund the payments to quota holders
and producers, the present value of the public receivable and the liability were reported in equal amounts on the
balance sheet in FY 2005. As actual activity occurs each fiscal year, the receivable and accrued liability estimates
are adjusted to reflect the expected cash flows for the remaining period of the contracts, as well as the historical
collection and disbursement activity.

Credit Reform Accounting
Purposes of The Federal Credit Reform Act of 1990 (FCRA) include measuring more accurately the costs of Federal
credit programs and placing the cost of credit programs on a budgetary basis equivalent to other Federal spending.
The FCRA applies to direct loans and loan guarantees made on or after October 1, 1991.

Direct loans are a disbursement of funds by the Government to non-Federal borrowers under contracts that require
the repayment of such funds within a certain time with or without interest. It includes the purchase of, or
participation in, a loan made by another lender and financing arrangements that defer payment for more than 90
days. Loan guarantees represent insurance that the payment of all or part of the principal or interest on any debt
obligation of a non-Federal borrower to a non-Federal lender will be received by the non-Federal lender. A
defaulted loan guarantee occurs if the borrower fails to make a payment pursuant to the terms of the obligation.

The cost of direct loans is accounted for on a net present value basis at the time when the direct loan is disbursed. It
includes the cash flows of loan disbursements; repayments of principal; payments of interest; recoveries or proceeds
of asset sales; and other payments by or to the Government over the life of the loan. The present value computation
also contains effects for estimated defaults, prepayments, fees, penalties, and any expected actions, such as the
exercise by the borrower of an option included in the loan contract.

The cost of loan guarantees is also accounted for on a net present value basis at the time when the guaranteed loan is
disbursed. The cost includes the estimated cash flows of payments by CCC to cover defaults and delinquencies,
interest subsidies, and other requirements, payments to CCC including origination and other fees, penalties, and
recoveries, including the effects of any expected actions by CCC and the exercise by the guaranteed lender or the
borrower of an option included in the loan guarantee contract.




                                                          58
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies, continued
In estimating net present values, the discount rate is the average interest rate on marketable Treasury securities of
similar maturity cash flows of the direct loan or loan guarantee for which the estimate is being made. When funds
are obligated for a direct loan or loan guarantee, the estimated cost is based on the current assumptions adjusted to
incorporate the terms of the loan contract.

The credit program account is the budget account into which an appropriation to cover the cost of a direct loan or
loan guarantee program is made and from which such cost is disbursed to the financing account. The financing
account is the non-budget account or accounts associated with each credit program account that holds balances,
receives the cost payment from the credit program account, and also includes all other cash flows to and from CCC
resulting from direct loan obligations or loan guarantee commitments made on or after October 1, 1991. The
liquidating account is the budget account that includes all cash flows to and from CCC resulting from direct loan
obligations or loan guarantee commitments made prior to October 1, 1991. These accounts are shown in the Federal
budget on a cash basis.

Collections resulting from direct loans obligated or loan guarantees committed prior to October 1, 1991, are credited
to the liquidating accounts. The amounts credited are available to the same extent that they were available to
liquidate obligations arising from such direct loans obligated or loan guarantees committed prior to October 1, 1991,
including repayment of any obligations held by the Department of Treasury. The unobligated cash balances of such
accounts that are in excess of current needs must be transferred at least annually to the general fund of the Treasury.

Credit Program Receivables
CCC has several credit programs subject to Credit Reform requirements (Refer to Note 6). Credit program
receivables consist of:

        direct credits extended under Public Law 83-480 (P.L. 480) programs;
        receivables in the Debt Reduction Fund;
        receivables for the General Sales Manager program in the form of reschedule agreements;
        loans made to grain producers to build or upgrade farm storage and handling facilities;
        loans made to apple producers who incurred losses due to low market prices; and
        a loan made to the Texas Boll Weevil Eradication Foundation.

These receivables (including related interest), for both pre- and post-Credit Reform, are recognized as assets at the
present value of their estimated net cash inflows. The difference between the outstanding principal of these
receivables and the present value of their net cash inflows is recognized as an allowance. CCC uses the Credit
Subsidy Calculator 2 (CSC2) for computing the subsidy re-estimates for its Credit Reform programs. The CSC2 is
an OMB tool for performing credit calculations, incorporating both financing account interest and dollar re-
estimates functionality. CCC also uses the Treasury Credit Reform Certificate Program guidelines, Statement of
Federal Financial Accounting Standards (SFFAS) No. 2, Accounting for Direct Loans and Loan Guarantees,
SFFAS No. 18, Amendments to Accounting for Direct Loans and Loan Guarantees, and SFFAS No. 19, Technical
Amendments to Accounting for Direct Loans and Loan Guarantees for the accounting and reporting of its loan
subsidy cost re-estimation and amortization.

Capitalized Interest
Rescheduling agreements frequently allow CCC to add uncollected interest to the principal balance of foreign credit
and other foreign receivables (capitalized interest). In such circumstances, CCC records an allowance to reduce the
receivable, including the capitalized interest, to the present value of future cash flows. Interest income is recognized
only when, in management's judgment, debtors have demonstrated the ability to repay the debt in the normal course
of business.




                                                          59
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies, continued
Commodity Inventories
Commodity inventories, referred to as goods held under price support and stabilization programs in the SFFAS No.
3, Accounting for Inventory and Related Property, issued by the Federal Accounting Standards Advisory Board,
represent commodities acquired by the Corporation for donation or price support purposes. They are eventually sold
or otherwise disposed of to help satisfy economic goals.

Inventories are initially recorded at acquisition cost plus processing and packaging costs incurred after acquisition.
Acquisition cost is the amount of the loan settlement, excluding interest, or the amount of the purchase settlement
price. Since loan rates and income support levels are established by statute, inventory acquisitions are usually
recorded at a cost higher than market value.

Generally, disposition costs are based on the average cost of the commodity in inventory at the end of the previous
month. In other cases, the cost is computed on the basis of actual (historical) cost of the commodity. Actual cost is
used with: (a) simultaneous acquisition and disposition for commodity export programs; and (b) dispositions of
commodities previously pledged as price support loan collateral, which are acquired and simultaneously disposed of
by CCC during the exchange of commodity certificates. Commodity certificates are issued electronically by CCC
and must be immediately exchanged for a commodity owned by the Corporation.

In accordance with SFFAS No. 3, the cost of commodity inventories sold to other Federal entities is classified as an
expense with the public since the commodities being sold are originally purchased or otherwise acquired from a
public source.

Commodity inventories are valued at net realizable value in accordance with SFFAS No. 3. Ending inventory
balances are examined at period end to determine each commodity’s market value. A valuation allowance is
recorded if the book value of a commodity exceeds its market value.

In FY 2008, CCC entered into an agreement with The Seam, a private company, to facilitate the exchange of CCC-
owned commodities for food products to be utilized in domestic and export food programs. CCC receives Barter
Delivery Obligations (BDOs) in exchange for CCC-owned commodities. The BDOs represent the net sales
proceeds (gross proceeds minus a sales commission percentage) from The Seam’s sale of the CCC-owned
commodities and; The Seam uses the BDOs to acquire food products on behalf of CCC.

For financial statement purposes, the BDOs are valued at the net sales proceeds and are presented as part of CCC’s
Commodity Inventories and Related Property. CCC recognizes gain or loss on each exchange transaction
determined by the difference between CCC’s book value of the commodity and the BDO value received in the
exchange.

General Property and Equipment
General property and equipment purchases are recorded at the acquisition cost plus expenditures related to placing
the asset into service such as freight, installation, and testing. Purchases of property valued at $25,000 or more and
a useful life of 2 years or greater are capitalized. Property and equipment is depreciated on a straight-line basis.
Automated Data Processing (ADP) computer equipment has a service life of 5 years. There is no salvage value
associated with general property and equipment.

In addition, internal use software valued at $100,000 or more and a useful life of 2 years or greater is capitalized.
Internal use software development costs are accumulated and capitalized upon completion. In accordance with
SFFAS No. 10, Accounting for Internal Use Software, capitalized software development costs include contractor
developed software, purchased software, and internally developed software. Capitalized internal use software costs
are amortized over a period of 5 years beginning with the first year the software is fully operational. Also included
are costs incurred by FSA which are transferred to CCC without reimbursement and are reflected as software-in-
development on CCC’s financial statements until such time as the software is completed and put into operation.
Once the software is put into operation, amortization begins.


                                                          60
                               COMMODITY CREDIT CORPORATION
                                          Notes to the Financial Statements

Note 1 - Significant Accounting Policies, continued
Producer Assistance Advances
Public Law 107-25 (commonly referred to as the Agricultural Economic Assistance Act) authorized three grant
programs whereby the Corporation disbursed funds to State governments for various purposes, such as promoting
agriculture and supporting activities for specialty crops. The three grant programs are Specialty Crops - Base State
Grant, Specialty Crops - Grants for Value of Production, and Commodity Assistance Program. Disbursements are
accounted for as advances on the Other Assets line of the Balance Sheet and are recognized as expenses based on
the States’ reporting of their use of the funds.

Non-Entity Assets
Non-entity assets are assets held by CCC that are not available for use in its operations. As of September 30, 2009,
CCC does not have any non-entity assets.

Liabilities
Depending on the type of transaction, CCC recognizes a liability in one of two ways. If an exchange transaction
occurs (i.e., receipt of goods or services in return for a promise to provide money or other resources in the future), a
liability is recognized in the period in which the exchange occurred. If a nonexchange transaction occurs (i.e.,
government programs where there is a one-way flow of resources or promises), a liability is recognized for any
unpaid amounts due as of the reporting date. Liabilities not covered by budgetary resources, disclosed in Note 9,
result from the accrual of unpaid amounts due for various CCC programs. Budgetary resources for the programs
will not be made available until the subsequent fiscal year until congressional action is completed.

Resources Payable to Treasury
Resources payable to Treasury represent the net resources of the pre-Credit Reform programs. These net resources
are held as working capital until funds are no longer needed to fund liabilities, at which time they are returned to
Treasury.

Loan Guarantee Liabilities
CCC’s Export Credit Guarantee program provides guarantees to buyers in countries where credit is necessary to
maintain or increase U.S. sales of agricultural products. CCC underwrites credit extended by the private banking
sector under the Export Credit Guarantee Program (GSM-102) and Facilities Guarantee Program (FGP). Credit
guarantee liabilities represent the estimated net cash outflows of the guarantees on a present value basis. CCC
records a liability and an allowance expense to the extent, in management's estimate, CCC will be unable to recover
claim payments under the Credit Reform Export Credit Guarantee programs.

Imputed Costs
Imputed costs represent costs incurred from other USDA agencies for the benefit of CCC. The majority of CCC’s
programs and related expenses are delivered through the personnel and facilities of FSA. The imputed costs consist
of the costs of hired labor, opportunity costs of unpaid labor, capital recovery of machinery and equipment,
opportunity costs of land, general farm overhead, payroll taxes, and insurance.

Tax Status
CCC, as a Federal agency, is not subject to Federal, State, or local income taxes, and accordingly, no provision for
income tax is necessary.

Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions that affect the
reported amounts of assets, liabilities and disclosure of contingent assets and liabilities at the date of the financial
statements, and the reported amounts of revenues and expenses during the reporting period. Actual results will
invariably differ from those estimates.



                                                            61
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 1 - Significant Accounting Policies, continued
Allocation Transfers and Shared Appropriations
CCC is a party to allocation transfers with other Federal agencies as both a transferring (parent) entity and a
receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to obligate
budget authority and outlay funds to another department. A separate fund account (allocation account) is created in
the U.S. Treasury as a subset of the parent fund account for tracking and reporting purposes. All allocation transfers
of balances are credited to this account, and subsequent obligations and outlays incurred by the child entity are
charged to this allocation account as they execute the delegated activity on behalf of the parent entity.

CCC allocates funds, as the parent, to United States Agency for International Development (USAID) to fund P.L.
480 Title II transportation and other administrative costs in connection with foreign donations. CCC receives
allocation transfers, as the child, from FSA. CCC reports USAID’s budgetary and proprietary transactions for which
it is the parent and excludes FSA’s budgetary and proprietary transactions, for which it is the child.

SFFAS No. 29 – Heritage Assets and Stewardship Land
Federal Accounting Standards Advisory Board (FASAB) Statement of Federal Financial Accounting Standard
(SFFAS) No. 29, Heritage Assets and Stewardship Land, was issued on July 7, 2005. The primary purpose of the
standard was to reclassify heritage asset and stewardship land information from the Required Supplementary
Stewardship Information (RSSI) to basic financial statement information with the exception of condition reporting,
which is considered Required Supplementary Information (RSI). SFFAS No. 29 requires this reclassification
through a phased-in approach beginning in reporting periods after September 30, 2005 with full implementation for
reporting periods beginning after September 30, 2008.

Easements purchased for the Wetlands Reserve Program (WRP) are considered stewardship land. The WRP
provides technical and financial assistance to eligible landowners to restore, enhance, and protect wetlands. This
voluntary program offers landowners an opportunity to establish, at minimal cost, long-term conservation and
wildlife habitat enhancement practices and protection.

Although the funding source for the purchase of easements has changed over the life of the program, the authority
for administering and managing the program has resided with NRCS since the 1994 USDA Reorganization Act.
NRCS holds the accountability for the management, monitoring, and enforcement for all easements purchased under
the WRP.

Based on agreements, NRCS remains responsible to disclose required information for all WRP easements as
stewardship land in FY 2009 and future years as long as NRCS maintains the administration, management
responsibilities, and accountability for the WRP easements.

Reclassifications
Certain reclassifications have been made to the prior year amounts to conform to the current year presentation. In
the current year, CCC reclassified the P.L. 480 Title II Grant Fund, Treasury symbol (72)12X2278, obligation
incurred, as direct.

The Treasury Financial Manual (TFM), Volume 1, Part 2, Chapter 1500 explains that the Financial Management
Service (FMS) assigns account symbols to agencies after considering the Government's relationship to the accounts,
the sources of receipts, and the availability of the funds for expenditure. FMS classifies receipt or expenditure
accounts and assigns them to a fund group based on their characteristics and the nature of the transactions they
support. Treasury symbol (72)12X2278 is classified by FMS as a general fund expenditure account. In accordance
with OMB guidance, the obligations incurred by (72)12X2278, which are financed by appropriations, are direct
obligations.

The reclassification impacted the Statement of Budgetary Resources, Line 8A, Obligations Incurred: Direct, and
Line 8B, Obligations Incurred: Reimbursable. The reclassification was applied to the FY 2008 Statement of
Budgetary Resources for comparative purposes.


                                                         62
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 2 – Fund Balance with Treasury
Fund balances with Treasury, by type of fund, as of September 30 are as follows:

                                                                                        (In Millions)

                                                                              2009                       2008

Trust Funds                                                           $                  -        $               180
Special Funds                                                                            -                         91
Revolving Funds                                                                       (696)                       939
General Funds                                                                        2,011                      1,825

Total Fund Balance with Treasury                                      $              1,315        $             3,035


The status of fund balances with Treasury as of September 30 is as follows:
                                                                                         (In Millions)

                                                                               2009                      2008

Unobligated Balance
  Available                                                               $           1,537        $         2,754
  Unavailable                                                                         1,454                  1,860
Obligated Balance not yet Disbursed                                                   9,290                  7,651
Subtotal                                                                  $          12,281        $        12,265

Less: Borrowing Authority not yet Converted to Fund Balance                          (10,966)               (9,230)

Total Fund Balance with Treasury                                          $           1,315        $            3,035

Unobligated Balance, Unavailable represents resources not yet apportioned by OMB and unobligated appropriations
from prior years that are no longer available for new obligations. Borrowing authority not yet converted to fund
balance represents unobligated and obligated amounts recorded at September 30, 2009 and 2008, which will be
funded by future borrowings.



Note 3 – Cash and Other Monetary Assets
As of September 30, 2009 and 2008, Cash and Other Monetary Assets were $92 million. The balance reflects “in
transit” amounts that have not been cleared by Treasury. These timing differences result from varying processing
times and cut-off dates between CCC and Treasury.




                                                          63
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements


Note 4 – Accounts Receivable, Net
Accounts receivable as of September 30 are as follows:
                                                                                      (In Millions)

                                                                             2009                     2008
Intragovernmental:
  Due from the Department of Treasury                                 $                7        $               6
  Due from the Department of Transportation                                           89                       92
  Due from Other Federal Agencies                                                     33                       27

Total Intragovernmental Accounts Receivable, Net                      $              129        $             125

Public:
  Claims Receivable                                                   $                17       $               35
  Notes Receivable                                                                     31                        7
  Interest Receivable                                                                  12                        2
  TTPP Receivable                                                                   4,990                    5,603
  Other                                                                                11                       26
Subtotal                                                              $             5,061       $            5,673

Less: Allowances for Doubtful Accounts                                                 (4)                      (6)

Total Public Accounts Receivable, Net                                 $             5,057       $            5,667


CCC records a receivable due from the Department of Treasury. The receivable is related to the collection of credit
subsidy for the Debt Reduction Fund. Since this program is pre-credit reform, it does not have a program fund
account, and CCC records a separate receivable to capture the transaction with Treasury.

The Cargo Preference provisions of the Food Security Act of 1985 mandated a gradual increase in the share of
particular exports, mostly food aid that must be carried on U.S. flagged vessels. The Food Security Act and Section
901d (b) of the Merchant Marine Act, 1938 (the Act), provide for the reimbursement of certain transportation costs
the Corporation incurs. In accordance with these Acts, CCC establishes a receivable from the Department of
Transportation for freight costs paid to U.S. flagged vessels exceeding 20 percent of the total cost related to the
donated commodities and freight costs if CCC were to use a commercial vessel.

Other public receivables consist of amounts due as a result of program overpayments or dishonored checks.
Examples of CCC programs include Crop Disaster Assistance and Conservation Reserve Program.

As of September 30, 2009, the Public Tobacco Transition Payment Program (TTPP) accounts receivable balance
consists of $4,990 million and includes $314 million as a short-term receivable; $23 million in Notes Receivable;
and, $5 million in Interest Receivable. As of September 30, 2008, the Public TTPP accounts receivable balance of
$5,603 million includes $309 million as a short-term receivable. Refer to Note 1, under Tobacco Transition
Payment Program, for additional information.




                                                         64
                              COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 5 – Commodity Loans, Net
Commodity loans receivable, by commodity, as of September 30 are as follows:

                                                                                     (In Millions)

                                                                             2009                     2008
Cotton                                                                $              56        $             369
Dry Whole Peas                                                                        2                        1
Feed Grains:
  Barley                                                                              5                        4
  Corn                                                                              148                       92
  Grain Sorghum                                                                       2                        2
  Oats                                                                                1                        1
Honey                                                                                 2                        3
Oilseeds                                                                              3                        -
Peanuts                                                                              27                       16
Rice                                                                                 30                       37
Soybeans                                                                             14                       11
Wheat                                                                               124                       94

Total Commodity Loans                                                 $             414        $             630

Accrued Interest Receivable                                                            3                      13

Less: Allowances for Losses                                                           (3)                       -

Total Commodity Loans, Net                                            $             414        $             643


As of September 30, 2009, Cotton Loans decreased by $313 million. The decrease reflects a reduction in
outstanding commodity loans and interest and an increase in loan charge offs in FY 2009. A decrease in the
Adjusted World Price for upland cotton enabled eligible producers to repay outstanding loans with a lower rate than
the stated rate. Refer to Note 1, under Commodity Loans, for additional information.




                                                        65
                               COMMODITY CREDIT CORPORATION
                                          Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net
CCC’s foreign and domestic aid programs provide economic stimulus to both the U.S. and foreign markets, while
also providing humanitarian assistance to the people most in need throughout the world, through both credit
guarantee and direct credit programs.

Direct credit and loan obligations and credit guarantee commitments made after FY 1991 and the resulting direct
credits and loans or credit guarantees are governed by the Federal Credit Reform Act of 1990, as amended. Credit
Reform requires agencies to estimate for the President’s Budget the cost of direct credits and loans and credit
guarantees at the present value of future cash flows. Additionally, the present value of the subsidy costs (i.e.,
interest rate differentials, interest subsidies, delinquencies and defaults, fee offsets and other cash flows) associated
with direct credits and loans and credit guarantees are recognized as a cost in the year the direct credit and loan or
credit guarantee is disbursed. The net present value of direct credits and loans and defaulted guarantee receivables
at any point in time is the amount of the gross direct credit and loan receivable and defaulted guarantees receivable
less the present value of the subsidy at that time.

Net credit program receivables, or the value of assets related to direct credits and loans, and the defaulted credit
guarantees, are not the same as the proceeds that would be expected to be received from selling the credits/loans.

Descriptions of CCC’s direct credit and loan programs and credit guarantee programs are presented below.

Credit Guarantee Programs
CCC’s Export Credit Guarantee programs encourage exports of U.S. agricultural products to buyers in countries
where credit is necessary to maintain or increase U.S. sales, but where financing may not be available without such
credit guarantees. The Corporation writes/has underwritten credit extended by the private banking sector in the U.S.
(or, less commonly, by the exporter) under the GSM-102 (credit terms up to three years) and GSM-103 (credit terms
up to 10 years) programs. CCC does not provide financing, but guarantees payments due from foreign banks.
Typically, 98 percent of principal and a portion of interest at an adjustable rate are covered. All guarantees under
these programs are denominated in U.S. dollars. There have been no guarantees under the GSM-103 program since
FY 2003, and there is very little outstanding liability in this program.

Under the Supplier Credit Guarantee Program (SCGP), CCC guaranteed a portion of payments due under short-term
financing arrangements (up to 180 days) that exporters have extended directly to the importers for the purchase of
U.S. agricultural products. All guarantees under this program are denominated in U.S. dollars. There have been no
guarantees under the SCGP program since FY 2005.

Under Section 3101 of the Food, Conservation, and Energy Act of 2008 (2008 Farm Bill), authority for the GSM
103 and Supplier Credit programs was specifically repealed. Remaining liability under these programs is still
subject to annual reestimate.

In the event that CCC pays a claim under the guarantee programs, CCC assumes the debt and treats it as a credit
receivable for accounting and collection purposes.

Direct Credit Programs – Foreign
Under the P.L. 480 Title I Program, CCC finances the sales of U.S. agricultural commodities to countries in need of
food assistance on favorable credit terms (at low rates of interest for up to 30 years with grace periods of up to 7
years). P.L. 480 Title I provides for government-to-government (and some government-to-private entity) sales of
U.S. agricultural commodities to developing countries on credit terms or for local currencies. Priority is given to
countries with the greatest need for food that are undertaking economic development to improve food security and
agricultural development, alleviate poverty, and promote broad based, equitable and sustainable development. All
credits under this program are denominated in U.S. dollars. Although legislative authority for the P.L. 480 Title I
Program still exists, there have been no new loans extended under the program since FY 2006.




                                                           66
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 6 - Credit Program Receivables, Net, continued
Paris Club
CCC permits debtor nations to reschedule debt under the aegis of the Paris Club. The Paris Club is an
internationally recognized organization whose sole purpose is to address, on a case-by-case basis, liquidity problems
faced by some of the world’s most economically disadvantaged countries. While the Paris Club has no charter or
formal operating procedures, it has been operating since 1978 under the leadership of the French Ministry of
Economics and Finance. The general premise of the Paris Club’s activities is to provide disadvantaged countries
with short-term liquidity relief to enable them to re-establish their credit worthiness. The Departments of State and
Treasury lead the U.S. delegation and negotiations for all U.S. agencies. Only country-to-country debt is
considered. For CCC, this includes P.L. 480 direct credits as well as claims paid under the GSM programs for
which a sovereign entity is liable.

The Departments of State and Treasury may also negotiate bi-lateral agreements with sovereign debtors for debt not
qualifying for treatment by the Paris Club.

The Debt Reduction Fund is used to account for modified debt that is reduced or forgiven. Debt is considered to
have been modified if the terms of the original agreement are altered. This includes but is not limited to original
debt that has been reduced or for which the interest rate of the agreement has been changed. In contrast, when debt
is rescheduled, only the date of payment is changed. Rescheduled debt is carried in the fund of its origination until
paid, as are other modifications that do not actually reduce the debt.

Direct Credit Programs – Domestic
The Farm Storage Facility Loan (FSFL) Program was implemented to provide low cost financing for producers to
build or upgrade on-farm commodity storage and handling facilities. The loans have a term of 7 years with a
requirement of annual repayment installments. Interest on these loans is accrued monthly from the date of
disbursement. The borrower’s rate is established to be equivalent to the rate of interest charged on the Treasury
securities of comparable maturity. In accordance with the 2008 Farm Bill, revised program regulations were
promulgated at the end of FY 2009 to expand the program in regard to available loan terms and eligible
commodities, as well as to increase the loan limitation. These changes will impact the program in FY 2010.

The Boll Weevil Program made available to the Texas Boll Weevil Eradication Foundation an interest-free $10
million loan to be repaid over 10 years.

The Apple Loan Program provided loans to apple producers who suffered hardships due to low prices following the
1998 - 1999 growing season when apple prices fell to their lowest levels in nearly 10 years. Eligible applicants
obtained loans up to $300 per acre of apple trees in production in 1999 or 2000, up to a maximum indebtedness of
$500,000. The Apple Loan Program was not funded in FY 2009 or 2008.

Economic Factors and Outlook Affecting Subsidy Reestimates
The credit subsidy reestimates are affected by four basic components:

        cash flow data (disbursements, collections including fees, original subsidy transfers, and scheduled future
         payments),
        interest rates,
        defaults,
        Inter-Agency Credit Risk Assessment System (ICRAS) country risk evaluation and ratings (for
         international programs only).

Cash flow data may be modified to reflect pending reschedulings. The interest rates used in the reestimate are
developed and published by Treasury for use government-wide. ICRAS ratings are a product of the Inter-Agency
Risk Assessment Committee, and their use is required by OMB.




                                                         67
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 6 - Credit Program Receivables, Net, continued
After analyzing foreign credits government-wide in FY 2007, OMB determined that actual performance on foreign
credits was better than had been previously forecasted and, therefore, mandated a change to the default and recovery
calculation methodology. This was a contributor to the significant downward subsidy reestimates for CCC’s foreign
Credit Reform programs at the end of FY 2007. CCC implemented revised recovery rates for the GSM programs in
FY 2008 and implemented revised default and recovery calculations for GSM and PL 480 in FY 2009. ICRAS
identification for each country is still maintained as the basis for a given country’s rating, but a set of program
specific default and recovery rates by ICRAS grade has been established for each program. Domestic programs
have always developed program-specific default and recovery assumptions.

Changes in Economic Conditions Having Measurable Effects Upon Subsidy Rates and
Reestimates
Current world events and government initiatives have a major impact upon CCC’s foreign receivables. For
example, the U.S. is currently considering forgiveness or reduction of debt to poor countries under the Paris Club's
Heavily Indebted Poor Countries (HIPC) Initiative. Discussions are currently in progress with a number of countries
which, if successful, may affect CCC. These countries include: Afghanistan, the Republic of Congo, Guinea, the
Democratic Republic of the Congo, Liberia, and Cote D’Ivoire.

With passage of the Food, Conservation, and Energy Act of 2008, the 1 percent cap on GSM loan guarantee fees
was lifted. A revised fee structure may lead to reduction in future subsidy rates for the GSM 102 program.

Other than as stated above, CCC is unaware of any measurable events or pending legislation at this time that may
affect subsidy rates and reestimates in the future.

Interest Income on Direct Credits and Credit Guarantees
Interest is accrued monthly on both performing and non-performing direct credits and credit guarantee receivables as
it is earned using simple interest calculations based upon a 365-day year. A non-performing direct credit or credit
guarantee receivable is defined as a repayment scheduled under a credit agreement, with an installment payment in
arrears more than 90 days. For those non-performing receivables, interest is not recognized as income; rather, it is
deferred until the interest is received or the receivable is returned to performing status.

Based on the Federal Credit Reform Act of 1990 and SFFAS No. 2, Accounting for Direct Loans and Loan
Guarantees, all credit reform loans initiated after September 30, 1991 need to be presented on a present value basis.
For loans initiated before FY 1992 (Pre-1992), restatement of loan value on a present value basis is permitted but
not required. Since CCC elected to restate the Pre-1992 loan receivables from nominal value to net present value
starting in 2001, the accounting treatment, including revenue recognition and subsidy allowance calculation, has
been applied consistently to Pre-1992 and Post-1991 Direct Loan and Loan Guarantee programs. For Pre-1992 and
Post-1991 loan interest receivable, the portion related to non-performing loans is deferred and presented net of the
loan receivable line item in the balance sheet.




                                                         68
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 6 - Credit Program Receivables, Net, continued
A summary of CCC’s net credit program receivables as of September 30, 2009 and 2008 is as follows:

                                                                                        (In Millions)

                                                                               2009                      2008
Direct Credit and Loan Programs:
 Pre-1992:
    P.L. 480 Title I                                                    $             3,110      $              2,986

  Post-1991:
    P.L. 480 Title I                                                                  1,050                      781
    Debt Reduction Fund                                                                  68                       99
    Farm Storage Facility                                                               421                      361

Defaulted Credit Guarantees:
 Pre-1992 Export Credit Guarantees                                                       54                       48
 Post-1991 Export Credit Guarantees                                                     423                      437

Total Credit Program Receivables, Net                                   $             5,126      $              4,712


P.L. 480, Title I direct credits outstanding that were obligated prior to FY 1992 and related interest receivable as of
September 30, 2009 and 2008 are as follows:

                                                                      (In Millions)

                                                                                  Allowances
                                    Credit                  Interest           for Uncollectible         Credit Program
 2009:                         Receivable, Gross       Receivable, Gross           Accounts             Receivables, Net
 P.L. 480 Title I              $           4,470       $             47        $         (1,407)        $          3,110



                                                                      (In Millions)

                                                                                  Allowances
                                    Credit                  Interest           for Uncollectible         Credit Program
 2008:                         Receivable, Gross       Receivable, Gross           Accounts             Receivables, Net
 P.L. 480 Title I              $           4,813       $             121       $         (1,948)        $          2,986




                                                          69
                             COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 6 - Credit Program Receivables, Net, continued
P.L. 480 direct credits and direct loans for FSFL, Boll Weevil, and Apple Loans that were obligated after
FY 1991 and related interest receivable outstanding as of September 30, 2009 and 2008 are as follows:

                                                                  (In Millions)


                                  Credit                 Interest              Allowance for       Credit Program
 2009:                       Receivable, Gross      Receivable, Gross             Subsidy          Receivables, Net

 P.L. 480 Title I            $           1,333      $              19      $             (302)    $          1,050
 Debt Reduction Fund                       282                      2                    (216)                  68
 Farm Storage Facility                     417                     35                     (31)                 421
 Boll Weevil Program                        10                      -                     (10)                   -

 Total                       $           2,042      $              56      $             (559)    $          1,539


                                                                  (In Millions)


                                  Credit                 Interest              Allowance for      Credit Program
 2008:                       Receivable, Gross      Receivable, Gross             Subsidy         Receivables, Net

 P.L. 480 Title I            $           1,479      $              20      $             (718)    $            781
 Debt Reduction Fund                       358                     58                    (317)                  99
 Farm Storage Facility                     363                     30                     (32)                 361
 Boll Weevil Program                        10                      -                     (10)                   -

 Total                       $           2,210      $             108      $           (1,077)    $          1,241




                                                        70
                             COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 6 - Credit Program Receivables, Net, continued
Defaults on credit guarantees made prior to FY 1992 and related interest receivable as of September 30, 2009 and
2008 are as follows:

                                                                 (In Millions)

                                                                              Allowance for
                                  Credit                Interest              Uncollectible      Credit Program
 2009:                       Receivable, Gross     Receivable, Gross            Accounts         Receivables, Net

 Export Credit
 Guarantee Programs          $             135      $              1      $              (82)   $              54


                                                                 (In Millions)

                                                                              Allowance for
                                  Credit                Interest              Uncollectible      Credit Program
 2008:                       Receivable, Gross     Receivable, Gross            Accounts         Receivables, Net

 Export Credit
 Guarantee Programs          $             137      $              1      $              (90)   $              48


Defaults on credit guarantees made after FY 1991 and related interest receivable as of September 30, 2009 and 2008
are as follows:

                                                                 (In Millions)


                                  Credit                Interest              Allowance for      Credit Program
 2009:                       Receivable, Gross     Receivable, Gross             Subsidy         Receivables, Net

 Export Credit
 Guarantee Programs          $             620      $              7      $             (204)   $             423


                                                                (In Millions)


                                 Credit                 Interest             Allowance for      Credit Program
 2008:                      Receivable, Gross      Receivable, Gross            Subsidy         Receivables, Net

 Export Credit
 Guarantee Programs         $             615      $               7     $             (185)    $            437




                                                        71
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 6 - Credit Program Receivables, Net, continued
The changes in the subsidy allowance for outstanding direct credits and loans that were obligated after
FY 1991 as of September 30, 2009 and 2008 are as follows:

                                                                                      (In Millions)

                                                                             2009                     2008

Subsidy Allowance - Beginning of Fiscal Year                          $             1,262      $             1,288
Subsidy Expense for Current Year Disbursements:
  Interest Rate Differential                                                            -                        9
  Default Costs (Net of Recoveries)                                                     4                        9
  Other Subsidy Costs                                                                   -                       (6)
Total Subsidy Expense                                                 $                 4      $                12

Adjustments:
 Loan Modifications                                                                    19                         -
 Accruals - Technical Default Reestimates                                            (510)                   (2,275)
 Subsidy Allowance Amortization                                                       (52)                      159
 Loans Written Off / Forgiven                                                         (77)                      (68)
 PV Adjustment                                                                        512                     1,018
 Other                                                                                 32                     1,531
Balance Before Reestimates                                            $             1,190      $              1,665

Subsidy Reestimates:
  Interest Rate Reestimate                                            $              (244)     $              (193)
  Technical/Default Reestimates                                                      (183)                    (210)
Total Subsidy Reestimates                                             $              (427)     $              (403)

Subsidy Allowance - End of Fiscal Year                                $               763      $             1,262


Subsidy Allowance – End of Fiscal Year 2009 includes subsidy for both direct loans and loans receivable derived
from those guaranteed transactions on which CCC was called upon to perform. For comparison purposes, prior year
balances have been adjusted to reflect the same.




                                                         72
                                    COMMODITY CREDIT CORPORATION
                                                Notes to the Financial Statements

Note 6 - Credit Program Receivables, Net, continued
For the fiscal years ended September 30, 2009 and 2008 subsidy expenses for the current year disbursements of
post-1991 direct credits and loans and subsidy reestimates are as follows:

                                                                                     (In Millions)

 2009:                  Subsidy Expense for New Direct Loans Disbursed                                       Reestimates



                                     Defaults                      Total                  Interest Rate       Technical        Total    Grand Total



P.L. 480 Title I               $                -         $                      -           $       (245)    $       (171)   $ (416)   $       (416)
Farm Storage Facility                           4                                4                      -              (11)      (11)             (7)
Apple Loan Program                              -                                -                      1               (1)        -               -

Total                          $                4        $                       4           $       (244)    $       (183)   $ (427)   $       (423)



                                                                                 (In Millions)

 2008:                      Subsidy Expense for New Direct Loans Disbursed                                    Reestimates

                              Interest                                                           Interest                                   Grand
                             Differential           Defaults         Other            Total       Rate            Technical    Total        Total

P.L. 480 Title I      $                     9   $              2      $     -         $ 11       $ (181)          $   (163)   $ (344)   $     (333)
Farm Storage Facility                       -                  7           (6)           1          (12)               (47)      (59)          (58)

Total                   $                   9   $              9      $ (6)           $ 12       $ (193)          $   (210)   $ (403)   $     (391)



Subsidy reestimates are calculated on cumulative disbursements for all budget fiscal years and the respective cohorts
(direct loan/guarantee origination year) that comprise them.




                                                                           73
                             COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 6 - Credit Program Receivables, Net, continued
For the fiscal years ended September 30, 2009 and 2008, current and prior year disbursements of post-1991 direct
credits and loans are as follows:

                                                                               (In Millions)

                                                                                                     Curent Year
                                                                                                     Over (Under)
                                                          2009                    2008                Prior Year

 P.L. 480 Title I                                   $               -      $               20    $             (20)
 Farm Storage Facility                                            140                     135                    5

 Total                                              $            140       $              155    $             (15)


As of September 30, 2009 and 2008, post-1991 credit guarantees outstanding are as follows:

                                                                  (In Millions)

                                            Face Value                                    Guaranteed*
 2009:                            Post-1991            Post-1991                Post-1991            Post-1991
                                 Outstanding          Outstanding              Outstanding          Outstanding
                                  Principal             Interest                Principal             Interest
 Export Credit
 Guarantee Programs          $           7,039      $               25     $             6,898   $                25


                                                                  (In Millions)

                                            Face Value                                    Guaranteed*
 2008:                            Post-1991            Post-1991                Post-1991            Post-1991
                                 Outstanding          Outstanding              Outstanding          Outstanding
                                  Principal             Interest                Principal             Interest
 Export Credit
 Guarantee Programs          $           3,918      $            166       $             3,829   $                66



* Outstanding principal and interest guaranteed represents a contingent liability for amounts owed by foreign banks
to exporters or assignee U.S. financial institutions participating in the program.




                                                        74
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 6 - Credit Program Receivables, Net, continued
The change in the liability for post-1991 credit guarantees as of September 30, 2009 and 2008 is as follows:

                                                                                     (In Millions)

                                                                             2009                    2008

Credit Guarantee Liability - Beginning of Fiscal Year                 $              161      $                184
Subsidy Expense for Current Year Disbursements:
  Default Costs (Net of Recoveries)                                                    77                       58
  Fees and Other Collections                                                          (22)                     (10)
Total Subsidy Expense                                                 $                55     $                 48

Adjustments:
 Loan Modifications                                                                    -                       (91)
 Fees Received                                                                        41                        22
 Claim Payments to Lenders                                                           (25)                        1
 Other                                                                                26                        40

Balance Before Reestimates                                            $              258      $                204

Subsidy Reestimates:
  Interest Rate Reestimate                                            $              (46)     $                 (5)
  Technical/Default Reestimates                                                        9                       (38)
Total Subsidy Reestimates                                             $              (37)     $                (43)

Credit Guarantee Liability - End of Fiscal Year                       $              221      $                161




                                                        75
                               COMMODITY CREDIT CORPORATION
                                            Notes to the Financial Statements

Note 6 - Credit Program Receivables, Net, continued
Subsidy expenses, net of fees and other collections, for current year disbursements related to credit guarantees made
after FY 1991, and subsidy reestimates for the fiscal years ended September 30, 2009 and 2008 are as follows:


                                                                          (In Millions)

2009:                  Subsidy Expense for New Direct Loans Disbursed                                       Reestimates
                                               Fees and
                                                 Other                                         Interest                                             Grand
                            Defaults            Collect.            Total                        Rate           Technical           Total           Total
Export Credit
Guarantee Programs     $             77     $             (22)        $          55        $         (46)       $       9       $        (37)       $       18




                                                                              (In Millions)

 2008:                  Subsidy Expense for New Direct Loans Disbursed                                           Reestimates
                                               Fees and
                                                 Other                                            Interest                                              Grand
                            Defaults            Collect.           Total                            Rate            Technical            Total          Total
 Export Credit
 Guarantee Programs        $           58       $              (10)       $           48         $        (5)       $    (38)        $      (43)        $        5



Subsidy reestimates are calculated on cumulative disbursements for all cohorts.

For the fiscal years ended September 30, 2009 and 2008, current and prior year credit guarantee disbursements are
as follows:

                                                                                   (In Millions)

                                                        2009                                                                        2008
                                   Outstanding                     Outstanding                            Outstanding                               Outstanding
                                    Principal,                      Interest,                              Principal,                                Interest,
                                   Face Value                      Guaranteed                             Face Value                                Guaranteed
 Export Credit
 Guarantee Programs            $                5,250          $                 5,145               $                  1,907                   $                1,909


Administrative expenses on direct credit and loan programs were $3 million for each of the fiscal years ended
September 30, 2009 and 2008. Administrative expenses for the credit guarantee programs were $5 million for each
of the fiscal years ended September 30, 2009 and 2008.




                                                                      76
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 6 - Credit Program Receivables, Net, continued
FY 2009 and 2008 subsidy rates (percentage) for direct credits and loans are as follows:


                                                                          Fees
 2009:                            Interest                             and Other
                                 Differential       Defaults           Collections             Total

Farm Storage Facility                    (0.82)           7.21                (0.14)                   6.25


                                                                         Fees
 2008:                             Interest                           and Other
                                  Differential      Defaults          Collections             Total

Farm Storage Facility                    0.02           1.10               (0.11)                     1.01



For the fiscal years ended 2009 and 2008, there were no apportionments for P.L. 480, and thus, no subsidy rate was
provided. The Apple Loan Program is a one year program, cohort 2001.

FY 2009 and 2008 subsidy rates (percentage) for credit guarantee programs are as follows:

                                                                              Fees
2009:                                                                      and Other
                                                      Defaults             Collections                Total
 Export Credit
 Guarantee Programs                                            1.47                 (0.60)                0.87

                                                                               Fees
2008:                                                                       and Other
                                                       Defaults             Collections                Total
 Export Credit
 Guarantee Programs                                            2.96                  (0.57)                   2.39


Subsidy rates are used to compute each year’s subsidy expenses as disclosed above. The subsidy rates disclosed
pertain only to the current year’s cohort. These rates cannot be applied to the direct credits and loans and credit
guarantees disbursed during the current reporting year to yield the subsidy expense. The subsidy expense for new
direct credits and loans and credit guarantees reported in the current year could result from disbursements from both
current year and prior year(s) cohorts. The subsidy expense reported in the current year also includes modifications
and reestimates.




                                                         77
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 6 - Credit Program Receivables, Net, continued
The principal balance of CCC direct credit and credit guarantee receivables, in a non-performing status, totaled $1.2
billion for the fiscal years ended September 30, 2009 and 2008; compared to a total principal balance (performing
and non-performing) of $8 billion and $8 billion at September 30, 2009 and 2008, respectively. If interest had been
reported on these non-performing receivables, instead of reported only to the extent of the collections received,
direct credit and credit guarantee interest income would have decreased by $14 million from a total of $40 million in
FY 2009, and increased by $47 million from a total of $40 million reported in FY 2008. During the entire
delinquency period, if interest had been reported on these non-performing receivables, instead of reported only to
the extent of the collections received, interest income would have increased to $984 million and $998 million
through September 30, 2009 and 2008, respectively.

Direct credit and credit guarantee principal receivables under rescheduling agreements as of September 30, 2009 and
2008, were $2.9 billion and $3.1 billion, respectively.

During FY 2009, there were no new Paris Club agreements to reschedule P.L. 480 debt or GSM debt. Additionally,
no claims on refinancing agreements entered into force in FY 2009. An agreement is considered to have “entered
into force” when all agreed upon domestic prerequisite conditions have been satisfied by the debtor.

Other Significant Events
In FY 2009, the GSM-102 program registered guarantees of $5.3 billion, which is $2.2 billion higher than FY 2008
and the highest level in several years. Demand for GSM has increased due to the current international economic
climate and the associated tightening of credit in the public sector.

For the first time since FY 2006, the GSM 102 program experienced defaults and associated claim payments. The
defaults occurred in the Ukraine and Kazakhstan.

P.L. 480 Title I Direct Credit Trend Analysis Reestimates
The P.L. 480 program had a net downward reestimate for FY 2009. The upward reestimate totals $29.2M and the
downward reestimate totals $437.6 million, for a net downward reestimate of $416 million. This is comprised of
$171.4 million in technical reestimate and $244.6 million in interest on the reestimate.

The largest single factor in the reestimate was the implementation of a new cash flow model which projects defaults
and recoveries based upon the program’s historical performance as opposed to government wide performance of all
programs. For the past three years, PL 480 reestimates have used OMB’s gross default rate which does not include
any projection of recoveries. The reestimate for FY 2009 projects a reduction in gross defaults, an increase in
recoveries and consequently, a downward reestimate. On a nominal basis, projected defaults from FY 2010 through
the remainder of the loan program totaled $521million at the end of FY 2008. Based on the FY 2009 default rates,
projected defaults for the same period now total $200 million, a reduction of $321 million.




                                                        78
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 6 - Credit Program Receivables, Net, continued
Components of the FY 2009 P.L. 480 reestimate are as follows:



                                                 FY 2009 Reestimate
                                                     (In Millions)
             Cohort     Reestimate         Interest on Reestimate FAI adjustment Total Reestimate
                   1992 $          (25)     $                   (61) $          - $           (86)
                   1993            (19)                         (39)            -             (58)
                   1994            (17)                         (35)            -             (52)
                   1995            (15)                         (27)            -             (42)
                   1996            (17)                         (26)            -             (43)
                   1997             (9)                         (11)            -             (20)
                   1998            (20)                         (19)            -             (39)
                   1999             15                           14          (15)              14
                   2000            (16)                         (13)           6              (23)
                   2001            (17)                         (10)           3              (24)
                   2002            (14)                          (6)          (1)             (21)
                   2003             (6)                          (2)            -              (8)
                   2004             (5)                          (1)            -              (6)
                   2005             (4)                          (1)            -              (5)
                   2006             (3)                          (1)            -              (4)
               Total     $       (172)      $                  (238) $        (7) $          (417)



Export Credit Guarantees (GSM) Reestimates Trend Analysis
The GSM-102, GSM-103, and Supplier Credit programs had a combined net downward reestimate for FY 2009.
The upward reestimate totals $39.9 million, and the downward reestimate totals $89.5 million, for a net downward
reestimate of $49.5 million. This is comprised of $3.8 million in technical reestimate and $45.7 million in interest
on the reestimate.

The GSM-102 reestimate accounts for the majority of the total net GSM reestimate. The GSM-102 net reestimate
totaled $48.6 million and was comprised of a $5.0 million technical reestimate and $43.6 million interest on the
reestimate. For the older cohorts, improvement in expected performance is attributable to better than expected
actual performance in FY 2009 as well as an increase in projected recoveries due to overall better performance in the
repayment of rescheduled agreements. For the newer cohorts in GSM 102, the 2008 and 2009 cohorts reflect an
upward reestimate due to the actual defaults that occurred, accompanied by resulting increases in projected defaults.

For GSM 103, the net FY 2009 reestimate was negligible, totaling $118 thousand. It was comprised of $49
thousand technical reestimate and $69 thousand interest on the reestimate. Most of the GSM 103 cohorts are ready
to close effective with the apportionment of the current reestimates.

The Supplier Credit net reestimate was $12.5 million, comprised of a $14.1 million technical reestimate and $1.8
million interest on the reestimate. Unlike GSM 102, repayments on rescheduled agreements in FY 2009 were
significantly lower than anticipated, resulting in upward reestimates for the FY 2004 and FY 2005 cohorts.




                                                         79
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 6 - Credit Program Receivables, Net, continued
Components of the GSM 102 FY 2009 reestimates are as follows:

                                                FY 2009 Reestimate
                                                    (In Millions)
              Cohort   Reestimate      Interest on Reestimate FAI Adjustment Total Reestimate
                1996 $       (10)      $                   (13) $          - $            (23)
                1997         (17)                          (21)            -              (38)
                1998          (1)                            (1)           -               (2)
                2001         (13)                            (7)           -              (20)
                2004           -                              -           (1)              (1)
                2005          (1)                             -            1               (0)
                2006          (3)                             -           (1)              (4)
                2007           -                              -           (1)              (1)
                2008          27                              1            -               28
                2009          13                              -            -               13
               Total $        (5)      $                   (41) $         (2) $           (48)




Components of the Supplier Credit FY 2009 reestimates are as follows:

                                           FY 2009 Reestimate
                                              (In Millions)
               Cohort Reestimate Interest on Reestimate FAI Adjustment Total Reestimate
                 2004 $      11 $                      1 $          (1) $           11
                 2005         3                        -            (2)               1
                 Total $     14 $                      1 $          (3) $           12



Trend Analysis - Farm Storage Facility Loan Reestimate

For the Farm Storage program, there was an overall downward reestimate of $11.19 million. The largest component
of the downward reestimate was for the 2008 cohort at $5.66 million. A new econometric cashflow model was
introduced in FY 2009, which has resulted in a better overall projection of future activity. In addition, prepayment
data has been more completely identified to include both full and partial prepayment data. Defaults in the program
overall are rare, and the downward reestimate is reflective of a continued expectation of low defaults for the current
cohorts.




                                                         80
                            COMMODITY CREDIT CORPORATION
                                     Notes to the Financial Statements

Note 6 - Credit Program Receivables, Net, continued
Components of the Farm Storage FY 2009 reestimate are as follows:

                                               FY 2009 Reestimate
                                                  (In Millions)
              Cohort Reestimate      Interest on Reestimate FAI Adjustment Total Reestimate
                2000 $       2      $                      1 $          (2) $             1
                2001         -                             -             1                1
                2002         -                             -             1                1
                2004        (1)                            -             -               (1)
                2005        (1)                            -            (1)              (2)
                2006        (2)                            -             -               (2)
                2007        (3)                            -             -               (3)
                2008        (6)                            -             -               (6)
                2009        (1)                            -             -               (1)
                Total $    (12)     $                      1 $          (1) $           (12)




                                                     81
                             COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 7 – Commodity Inventories and Related Property, Net
Inventory and related property as of September 30 are as follows:
                                                                                       (In Millions)

                                                                             2009                      2008
Commodity Inventories - Beginning of Fiscal Year                      $                 11       $               185
Acquisitions                                                                         4,101                     1,126
Cost of Sales                                                                       (2,803)                     (126)
Donations                                                                           (1,113)                   (1,220)
Other Dispositions, Additions and Deductions                                             6                        46

Commodity Inventories - End of Fiscal Year                            $               202        $                 11

Barter Delivery Obligations (BDO)                                     $                  3       $                  4

Commodity Inventories and Related Property, Net                       $               205        $                 15




Commodity loan forfeitures included in the Acquisitions line item were $47 million and $8 million for the fiscal
years ended September 30, 2009 and 2008, respectively. The allowance for losses for the fiscal year ended
September 30, 2009 is insignificant.

BDOs were received by CCC in exchange for CCC-owned commodities. The BDOs may only be exchanged for
food products to be utilized in domestic and export food programs. Refer to Note 1 for additional information.

Restrictions on Commodity Inventory
In accordance with the Bill Emerson Humanitarian Trust (BEHT) Act of 1998, CCC maintains a reserve of
commodities and funds for use when domestic supplies are so limited that quantities cannot meet the availability
criteria under P.L. 480. The Secretary of Agriculture may authorize the release of commodities from the BEHT.
Commodities are to be used solely for emergency food assistance. BEHT stocks can be exchanged for other U.S.
agricultural commodities of equal value or for an equivalent amount of funds from the market to meet emergency
food needs. The 2008 Farm Bill extended the authorization to replenish the trust through fiscal year 2012.

On April 15, 2008 and May 16, 2008, the Secretary of Agriculture authorized the release of the wheat reserves for
use under P.L. 480, Title II. On May 23, 2008, CCC made available for sale all remaining BEHT wheat owned by
the CCC, with proceeds available for use under P.L. 480, Title II. Refer to Note 1 under Commodity Inventories for
additional information.




                                                        82
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 8 – General Property and Equipment, Net
General property and equipment as of September 30 are as follows:

                                                                             (In Millions)

2009:                                                                        Accumulated
                                                Acquisition Value            Depreciation             Net Book Value

Equipment                                       $              45        $               (45)      $                -
Capitalized Software Costs                                    114                        (70)                      44

Total General Property and Equipment            $             159        $             (115)       $               44


                                                                             (In Millions)

2008:                                                                        Accumulated
                                                Acquisition Value            Depreciation             Net Book Value

Equipment                                       $              49        $               (49)      $                -
Capitalized Software Costs                                    118                        (67)                      51

Total General Property and Equipment            $             167        $             (116)       $               51




Note 9 – Liabilities Not Covered by Budgetary Resources
                                                                                        (In Millions)

                                                                               2009                      2008

Accrued Liabilities (Note 14)
 Conservation Reserve Program                                           $             1,734       $             1,775
 Tobacco Transition Payment Program                                                   4,705                     5,302
Environmental and Disposal Liabilities (Note 13)                                          8                         8
Total Liabilities Not Covered by Budgetary Resources                    $             6,447       $             7,085

Total Liabilities Covered by Budgetary Resources                        $          16,095         $          16,198

Total Liabilities                                                       $          22,542         $          23,283

Liabilities not covered by budgetary resources are liabilities for which Congressional action is needed before
budgetary resources can be provided.




                                                         83
                               COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 10 – Debt to the Treasury
Debt to the Treasury, categorized as interest bearing and non-interest bearing notes, as of September 30 is as
follows:

                                                                                       (In Millions)

                                                                              2009                      2008
Debt - Beginning of Fiscal Year
 Principal: Interest Bearing                                            $            5,866        $              6,452
 Accrued Interest Payable                                                               11                          64
Total Debt Outstanding - Beginning of Fiscal Year                       $            5,877        $              6,516

New Debt
 Principal: Interest Bearing                                            $          22,876         $          22,996
 Accrued Interest Payable                                                           3,014                       104
Total New Debt                                                          $          25,890         $          23,100

Repayments
 Principal: Interest Bearing                                            $         (23,868)        $         (23,582)
 Accrued Interest Payable                                                          (3,022)                     (157)
Total Repayments                                                        $         (26,890)        $         (23,739)

Debt - End of Fiscal Year
 Principal: Interest Bearing                                            $            4,874        $              5,866
 Accrued Interest Payable                                                                3                          11
Total Debt Outstanding - End of Fiscal Year                             $            4,877        $              5,877


CCC may borrow interest-free up to the amount of its unreimbursed realized losses. Monthly interest rates ranged
from 0.375 percent to 2.000 percent during FY 2009 and from 1.625 percent to 4.250 percent during FY 2008.

There was no debt principal and interest refinanced for the fiscal year ended September 30, 2009. There was no
outstanding principal rolled over for the fiscal years ended September 30, 2009 and 2008. There was no accrued
interest rolled into notes payable for the fiscal years ended September 30, 2009 and 2008. Interest expense incurred
on Treasury borrowings was $140 million and $263 million for the fiscal years ended September 30, 2009 and 2008,
respectively.

The FY 2009 and 2008 interest rates on long-term borrowings under the permanent indefinite borrowing authority
for the Credit Reform programs are calculated using the OMB Credit Subsidy Calculator 2. For FY 2001 and future
cohorts, the single effective interest rate produced from the calculator, along with budget assumptions, is used to
calculate interest expense.




                                                         84
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 10 – Debt to the Treasury, continued
The repayment terms for borrowings made for the Export Credit Guarantee programs range from under
3 years up to 10 years. Currently, maximum loan terms do not exceed 7 years, while the repayment term for P.L.
480 direct credits program borrowing is 30 years. The repayment term is 7 years for direct loans under the Farm
Storage Facility Loans program, 3 years for direct loans under the Apple Loan Program, and 10 years for the direct
loan made under the Boll Weevil program. For all Credit Reform programs, principal repayments are required only
at maturity, but are permitted at any time during the term of the loan.

CCC has a separate permanent indefinite borrowing authority for the Credit Reform programs to finance
disbursements on post-1991 Credit Reform direct credit and loan obligations and credit guarantees. On October 1,
CCC borrows from Treasury for the entire fiscal year based on annual estimates of the difference between the
amount appropriated (subsidy) and the amount to be disbursed to the borrower. CCC may repay the loan agreement,
in whole or in part, prior to maturity by paying the principal amount of the borrowings plus accrued interest up to
the date of repayment. Interest is paid on these borrowings based on weighted average interest rates for the cohort to
which the borrowings are associated. Interest expense incurred on borrowings associated with the Credit Reform
programs was $122 million and $164 million for the fiscal years ended September 30, 2009 and 2008, respectively.

CCC has an authorized capital stock of $100 million held by the Treasury and with the authority to have outstanding
borrowings of up to $30 billion at any one time. Interest on borrowings from the Treasury (and on capital stock) is
paid at a rate based upon the average interest rate of all outstanding marketable obligations (of comparable maturity
date) of the U.S. government as of the preceding month. CCC incurred $4 million and $5 million in interest expense
on capital stock for the fiscal years ended September 30, 2009 and 2008, respectively.




                                                         85
                               COMMODITY CREDIT CORPORATION
                                                Notes to the Financial Statements


Note 10 – Debt to the Treasury, continued
Total debt outstanding, by program and maturity date, as of September 30, 2009, is as follows:

                                     Program                  Debt (In Millions)       Maturity Date
                      CCC Borrowing Authority               $                 3,206        January 1, 2010
                      Export Credit Guarantee                                     72   September 30, 2010
                                                                                 129   September 30, 2011
                                                                                   1   September 30, 2013
                                                                                  49   September 30, 2015
                                                                                  43   September 30, 2018
                                                                                   2   September 30, 2019
                      P.L. 480 Direct Credits                                     81   September 30, 2018
                                                                                  70   September 30, 2019
                                                                                  42   September 30, 2020
                                                                                  29   September 30, 2021
                                                                                  47   September 30, 2022
                                                                                  48   September 30, 2023
                                                                                  54   September 30, 2024
                                                                                  91   September 30, 2025
                                                                                  36   September 30, 2026
                                                                                  35   September 30, 2027
                                                                                  39   September 30, 2031
                                                                                  29   September 30, 2032
                                                                                  25   September 30, 2033
                                                                                  20   September 30, 2034
                                                                                  15   September 30, 2035
                      Debt Reduction                                              10   September 30, 2012
                                                                                   4   September 30, 2013
                                                                                   6   September 30, 2018
                                                                                   1   September 30, 2020
                                                                                   9   September 30, 2021
                                                                                  40   September 30, 2022
                                                                                  12   September 30, 2023
                                                                                  19   September 30, 2024
                                                                                  14   September 30, 2026
                                                                                   3   September 30, 2028
                      FarmStorage Facility Loans                                   6   September 30, 2010
                                                                                  13   September 30, 2011
                                                                                  19   September 30, 2012
                                                                                  33   September 30, 2013
                                                                                  62   September 30, 2014
                                                                                 113   September 30, 2015
                                                                                 148   September 30, 2016
                                                                                 198   September 30, 2017
                      Boll Weevil                                                  0   September 30, 2009
                      Apple Loans                                                  0   September 30, 2010
                      Total Debt Outstanding                $              4,874




                                                                86
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 11 – Deposit and Trust Liabilities
Deposit and trust liabilities are amounts advanced to or deposited with CCC, on behalf of other entities. Refer to
Note 18 – Disclosures Not Related to a Specific Statement for additional information. The balances, categorized as
intragovernmental and public, as of September 30 are as follows:

                                                                                        (In Millions)

                                                                               2009                      2008
Intragovernmental (Note 18):
Agricultural Marketing Service                                          $             274         $             130
Food and Nutrition Service                                                            441                       482
Foreign Agricultural Service                                                          143                       120
Natural Resources Conservation Service                                                116                        88

Total Intragovernmental Deposit and Trust Liabilities                   $             974         $             820

Public                                                                  $                7        $                6

Total Public Deposit and Trust Liabilities                              $                7        $                6

Within USDA, Agricultural Marketing Service (AMS) and Food and Nutrition Service (FNS) coordinate with
FSA/CCC to purchase certain commodities for domestic feeding programs. AMS funds the purchase of
commodities for the purpose of facilitating additional sales in world markets at competitive prices. FNS funds the
purchase of commodities for the National School Lunch and many other domestic feeding programs administrated
by voluntary organizations which help to fight hunger worldwide. The commodities purchased are meats, poultry,
fish, fruit, vegetables, egg products, dry beans, and tree nuts. FNS coordinates the purchase through competitive
bids or negotiated contracts to assure the quantity, quality, and variety of commodities purchased meet the needs of
schools and institutions participating in the domestic nutrition programs. These purchases also assist farmers,
commodity producers, and processors by helping to maintain stable commodity prices.

The public liability was $7 million and $6 million as of September 30, 2009 and 2008, respectively.
The public liability consists of unapplied collections for warehouse user fees, claims for disaster programs, and other
miscellaneous collections that are temporarily held in suspense until appropriately identified and applied.




                                                         87
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 12 – Other Liabilities
Other liabilities as of September 30 are as follows:

                                                                                       (In Millions)

                                                                              2009                     2008
Intragovernmental:
  Resources Payable to Treasury:
    P.L. 480 Direct Credit Liquidating Fund                            $             2,697       $            3,123
    Export Credit Guarantee Direct Loans Liquidating Fund                               47                       72
    Export Guarantee Program, Negative Subsidies                                         -                        2

  Resources Payable to Treasury                                        $             2,744       $            3,197

  Accrued Conservation Reserve Program Technical Assistance            $               11        $               -
  Excess Subsidy Payable to Treasury                                                  563                      614
  Other                                                                                18                       49

Other Intragovernmental Liabilities                                    $              592        $             663

  Public                                                               $             1,257       $             110

Other Public Liabilities                                               $             1,257       $             110


Resources Payable to Treasury represents CCC’s liquidating fund assets (cash and loans receivable, net of an
allowance) less any liabilities that may be held as working capital. Loans made in 1991 and before (pre-credit
reform direct loans and assigned loan guarantees) are accounted for in liquidating funds. These funds collect loan
payments and pay any related expenses or default claims. At the end of each year, any unobligated cash on hand is
transferred to Treasury.

The Public liability as of September 30, 2009 included $1.25 billion related to the Pigford II litigation. CCC
recorded a contingent liability of $100 million for the litigation at the end of FY 2008. As of September 30, 2009,
the contingent liability was adjusted to $1.25 billion to reflect the estimated amount of potential loss.

Note 13 – Environmental and Disposal Liabilities
The Corporation formerly operated approximately 4,500 grain storage facilities in the U.S. To date, at
approximately 120 of these facilities, Carbon Tetrachloride (a fumigant commonly used at grain storage facilities
during that time) was discovered in groundwater. CCC recorded an estimate of the total liability for investigation
and remediation of affected sites of $8 million for both fiscal years ended September 30, 2009 and 2008 based on
actual cleanup costs at similar sites. This liability is not covered by budgetary resources.

Hazardous Waste Program
Since the first discovery of contaminated groundwater, CCC has been engaged in an active program to identify
affected sites, perform risk assessments, and conduct cleanup actions. As of September 30, 2009 and 2008,
payments for these activities totaled $5 million. At September 30, 2009, CCC estimates the range of potential future
losses to be between $8 million and $47 million.




                                                         88
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements


Note 14 – Accrued Liabilities
Accrued liabilities as of September 30 are as follows:

                                                                                     (In Millions)

                                                                            2009                     2008

Conservation Reserve Program                                         $             1,734       $            1,775
Export Programs                                                                      135                      183
Income Support Programs:
  Direct and Counter-Cyclical Payments                                             4,960                    4,878
  Milk Income Loss Contract                                                           13                        -
  Other                                                                                7                       14
Tobacco Transition Payment Program                                                 4,705                    5,302
Other                                                                                  6                        2

Total Accrued Liabilities                                            $          11,560         $         12,154




The liabilities for Conservation Reserve Programs were considered current as of September 30, 2009 and 2008. The
liability of $4.7 billion and $5.3 billion under the Tobacco Transition Payment Program (TTPP) includes a current
liability of $955 million as of September 30, 2009 and 2008. The remaining balance was a long term liability as of
September 30, 2009 and 2008. Refer to Note 1, under Liabilities, for additional information.




                                                         89
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 15 – Commitments and Contingencies
A loss contingency is an existing condition, situation, or set of circumstances involving uncertainty as to possible
loss to an entity. The uncertainty will ultimately be resolved when one or more future events occur or fail to occur.
A loss contingency is a liability when a past event or exchange transaction has occurred; a future outflow or other
sacrifice of resources is probable; and the future outflow or sacrifice of resources is measurable.

In addition to loss contingencies, CCC also discloses (1) an estimate of obligations related to canceled
appropriations for which the reporting entity has a contractual commitment for payment and (2) amounts for
contractual arrangements that may require future financial obligations.

Commitments

Wetland Reserve Program (WRP)
WRP provides technical and financial assistance to eligible landowners to restore, enhance, and protect wetlands.
This voluntary program offers landowners an opportunity to establish, at minimal cost, long-term conservation and
wildlife habitat enhancement practices and protection. WRP program expenses for the fiscal years ended September
30, 2009 and 2008 were $9 thousand and $3 million, respectively. The decrease reflects the limited number of
remaining contracts with CCC. As of September 30, 2009 and 2008, CCC’s undelivered orders on current contracts
were $15 thousand and $25 thousand, respectively.

Market Access Program (MAP)
The MAP was authorized by the Agriculture Trade Act of 1978, as amended, to encourage the development,
maintenance, and expansion of commercial export markets for agricultural commodities through cost-share
assistance to eligible trade organizations that implement a foreign market development program. CCC makes funds
available to reimburse program participants for authorized promotional expenses. Program expenses for the fiscal
years ended September 30, 2009 and 2008 were $215 million and $179 million, respectively. At September 30,
2009 and 2008, CCC’s undelivered orders on current contracts were $224 million and $243 million, respectively.

Noninsured Crop Disaster Assistance Program (NAP)
The NAP was authorized as a CCC program under the 1996 Act. The NAP provides financial assistance to
producers of non-insurable crops when a low yield crop, loss of inventory, or prevented planting occurs due to
natural disasters. The crops must be non-insurable commodities for which the catastrophic risk protection level of
crop insurance is not available. Program expenses for the fiscal years ended September 30, 2009 and 2008 were $64
million and $74 million, respectively. At September 30, 2009 and 2008, CCC’s undelivered orders on current
contracts were $4 million and $6 million, respectively.

Commodity Acquisition
Commitments to acquire commodities represent the contract value of commodities not yet delivered under CCC
purchase contracts. Such commitments amounted to $134 million and $176 million for Export Program; and, $109
million and $94 million for Food for Progress at September 30, 2009 and 2008, respectively.

As of September 30, 2009, commitments amounted to $34 million for the Food for Education and $5 million for
Price Support processing program. As of September 30, 2008, commitments amounted to $13 million for the Food
Security Reserve program.




                                                         90
                               COMMODITY CREDIT CORPORATION
                                           Notes to the Financial Statements


Note 15 – Commitments and Contingencies, continued

Conservation Reserve Program (CRP)
Through CRP, participants’ sign 10-15 year contracts to remove land from production in exchange for an annual
rental payment. The participants also receive cost-share assistance for establishing conservation practices on the
reserve acreage and additional incentive payments for adopting high-priority conservation measures. CCC estimates
that the future liability for CRP rental payments through FY 2016 will average $1.8 billion annually. This estimate
is based on current program levels with the assumption that expiring lands are re-enrolled and new lands are
enrolled such that enrollment ranges between 30 and 32 million acres between FY 2010 and FY 2016. At
September 30, 2009 and 2008, accrued liabilities for CRP totaled approximately $1.7 billion and $1.8 billion,
respectively.

Leases
As of September 30, 2009, future minimum rental payments required under FSA operating leases for State office
space, for which CCC is directly liable, consisted of the following:

                                (In Millions)
       Year                    Rent Expense
       2010                                     1
       Total               $                    1


Allocated rent expense, net of reimbursements, was $54 million for the fiscal years ended September 30, 2009 and
2008. This allocated rent expense is recognized as part of the CCC’s imputed financing sources and imputed costs.

Contingencies
Legal Disputes and Claims
In the normal course of business, CCC becomes involved in various legal disputes and claims. CCC vigorously
defends its position in such actions through the Office of the General Counsel (OGC) and the U.S. Department of
Justice. CCC’s financial statements as of September 30, 2009 included a contingent liability of $1.25 billion for a
legal case for which a payment has been deemed probable.

A contingency is considered reasonably possible when the chance of the future confirming event or events occurring
is more than remote but less than probable. CCC has one ongoing case, Prime Time International Company v.
Vilsack. A payment for this case has been deemed reasonably possible and the amount is uncertain. No amounts
have been accrued in the financial statements for claims where the amount is uncertain or where the probability of
judgment against USDA is remote.




                                                         91
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 16 – Disclosures Related to the Statement of Net Cost
Earned Revenue
Revenue and expense are recognized based on SFFAS No. 7, Accounting for Revenue and Other Financing Sources.
CCC follows the implementation guide for classifying, recognizing, and measuring inflows of resources. Earned
revenues are exchange revenues, which arise when a Federal entity provides goods and services to the public or to
another government entity for a price.

Earned revenue for the fiscal years ended September 30 is as follows:

                                                                                         (In Millions)

                                                                                2009                      2008

Intragovernmental Earned Revenue:
  Commodity Inventory Sales                                              $              921        $              921
  Interest Income                                                                        47                        91
  Other                                                                                 146                         -
  Less: Intra-Agency Eliminations                                                      (921)                     (925)

Total Intragovernmental Earned Revenue                                   $              193        $                  87

Earned Revenue from the Public
 Commodity Inventory Sales                                               $             1,916       $               244
 Interest Income                                                                         190                       468
 Other                                                                                   369                     1,030
Total Earned Revenue from the Public                                     $             2,475       $             1,742

Total Earned Revenue                                                     $             2,668       $             1,829




Public commodity inventory sales increased to $1,916 million in FY 2009 from $244 million in FY 2008. This
increase reflects the sale proceeds of price support certificates, and is due to lower upland cotton market prices,
which affected commodity certificate exchanges in FY 2009.

For FY 2009, Earned Revenue from the Public: Other decreased to $369 million. This is mostly comprised of the
Tobacco Trust Fund Program which totaled $337 million.




                                                          92
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 16 – Disclosures Related to the Statement of Net Cost,
continued
CCC’s strategic goals are as follows:

        Supporting productive farms and ranches
        Supporting secure and affordable food and fiber
        Conserving natural resources and enhancing the environment
        Supporting international economic development and trade capacity building

Under supporting productive farms and ranches, program areas include Income Support and Disaster Assistance.
CCC provides financial assistance in the form of flexible payments and short term financing to stabilize, support,
and protect farm income and prices due to the fluctuation of commodity market prices or income support due to
damage caused by natural disaster. Commodity Loans, Tobacco Transition Payment Program, Disaster Assistance,
Milk Income Loss Payments, Price Support, and Direct and Counter-Cyclical programs comprise major program
activity.

Under supporting secure and affordable food and fiber, program areas include Commodity Operations, Dairy Price
Support, and Food Security Reserve. Of these, CCC’s Dairy Price Support and Food Security Reserve programs
protect the nation’s agriculture and food supply through a uniform regulatory system for the storage of agricultural
products and ensure the timely provision of food products procured for domestic and international food assistance
programs and market development programs.

Under conserving natural resources and enhancing the environment, the Conservation Reserve Program safeguards
natural resources by paying farmers to take environmentally sensitive crop land out of production, and plant long-
term resource-conserving covers (such as grasses and trees). These covers improve the quality of water and air,
control soil erosion, and enhance wildlife habitat.

Under supporting international economic development and trade capacity building, program areas include Export
Credit, Market Expansion and Trade Building. FAS and CCC form cooperative agreements with other nonprofit
agricultural trade commodity groups to encourage development, maintenance and expansion of commercial export
markets for agricultural commodities. Major programs include Food Aid, Foreign Market Development and Export
Credit Guarantee.

Refer to the Management Discussion and Analysis, Performance Section for additional information on the CCC’s
alignment of its strategic goals to the USDA Performance and Accountability Report Goals.




                                                         93
                                                        COMMODITY CREDIT CORPORATION
                                                                   Notes to the Financial Statements

Note 16 – Disclosures Related to the Statement of Net Cost, continued
Net cost of operations for the fiscal year ended September 30, 2009 (In Millions), is as follows:

Agency Strategic Goals:
                                                                                                Income Support
                                                                               Commodity         and Disaster        Conservation            Foreign           Intra-entity
                                                                               Operations          Programs           Programs              Programs           Eliminations           Total

Supporting Productive Farms and Ranches
   Intragovernment Cost                                                    $            54      $          930   $                  -   $              -   $                  -   $         984
   Public Cost                                                                       1,175              10,523                      -                  -                      -          11,698
   Total Cost                                                              $         1,229      $       11,453   $                  -   $              -   $                  -   $      12,682

   Intragovernment Earned Revenue                                          $                -   $            -   $                  -   $              -   $                  -   $           -
   Public Earned Revenue                                                                    -            2,347                      -                  -                      -           2,347
   Total Earned Revenue                                                    $                -   $        2,347   $                  -   $              -   $                  -   $       2,347

Supporting Secure and Affordable Food and Fiber
   Intragovernment Cost                                                    $           87       $          24 $                     -   $              -   $                  -   $           111
   Public Cost                                                                         67                  (7)                      -                  -                      -                60
   Total Cost                                                              $          154       $          17 $                     -   $              -   $                  -   $           171

   Intragovernment Earned Revenue                                          $            (9) $              10    $                  -   $              -   $                  -   $             1
   Public Earned Revenue                                                                 -                 14                       -                  -                      -                14
   Total Earned Revenue                                                    $            (9) $              24    $                  -   $              -   $                  -   $            15

Conserving Natural Resources and Enhancing the Environment
   Intragovernment Cost                                                    $                -   $            -   $             399      $              -   $                  -   $         399
   Public Cost                                                                              -                -               1,824                     -                      -           1,824
   Total Cost                                                              $                -   $            -   $           2,223      $              -   $                  -   $       2,223

   Intragovernment Earned Revenue                                          $                -   $            -   $              -       $              -   $                  -   $             -
   Public Earned Revenue                                                                    -                -                  1                      -                      -                 1
   Total Earned Revenue                                                    $                -   $            -   $              1       $              -   $                  -   $             1

Support International Economic Development and Trade C apacity Buildings
   Intragovernment Cost                                                    $                -   $            -   $                  -   $       1,057      $            (920) $             137
   Public Cost                                                                              -                -                      -           1,612                      -              1,612
   Total Cost                                                              $                -   $            -   $                  -   $       2,669      $            (920) $           1,749

   Intragovernment Earned Revenue                                          $                -   $            -   $                  -   $       1,113      $            (920) $               193
   Public Earned Revenue                                                                    -                -                      -             112                      -                  112
   Total Earned Revenue                                                    $                -   $            -   $                  -   $       1,225      $            (920) $               305

Total Gross Cost                                                           $         1,383 $            11,470   $           2,223      $       2,669      $            (920) $          16,825
Less: Total Earned Revenue                                                              (9)              2,371                   1              1,225                   (920)             2,668
Net Cost of Operations                                                     $         1,392 $             9,099   $           2,222      $       1,444      $               - $           14,157




                                                                                    94
                                                              COMMODITY CREDIT CORPORATION
                                                                          Notes to the Financial Statements

Note 16 – Disclosures Related to the Statement of Net Cost, continued
Net cost of operations for the fiscal year ended September 30, 2008 (In Millions), is as follows:

Agency Strategic Goals:
                                                                                                          Income Support
                                                                                     Commodity             and Disaster        Conservation            Foreign            Intra-entity
                                                                                     Operations              Programs           Programs              Programs           Eliminations             Total

Supporting Productive Farms and Ranches
   Intragovernment Cost                                                          $           167      $            1,101   $                  -   $              -   $                    -   $           1,268
   Public Cost                                                                               113                   6,970                      -                  -                        -               7,083
   Total Cost                                                                    $           280      $            8,071                      -                  -                        -   $           8,351

   Intragovernment Earned Revenue                                                $                -   $                -   $                  -   $              -   $                    -   $               -
   Public Earned Revenue                                                                          1                1,139                      -                  -                        -               1,140
   Total Earned Revenue                                                          $                1   $            1,139   $                  -   $              -   $                    -   $           1,140

Supporting Secure and Affordable Food and Fiber
   Intragovernment Cost                                                          $            48      $               23 $                    -   $              -   $                    -   $             71
   Public Cost                                                                               229                     (58)                     -                  -                        -                171
   Total Cost                                                                    $           277      $              (35) $                   -   $              -   $                    -   $            242

   Intragovernment Earned Revenue                                                $             9      $               11   $                  -   $              -   $                   (4) $              16
   Public Earned Revenue                                                                     243                      12                      -                  -                        - $              255
   Total Earned Revenue                                                          $           252      $               23   $                  -   $              -   $                   (4) $             271

Conserving Natural Resources and Enhancing the Environment
   Intragovernment Cost                                                          $                -   $                -   $             236      $              -   $                    -   $             236
   Public Cost                                                                                    -                    -               1,889                     -                        -               1,889
   Total Cost                                                                    $                -   $                -   $           2,125      $              -   $                    -   $           2,125

   Intragovernment Earned Revenue                                                $                -   $                -   $                  -   $              -   $                    -   $              -
   Public Earned Revenue                                                                          -                    -                      2                  -                        -                  2
   Total Earned Revenue                                                          $                -   $                -   $                  2   $              -   $                    -   $              2

Support International Economic Development and Trade Capacity Buildings
   Intragovernment Cost                                                          $                -   $                -   $                  -   $        1,101     $             (925) $                  176
   Public Cost                                                                                    -                    -                      -            1,891                      -                   1,891
   Total Cost                                                                    $                -   $                -   $                  -   $        2,992     $             (925) $                2,067

   Intragovernment Earned Revenue                                                $                -   $                -   $                  -   $          992     $             (921) $                  71
   Public Earned Revenue                                                                          -                    -                      -              345                      -                    345
   Total Earned Revenue                                                          $                -   $                -   $                  -   $        1,337     $             (921) $                 416

Total Gross Cost                                                                 $           557      $            8,036   $           2,125      $        2,992     $             (925) $            12,785
Less: Total Earned Revenue                                                                   253                   1,162                   2               1,337                   (925)               1,829
Net Cost of Operations                                                           $           304      $            6,874   $           2,123      $        1,655     $                - $             10,956




                                                                                            95
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 17 – Disclosures Related to the Statement of Budgetary
Resources
The SBR is a combined statement, and as such, intra-agency transactions have not been eliminated.

For the fiscal year ended September 30, 2009, there were no obligations incurred under apportionment category A,
which is funded on a quarterly basis, while obligations incurred under apportionment category B, which are funded
annually, consist of $4.4 billion direct obligations and $24.2 billion reimbursable obligations.

For the fiscal year ended September 30, 2008, there were no obligations incurred under apportionment category A,
which is funded on a quarterly basis; while obligations incurred under apportionment category B, which are funded
annually, consist of $5.1 billion direct obligations and $21.7 billion reimbursable obligations.

Obligations for the P.L. 480 Title II Grants Fund, incurred by USAID, for the fiscal year ended September 30, 2008,
were reclassified from reimbursable to direct. The direct obligations are obligations financed by appropriations, and
reimbursable obligations are obligations financed by offsetting collections. The amount of reclassification was $1.4
billion.

The majority of the amounts reported as permanently not available represent redemption of debt or the amount of
principal repayments paid to the Treasury on CCC's outstanding borrowings. The remaining balance represents
rescissions of budgetary authority. The amounts were $29.0 billion and $33.7 billion for the fiscal years ended
September 30, 2009 and 2008, respectively.

CCC has a permanent indefinite borrowing authority, as defined by OMB Circular A-11, Preparation, Submission,
and Execution of the Budget, of $30 billion. The Corporation’s borrowing authority is made up of both interest and
non-interest bearing notes. These notes are drawn upon on a daily basis when disbursements exceed deposits, as
reported by the Federal Reserve Banks (FRBs), their branches, the Treasury, and CCC’s financing office. CCC’s
notes payable under its permanent indefinite borrowing authority have a term of one year. On January 1 of each
year, CCC refinances its outstanding borrowings, including accrued interest, at the January borrowing rate. The
amount of available borrowing authority for the fiscal year ended September 30, 2009 is $11 billion. Refer to Note
10, Debt to the Treasury, for additional information.

CCC receives an annual appropriation to fund subsidy costs incurred. In addition, CCC has permanent indefinite
appropriation authority to finance disbursements made under the liquidating accounts related to the pre-Credit
Reform program activities, which are not covered by available working capital.

Undelivered orders, either unpaid or prepaid, are obligations, purchase orders, or contracts awarded for which goods
or services have not yet been received. The amounts for undelivered orders are $4.2 billion and $2.6 billion for the
fiscal years ended September 30, 2009 and 2008, respectively.

Unobligated budget authority is the difference between the total unexpended appropriation balance and the obligated
balance. An appropriation expires on the last day of its period of availability and is no longer available for new
obligations. Unobligated balances retain their fiscal year identity in an “expired account” for appropriation for an
additional 5 fiscal years. The unobligated balance remains available to make legitimate obligation adjustments (i.e.,
to record previously unrecorded obligations and to make upward adjustments in previously under-recorded
obligations).

No contributed capital was received during the reporting periods.




                                                        96
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 17 – Disclosures Related to the Statement of Budgetary
Resources, continued
Unobligated budget authority is the difference between the obligated balance and the total unexpended balance. It
represents that portion of the unexpended balance unencumbered by recorded obligations. Appropriations are
provided on an annual, multi-year, and no-year basis. An appropriation expires on the last day of its period of
availability and is no longer available for new obligations. Unobligated balances retain their fiscal-year identity in
an expired account for an additional five fiscal years. The unobligated balance remains available to make legitimate
obligation adjustments, i.e., to record previously unrecorded obligations and to make upward adjustments in
previously underestimated obligations for five years. At the end of the fifth year, the authority is canceled.
Thereafter, the authority is not available for any purpose.

Any information about legal arrangements affecting the use of the unobligated balance of budget authority is
specifically stated by program and fiscal year in the appropriation language or in the alternative provisions section at
the end of the appropriations act. CCC does not have obligations from canceled appropriations.

The SF-133, Report on Budget Execution, which is used by CCC to report and certify obligation balances is also
used to populate some portions of the Program and Financing Schedules (P&F Schedules) within the Budget of the
United States Government.

Since the P&F Schedules within the Budget of the United States Government, Fiscal Year 2011, are not available for
FY 2009, the reconciliation between the President’s Budget and the SBR for FY 2009 cannot be performed. The
Budget of the United States Government, Fiscal Year 2011, is expected to be published in February 2010 and will be
available on the website of the Office of Management and Budget (www.whitehouse.gov/omb) at that time. The
SF-133 and the SBR for FY 2009 will be reconciled to the FY 2009 actuals on the P&F Schedules reported in the
Budget of the United States Government, Fiscal Year 2011, once released. The SF-133 and the SBR for FY 2008
have been reconciled to the FY 2008 actuals on the P&F Schedules presented in the Budget of the United States
Government, Fiscal Year 2010. While Net Outlays reconcile between the P&F Schedules and the SF-133, Gross
Outlays and Offsetting Collections show variances due to reporting differences related to advances from the
Agricultural Marketing Service (AMS) and Food and Nutrition Service (FNS) by Treasury.

A table presenting this comparison appears on the following page.




                                                          97
                                                                     COMMODITY CREDIT CORPORATION
                                                                                    Notes to the Financial Statements

Note 17 – Disclosures Related to the Statement of Budgetary Resources, continued
The comparison of selected line items of the FY 2008 SBR to the actuals on the FY 2008 P&F Schedules presented in the Budget of the United States
Government, Fiscal Year 2010 is as follows.

                                                                                                                                                                                          Portion of
                                                                                                                                                                                          Difference
                                                                                                                                     SBR                 P&F                            Resulting from
SBR             P&F                                                                                                                 Amount              Amount                            Reporting
Line Ref        Line No.                                                          SBR Line Description                            (Ref. Tab B)    (Ref. Tab A, pg 2/2)   Difference     Requirements         Note


1               21.40                                      Unobligated Balance - Beginning of Year                               $       3,745      $        3,745       $        -    $               -
2               22.10/73.40                                Recoveries of Prior Year Obligations                                          1,273               1,273                -                    -
3A              40.00/60.00                                Appropriations Received                                                      16,154              16,154                -                    -
3B              67.10                                      Authority to Borrow                                                          30,569              21,014            9,555                9,555       a
3D1a/3D2a/3D5   58.00/68.00/69.00                          Offsetting Collections - Collected                                           16,022              15,932               90                    -       b
3D1b/3D2b       69.10/74.00                                Offsetting Collections - Receivable                                              27                  27                -                    -
4               41.00/42.00/22.21/22.22/61.00/62.00        Budgetary Resources/Unobligated Balance - Net Transfers                      (2,620)             (2,621)               1                    -
6               22.40/22.60/40.35/40.36/69.27/69.47        Permanently not Available                                                   (33,724)            (24,169)          (9,555)              (9,555)      a
7 or 11         23.90                                      Total Budgetary Resources/Status of Budgetary Resources                      31,446              31,351               95                    -      b,c
8               10.00                                      Total New Obligations                                                        26,832              26,737               95                    -      b,c
9/10            24.40                                      Unobligated Balance - End of Year                                             4,614               4,614                -                    -
12              72.40                                      Obligated Balance - Beginning of Year                                         7,682               7,683               (1)                   -
13              73.10                                      Obligations Incurred                                                         26,832              26,737               95                    -      b,c
14              73.20                                      Gross Outlays                                                               (25,563)            (25,560)              (3)                   -       c
16              73.45                                      Recoveries of Prior Year Obligations                                         (1,273)             (1,273)               -                    -
17              74.00/74.10                                Change in Uncollected Customer Payments from Federal Sources                    (27)                (27)               -                    -
18              74.40                                      Obligated Balance - End of Year                                               7,651               7,561               90                    -       b
19A/19B         90.00                                      Outlays                                                                       9,541               9,628              (87)                   -      b,c

   NOTES:
    General     Any difference that is not otherwise specified is a result of rounding.

      a.        The variance in the Revolving Fund and the Farm Storage Facility and Sugar Storage Facility Loans Financing Fund, is due to the differences between the Program and Finance (P&F) and Statement of
                Budgetary Resources (SBR) crosswalks. The P&F crosswalk records decreases to indefinite borrowing authority, in Line 3B, Borrowing Authority. However, the SBR crosswalk reports decreases to
                indefinite borrowing authority, in Line 6, Permanently not Available. The variances between Line 3B and Line 6 offset.


      b.        The variance in the Export Guarantee Program, Negative Subsidies, reflects timing differences in the recording of debt modification from Algeria. Although CCC maintained the collection in its
                general ledger at the end of FY 2008, the Department of Treasury recorded the transfer and receipt of the collection from CCC. At the beginning of FY 2009, the transfer was made to the Department
                of Treasury.


       c.       The variance in the Export Credit Guarantee Financing Fund, reflects a modification adjustment transfer between the Export Credit Guarantee Financing Fund and the Department of Treasury.
                Although CCC maintained the modification adjustment transfer in its general ledger at the end of FY 2008, the Department of Treasury recorded the transfer and receipt from CCC. At the beginning of
                FY 2009, the transfer was made to the Department of Treasury.




                                                                                                         98
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 18 – Disclosures Not Related to a Specific Statement

Transactions with Related Organizations
CCC maintains deposit and trust liabilities for Agricultural Marketing Service (AMS), Foreign Agricultural Service
(FAS), Food and Nutrition Service (FNS), and the National Resources Conservation Service (NRCS). Refer to Note
11, Deposit and Trust Liabilities, for additional information. In addition, CCC has the following transactions with
USDA agencies:

For the fiscal years ended September 30, 2009 and 2008, outlays under reimbursable agreements with other USDA
agencies amounted to $35 million and $54 million, respectively.

For the fiscal years ended September 30, 2009 and 2008, CCC received $17 million and $13 million respectively
from FSA for the allocation of internal software development costs, which were capitalized. Currently, CCC
reimburses FSA for the costs incurred in the development of software used to administer agriculture programs.
Refer to Note 1, under General Property and Equipment, for additional information.

CCC donates commodities for use under domestic feeding programs administered by FNS. The value of
commodities donated for these domestic purposes, including related transportation and storage costs for the fiscal
years ended 30, 2009 and 2008 were $170 million and $120 million, respectively.

For the fiscal years ended September 30, 2009 and 2008, CCC transferred $24 million and $21 million, respectively,
to FNS for the Senior's Farmers Market Nutrition Program. CCC transferred $371 million in FY 2009 to the Animal
and Plant Health Inspection Service for bovine tuberculosis, light brown apple moth outbreak, and potato cyst
nematode eradication programs. In addition, CCC transferred $1 million to the Office of the CFO for bio-diesel fuel
education and bio-based products, $56 million to AMS for commodity assistance program and marketing service
and $20 million to the Rural Business and Cooperative Development Service for biomass research and development
in FY 2009. Also in FY 2009, CCC transferred $101 million to Cooperative State Research, Education, and
Extension Service (CSREES) for the national agricultural higher education, research, and extension system which
are designed to address national problems and needs related to agriculture, the environment, human health and well
being, and communities.

During FY 2009 and 2008, CCC disbursed a total of $2.2 billion and $1.9 billion, respectively, on behalf of NRCS
for various conservation programs and technical assistance. In addition, for the fiscal year ended September 30,
2009, CCC disbursed $55 million to NRCS for CRP technical assistance. These programs included Wetland
Reserve Program, Environmental Quality Incentive Program (EQIP), Farm and Ranch Lands Protection Program
(FRPP), Wildlife Habitat Incentives Program, Ground and Surface Water Conservation Program, Grassland Reserve
Program (GRP), and the Conservation Security Program. NRCS is responsible for the administration of these
programs. For GRP, NRCS has entered into a memorandum of understanding with CCC to disburse funds using the
services and facilities of CCC. It should be noted that although NRCS has been receiving funding for the EQIP
since FY 2003, CCC continues to receive separate funding for the FY 2002 and earlier program years. Also in FY
2009, CCC transferred $56 million to other USDA agencies including Farm Service Agency (FSA) and Risk
Management Agency.

CCC also transferred funds to USAID to fund P.L. 480 Title II transportation and other administrative costs in
connection with foreign donations. Refer to Note 1 under Allocation Transfers and Shared Appropriations for
further information




                                                        99
                               COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 18 – Disclosures Not Related to a Specific Statement, continued
Custodial Activity
CCC’s custodial activities involve the collection and transfer of funds received from the public on behalf of U.S.
Treasury, FSA, and other USDA agencies. These collections include amounts related to FSA’s Farm Loan Program,
as well as other interest, fees, and penalties due to Treasury and other USDA agencies.


Custodial activities for the fiscal years ended September 30 are as follows:

                                                                                  (In Millions)

                                                                         2009                     2008

Revenue Activity:
 Sources of Cash Collections:
   Repayment of Farm Credit Loans                                  $            1,202       $            1,325
   Administrative and Other Service Fees                                           13                       82

Total Cash Collections                                             $            1,215       $            1,407

Total Custodial Revenue                                            $            1,215       $            1,407

Disposition of Collections:
 Transfers to Others:
    USDA Farm Service Agency                                       $            1,211       $            1,336
    Other USDA Agencies                                                            13                       40
    Department of Treasury                                                         13                       19

Total Disposition of Collections                                   $            1,237       $            1,395

Increase/Decrease in Amounts Yet to be Transferred (+/-)           $              (22)      $              12

Net Custodial Activity                                             $                -       $                -




                                                           100
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 19 – Reconciliation of Net Cost of Operations to Budget

Budgetary and proprietary accounting information are inherently different because of the types of information and
the timing of their recognition. The Reconciliation of Net Cost of Operations to Budget provides a link between
budgetary and proprietary accounting information. It serves not only to explain how information on net obligations
relates to the net cost of operations but also to assure integrity between budgetary and proprietary accounting.

Net obligations and the net cost of operations are different because (1) the net cost of operations may be financed by
non-budgetary resources (e.g. imputed financing); (2) the budgetary and non-budgetary resources used may finance
activities which are not components of the net cost of operations; and (3) the net cost of operations may contain
components which do not use or generate resources in the current period.

For the current year, the "Components Not Requiring or Generating Resources: Cost of Goods Sold" amount reflects
the elimination of sales for P.L. 480 commodities. For comparative purposes, the reclassification has been made to
the prior year amount to conform to the current year presentation.




                                                        101
                                     COMMODITY CREDIT CORPORATION
                                                  Notes to the Financial Statements

Note 19 – Reconciliation of Net Cost of Operations to Budget,
continued
The Reconciliation of Net Cost of Operations to Budget for the fiscal years ended September 30 is as follows:
                                                                                                                          (In Millions)

                                                                                                                   2009                   2008
Resources Used to Finance Activities:
 Budgetary Resources Obligated
 Obligations Incurred                                                                                          $    28,652         $       26,832
 Less: Spending Authority from Offsetting Collections and Recoveries                                                13,644                 17,322
 Obligations Net of Offsetting Collections and Recoveries                                                      $    15,008         $        9,510
    Less: Offsetting Receipts                                                                                          473                    353
 Net Obligations                                                                                               $    14,535         $        9,157
Other Resources:
 Transfers In/Out without Reimbursement                                                                        $      (550)        $         (379)
 Imputed Financing from Costs Absorbed by Others                                                                     1,334                  1,334
 Net Other Resources Used to Finance Activities                                                                $       784         $          955
Total Resources Used to Finance Activities                                                                     $    15,319         $       10,112

Resources Used to Finance Items not Part of the Net Cost of Operations:
 Change in Budgetary Resources Obligated for Goods, Services and Benefits Ordered but not Yet Provided         $     (1,681)       $             822
 Resources that Fund Expenses Recognized in Prior Periods                                                              (764)                     111
 Budgetary Offsetting Collections and Receipts That Do Not Affect Net Cost of Operations:
   Credit Program Collections which Increase Liabilities for Loan Guarantees or Allowances for Subsidy                  760                  1,546
   Change in Unfilled Customer Orders                                                                                   108                     (2)
   Decrease in Exchange Receivables from the Public                                                                   5,791                  9,061
   Other                                                                                                                166                    507
 Resources that Finance the Acquisition of Assets                                                                    (9,771)               (10,788)
 Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net Cost of Operations                   (489)                  (231)
Total Resources Used to Finance Items Not Part of the Net Cost of Operations                                   $     (5,880)       $         1,026
Total Resources Used to Finance the Net Cost of Operations                                                     $      9,439        $        11,138


Components of the Net Cost of Operations that will not Require or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
  Upward/(Downward) Reestimates of Credit Subsidy Expense                                                      $       100         $          166
 (Increase) in Exchange Revenue Receivable from the Public                                                              89                   (122)
 Other                                                                                                               1,064                   (867)
Total Components of Net Cost of Operations that will Require or Generate Resources in Future Periods           $     1,253         $         (823)

Components not Requiring or Generating Resources:
 Depreciation and Amortization                                                                                            (38)                 74
 Revaluation of Assets or Liabilities                                                                                      29                (140)
 Other Components not Requiring or Generating Resources:
    Bad Debt Expense                                                                                                  (523)                  (375)
    Cost of Goods Sold                                                                                               2,803                    126
    Other                                                                                                            1,194                    956
Total Components of Net Cost of Operations that will not Require or Generate Resources                         $     3,465         $          641


Total Components of Net Cost of Operations that will not Require or Generate Resources in the Current Period   $     4,718         $         (182)

Net Cost of Operations                                                                                         $    14,157         $       10,956




                                                                       102
Required Supplementary
Information (Unaudited)




              103
                                                    COMMODITY CREDIT CORPORATION
                                                        Required Supplementary Information

Schedule 1
Supporting Schedule to the Combined Statements of Budgetary Resources
Budgetary Accounts

For the Fiscal Year Ended September 30, 2009
(Dollars in Millions)

                                                                                          Treasury Fund Symbols
                                                         12X4336        12X2278        12X8161       (72)12X2278       12X1336         Other        Total Budgetary
Budgetary Resources:
Unobligated balance, brought forward, October 1:    $      1,173    $      141     $      180    $           32    $      279    $      293     $            2,098
Recoveries of prior year unpaid obligations                 119             17               -               40             1              5                  182
Budget authority
  Appropriation                                                -          2,321           950                 -            61        12,112                 15,444
  Borrowing Authority (Note 17)                           28,870              -              -                -             -              -                28,870
  Spending authority from offsetting collections:
   Earned:
    Collected                                             11,140           130               -                -             -           452                 11,722
    Change in receivables from Federal sources               (25)           (64)             -                -             -              -                   (89)
  Change in unfilled customer orders:
   Advance received                                         154               -              -                -             -              -                  154
  Expenditure transfers from trust funds                   1,130              -              -                -             -              -                 1,130
  Subtotal                                          $     41,269    $     2,387    $      950    $            -    $       61    $   12,564     $           57,231
Nonexpenditure transfers, net, actual                      9,884         (1,449)             -            1,448             -        (12,124)               (2,241)
Permanently not available                                (26,882)             -              -                -             -          (563)               (27,445)
Total Budgetary Resources                           $     25,563    $     1,096    $     1,130   $        1,520    $      341    $      175     $           29,825


Status of Budgetary Resources
Obligations incurred:
  Direct                                            $          -    $      859     $     1,130   $        1,499    $       24    $       62     $            3,574
  Reimbursable                                            24,221              -              -                -             -            11                 24,232
Subtotal                                            $     24,221    $      859     $     1,130   $        1,499    $       24    $       73     $           27,806
Unobligated balance:
  Apportioned                                                63            236               -               21            51            (41)                 330
  Exempt from apportionment                                 841               -              -                -             -              -                  841
  Subtotal                                          $       904     $      236     $         -   $           21    $       51    $       (41) $              1,171
Unobligated balance not available                           438               1              -                -           266           143                   848
Total status of budgetary resources                 $     25,563    $     1,096    $     1,130   $        1,520    $      341    $      175     $           29,825




                                                                         104
                                                                     COMMODITY CREDIT CORPORATION
                                                                         Required Supplementary Information

Schedule 1
Supporting Schedule to the Combined Statements of Budgetary Resources
Budgetary Accounts

For the Fiscal Year Ended September 30, 2009
(Dollars in Millions)

                                                                                                        Treasury Fund Symbols
                                                                          12X4336         12X2278            12X8161        (72)12X2278        12X1336       Other       Total Budgetary
Change in Obligated Balance
Obligated Balance, net
 Unpaid obligations, brought forward, October 1                      $      6,276     $      347    $              -    $          594     $       63    $    687    $            7,967
 Less: Uncollected customer payments from Federal sources, brought
 forward, October 1                                                          (258)           (64)                  -                  -             -           -                  (322)
Total unpaid obligated balance, net                                  $      6,018     $      283    $              -    $          594     $       63    $    687    $            7,645
Obligations incurred, net                                                  24,221            859               1,130             1,499             24          73                27,806
Less: Gross outlays                                                        (22,575)         (938)             (1,130)            (1,204)          (75)       (127)              (26,049)
Obligated balance transferred, net
Less: Recoveries of prior year unpaid obligations, actual                    (119)           (17)                  -                (40)           (1)         (5)                 (182)
Change in uncollected customer payments from Federal sources                   25             64                   -                  -             -           -                   89
Total Change in Obligated Balance                                    $      7,570     $      251    $              -    $          849     $       11    $    628    $            9,309
Obligated balance, net,end of period:
 Unpaid obligations                                                  $      7,803     $      251    $              -    $          849     $       11    $    628    $            9,542
 Less: Uncollected customer payments from Federal sources                    (233)             -                   -                  -             -           -                  (233)
 Total, unpaid obligated balance, net, end of period                 $      7,570     $      251    $              -    $          849     $       11    $    628    $            9,309
Net Outlays
 Gross outlays                                                       $     22,575     $      938    $          1,130    $        1,204     $       75    $    127    $           26,049
 Less: Offsetting collections                                              (12,424)         (130)                  -                  -             -        (452)              (13,006)
 Net Outlays                                                         $     10,151     $      808    $          1,130    $        1,204     $       75    $   (325) $             13,043


The accompanying notes are an integral part of these statements.




                                                                                          105
                                                    COMMODITY CREDIT CORPORATION
                                                          Required Supplementary Information

Schedule 1
Required Supplementary Information (Unaudited)

Supporting Schedule to the Combined Statements of Budgetary Resources
Non-Budgetary Credit Program Financing Accounts

For the Fiscal Year Ended September 30, 2009
(Dollars in Millions)

                                                                                  Treasury Fund Symbols
                                                                  12X4049              12X4337            12X4158       Other       Total Non-Budgetary
Budgetary Resources:
Unobligated balance, brought forward, October 1:      $             1,372   $             873    $           116    $    155    $                2,516
Recoveries of prior year unpaid obligations                             -                   -                 10           -                        10
Budget authority
  Borrowing Authority (Note 17)                                       43                   15                271          11                       340
  Spending authority from offsetting collections:
   Earned:
    Collected                                                        195                  174                118          66                       553
  Change in unfilled customer orders:
   Without Advance from Federal sources                                 -                 (26)                 8           -                       (18)
  Subtotal                                            $              238    $             163    $           397    $     77    $                  875
Permanently not available                                           (598)                (650)              (202)       (133)                   (1,583)
Total Budgetary Resources                             $             1,012   $             386    $           321    $     99    $                1,818


Status of Budgetary Resources
Obligations incurred:
  Direct                                              $              405    $             121    $           286    $     34    $                  846
  Subtotal                                            $              405    $             121    $           286    $     34    $                  846
Unobligated balance:
  Apportioned                                                        243                   68                 12          40                       363
  Exempt from apportionment                                             -                   4                  -           -                         4
  Subtotal                                            $              243    $              72    $            12    $     40    $                  367
Unobligated balance not available                                    364                  193                 23          25                       605
Total status of budgetary resources                   $             1,012   $             386    $           321    $     99    $                1,818




                                                                            106
                                                                     COMMODITY CREDIT CORPORATION
                                                                           Required Supplementary Information

Schedule 1
Supporting Schedule to the Combined Statements of Budgetary Resources
Non-Budgetary Credit Program Financing Accounts

For the Fiscal Year Ended September 30, 2009
(Dollars in Millions)
                                                                                                 Treasury Fund Symbols
                                                                                  12X4049             12X4337            12X4158       Other       Total Non-Budgetary

Change in Obligated Balance
Obligated Balance, net, beg. of period
 Unpaid obligations, brought forward, October 1                        $                -    $             -    $           109 $        92    $                  201
 Less: Uncollected customer payments from Federal sources, brought
 forward, October 1                                                                   (43)              (151)                (1)          -                      (195)
 Total unpaid obligated balance, net                                   $              (43) $            (151) $             108    $     92    $                    6
Obligations incurred, net                                                            405                 121                286          34                       846
Less: Gross outlays                                                                  (405)              (121)              (226)       (126)                     (878)
Less: Recoveries of prior year unpaid obligations, actual                               -                  -                (10)          -                       (10)
Change in uncollected customer payments from Federal sources                            -                 26                 (8)          -                        18
Total Change in Obligated Balance                                      $              (43) $            (125) $             150    $      -    $                  (18)
Obligated balance, net,end of period:
 Unpaid obligations                                                    $                -    $             -    $           159    $      -    $                 159
  Less: Uncollected customer payments from Federal sources                            (43)              (125)                (9)          -                      (177)
 Total, unpaid obligated balance, net, end of period                   $              (43) $            (125) $             150    $      -    $                  (18)


 Gross outlays                                                         $             405     $           121    $           226    $    126    $                 878
 Less: Offsetting collections                                                        (195)              (174)              (118)        (66)                     (553)
 Less: Distributed Offsetting receipts                                               (348)               (64)               (61)          -                      (473)
 Net Outlays                                                           $             (138) $            (117) $              47    $     60    $                 (148)




                                                                                             107
Part IV: Other Accompanying
Information (Unaudited)




              108
                                                                        COMMODITY CREDIT CORPORATION
                                                                                           Other Accompanying Information

Schedule 2
Other Accompanying Information (Unaudited)
Change in Inventory by Commodity

For the Fiscal Year Ended September 30, 2009
(Dollars in Thousands)
                                             Beginning Inventory                                                                                                                                                                          Ending Inventory
                                               October 1, 2008                  Acquisitions                     Cost of Sales a/                Donations                Other Dispositions b/           Deductions, Net c/             September 30, 2009
                                   Unit of
                                  Measure    Quantity           Value       Quantity           Value       Quantity            Value       Quantity           Value        Quantity           Value       Quantity           Value       Quantity           Value
Feed Grains:
 Barley                          Bushels             -      $         -            6       $          9           (6) $              (9)           - $               -            -       $           -         -        $           -          -       $         -
 Corn                            Bushels             -                -        1,829             10,826         (215)            (1,504)      (1,614)           (9,322)           -                   -         -                    -          -                 -
 Corn Meal                       Pounds         22,441            4,407      315,547             57,412     (320,432)           (58,715)          17                 3            -                   -         -                    -     17,573             3,108
 Oats                            Bushels             -                -            -                  -            -                  -            -                 -            -                   -         -                    -          -                 -
 Grain Sorghum                   Bushels            28              190       29,114            128,180      (29,032)          (127,782)           -                 -            -                   -         -                    -        110               588
 Sorghum Grits                   Pounds              -                -            -                  -            -                  -            -                 -            -                   -         -                    -          -                 -
 Total Feed Grains                                XXX       $     4,597         XXX        $    196,427         XXX $          (188,010)        XXX $           (9,319)         XXX       $           -       XXX        $           -       XXX        $     3,696

Wheat                            Bushels             -      $        -        31,532       $    217,463      (25,290) $        (175,858)      (6,775) $        (44,441)           -       $       (4)         532        $    2,840             -       $         -
Wheat Flour                      Pounds            389              89       240,696             47,737     (196,009)           (39,054)     (27,437)           (5,237)           -                -            -                 -        17,639             3,534
Wheat Products, Other            Pounds              -               -       292,741             51,097     (298,850)           (52,455)       6,110             1,358            -                -            -                 -             -                 -
      Total Wheat                                  XXX      $       89          XXX        $    316,297         XXX $          (267,367)        XXX $          (48,320)         XXX       $       (4)         XXX        $    2,840          XXX        $     3,534

Rice Products:
Rice Products                    Cwt.                   2   $       72          1,652      $     48,735          (1,650)   $    (48,698)        (30) $            (994)               -   $           -         30       $      994             4       $      109
Rice, Rough                      Cwt.                   -            -              -                 -               -               -           -                  -                -               -          -                -             -                -
Rice, Brown                      Pounds                 -            -              -                 -               -               -           -                  -                -               -          -                -             -                -

Total Rice Products                                XXX      $       72           XXX       $     48,735            XXX     $    (48,698)       XXX        $       (994)         XXX       $           -        XXX       $      994          XXX        $      109

Cotton, Extra Long Staple        Bales                  -   $           -          -       $         137           - $          -                     -   $           -               -   $           -          - $    (137)                       -   $           -
Cotton, Upland                   Bales                  -               -     10,980           2,791,638     (10,814)  (2,744,294)                    -               -               -               -       (166)  (47,344)                       -               -

Total Cotton                                       XXX      $           -        XXX       $ 2,791,775     XXX             $ (2,744,294)       XXX        $           -         XXX       $           -        XXX       $ (47,481)          XXX        $           -

Dairy Products
 Butter                          Pounds              -      $           -      4,639       $      4,871          (4,638) $       (4,870)           - $               -            (1) $     (1)                   - $      -                    -       $       -
 Nonfat Dry Milk                 Pounds              -                  -    269,553            219,744          (1,000)           (816)     (23,367)          (26,692)       (1,201)   (1,014)             (20,259)  (6,724)             223,725         184,499
 Cheese Regular Price Support    Pounds              -                  -        706                992               -               -       (9,041)          (12,851)            -         -                8,335   11,860                    -               -
 Infant Formula                  Pounds              -                  -          -                  -               -               -            -                 -             -         -                    -        -                    -               -
 Ultra High Temperature Milk     Pounds              -                  -      2,877              1,287               -               -       (2,877)           (1,287)            -         -                    -        -                    -               -
 Total Dairy Products                              XXX      $           -       XXX        $    226,894            XXX $         (5,686)        XXX $          (40,830)         XXX $ (1,015)                  XXX $   5,136                 XXX        $ 184,499

Oils & Oilseeds:
 Flaxseed                        Cwt.                -      $           -          -       $           -             -     $           -         -        $           -           -       $           -          -       $           -         -        $           -
 Sunflower Seed                  Cwt.                -                  -          -                   -             -                 -         -                    -           -                   -          -                   -         -                    -
 Sunflower Seed Oil, Processed   Pounds              -                  -          -                   -             -                 -         -                    -           -                   -          -                   -         -                    -
 Canola Seed                     Cwt.                -                  -          -                   -             -                 -         -                    -           -                   -          -                   -         -                    -
 Safflower Seed                  Cwt.                -                  -          -                   -             -                 -         -                    -           -                   -          -                   -         -                    -
 Crambe Oilseed                  Cwt.                -                  -          -                   -             -                 -         -                    -           -                   -          -                   -         -                    -
 Mustard Seed                    Cwt.                -                  -          -                   -             -                 -         -                    -           -                   -          -                   -         -                    -
 Sunflower Seed Non-Oil          Cwt.                -                  -          -                   -             -                 -         -                    -           -                   -          -                   -         -                    -
 Total Oils and Oilseeds                           XXX      $           -        XXX       $           -           XXX     $           -       XXX        $           -         XXX       $           -        XXX       $           -       XXX        $           -

Peanut Butter                    Pounds                 -   $           -              -   $           -              -    $           -      (4,714) $         (3,660)               -   $           -      4,714       $    3,660                 -   $           -
Peanuts                          Pounds                 -               -    305,800             54,291     (298,691)           (52,940)              -               -               -               -      (7,109)          (1,351)               -               -

Soybean Products                 Bushels                -   $           -        186       $      2,341            - $                -         (186) $         (2,341)               -   $           -              -   $           -              -   $           -
Soybean Products                 Pounds                 -               -    107,140             19,788      (19,996)            (4,415)     (87,144)          (15,373)               -               -              -               -              -               -




                                                                                                                    109
                                                                                    COMMODITY CREDIT CORPORATION
                                                                                                   Other Accompanying Information

Schedule 2
Other Accompanying Information (Unaudited)
Change in Inventory by Commodity

For the Fiscal Year Ended September 30, 2009
(Dollars in Thousands)
                                                     Beginning Inventory                                                                                                                                                                            Ending Inventory
                                                        October 1, 2008                  Acquisitions                   Cost of Sales a/                   Donations                Other Dispositions b/           Deductions, Net c/             September 30, 2009
                                       Unit of
                                      Measure        Quantity           Value       Quantity           Value        Quantity          Value          Quantity           Value        Quantity           Value       Quantity           Value       Quantity           Value

Dry Edible Beans                    Cwt.                       2    $        68         1,115      $    48,258           (999)    $    (42,416)           (105) $         (5,369)               -   $           -          -       $        -            12       $       541
Blended Foods                       Pounds                 7,829          2,086       321,343           76,491       (308,288)         (73,235)         (7,617)           (2,057)               -               -          -                -        13,268             3,285
Honey                               Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Meat                                Pounds                     -              -             -                -              -                -          (5,292)           (7,892)               -               -      5,292            7,892             -                 -
Pork Bellies                        Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Dry Whole Peas                      Cwt.                      95          2,281         3,186           70,550         (3,169)         (70,964)             55             1,260                -               -          -                -           166             3,127
Lentils Dry                         Cwt.                       -              -         1,016           46,426         (1,005)         (45,817)            (11)             (609)               -               -          -                -             -                 -
Corn Seed                           Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Plants & Seeds                      Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Potatoes Dehydrated                 Pounds                     -              -           265              203           (265)            (203)              -                 -                -               -          -                -             -                 -
Veg Fresh Potatoes                  Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
In Process Beet Sugar               Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Sugar, Raw Cane                     Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Sugar, Refined Beet                 Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Sugar, Refined Cane                 Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Corn Oil                            Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Soybean Salad Oil                   Pounds                     -              -        24,135            8,353        (18,249)          (6,360)         (5,886)           (1,993)               -               -          -                -             -                 -
Vegetable Oil                       Pounds                 1,830          1,564       318,472          193,913       (282,100)        (173,184)        (42,421)          (24,099)               -               -      9,744            5,170         5,525             3,365
Fish Cnd Tuna                       Pounds                     -              -             -                -              -                -         (34,740)          (11,581)               -               -     34,740           11,581             -                 -
Fish Salmon                         Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Fish, Canned Salmon                 Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Poultry Cnd Chicken                 Pounds                     -              -             -                -              -                -         (17,175)          (18,854)               -               -     17,175           18,854             -                 -
Poultry Frzn Chicken                Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Veg Cnd Carrots                     Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Veg Cnd Peas                        Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Poultry Frzn Turkey                 Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Veg Cnd Green Beans                 Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Veg Cnd Spinach                     Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -
Veg Cnd Tomatoes                    Pounds                     -              -             -                -              -                -               -                 -                -               -          -                -             -                 -

Tobacco:
 Burley                             Pounds                    -     $         -              -     $         -              - $              -              - $                -                -   $           -          -       $        -             -       $         -
 Cigar                              Pounds                    -               -              -               -              -                -              -                  -                -               -          -                -             -                 -
 Dark Air Cured                     Pounds                    -               -              -               -              -                -              -                  -                -               -          -                -             -                 -
 Fire Cured                         Pounds                    -               -              -               -              -                -              -                  -                -               -          -                -             -                 -
 Flue Cured                         Pounds                    -               -              -               -              -                -              -                  -                -               -          -                -             -                 -
 Virginia Fire Cured                Pounds                    -               -              -               -              -                -              -                  -                -               -          -                -             -                 -
 Subtotal                                                   XXX     $     5,999      1,082,658     $   520,614       (932,762) $      (469,534)      (205,236) $         (92,568)               -   $           -     64,556       $   45,806        18,971       $    10,318

Emergency Food Ration Bars          Pounds                      -   $           -           -      $            -            - $                -               -   $           -               -   $           -              -   $           -              -   $           -
Mohair                              Pounds                      -               -           5                  19           (5)               (19)              -               -               -               -              -               -              -               -
Tallow                              Pounds                      -               -           -                   -            -                  -               -               -               -               -              -               -              -               -
Wool                                Pounds                      -               -           -                   -            -                  -               -               -               -               -              -               -              -               -
 Subtotal                                                       -   $           -           5      $           19           (5) $             (19)              -   $           -               -   $           -              -   $           -              -   $           -

Elimination of Sales to P.L. 480                                -               -              -                -   (1,449,561)       (920,658)                 -       (920,658)               -               -              -               -              -               -

Total Inventory Operations                                   XXX $       10,757           XXX $ 4,100,761                 XXX $ (2,802,950)               XXX $ (1,112,689)                XXX $ (1,019)                 XXX $          7,295           XXX $ 202,156

Note: Inventories of commodities as shown in this report include commodities committed to sale or otherwise obligated. Due to distinct units of measure, Quantity totals are not tabulated, and are denoted as xxx.
a/ Includes commodities subsequently exported and financed under P.L. 480.
b/ Includes inventory quantity gains under the Export Program, and the losses incurred for conversion, incurred casualties and transit, and shrinkage and spoilage of
   commodities.
c/ Includes the net of over-deliveries, premiums, under-deliveries and discounts resulting from warehouse operations; the net change in value and quantity of inventory
   exchanged or in process of exchange; and processing end packaging costs and related quantitative gains and losses in processing operations and items which are footnoted individually.




                                                                                                                            110
                          COMMODITY CREDIT CORPORATION
                                  Other Accompanying Information


Summary of Financial Statement Audit

Audit Opinion                                   Unqualified
Restatement                                        No

                           Beginning                                     Ending
Material Weaknesses         Balance      New   Resolved   Consolidated   Balance
Improvement Needed
in Financial System
Functionality and
Funds Control                 1                                            1
Improvement Needed
in Management’s
Review of Cash Flow
Models                        1                  (1)                       0
Improvements Needed
to Ensure Obligations
and Liabilities Related
to Prior Program Years
are Accurately
Reflected in the
Financial Statements          1                  (1)                       0
Total Material
Weaknesses                    3                  (2)                       1




                                               111
                         COMMODITY CREDIT CORPORATION
                                  Other Accompanying Information


Summary of Management Assurances
                       Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance              Reasonable assurance
                                      Beginning                                                 Ending
Material Weaknesses                    Balance      New Resolved Consolidated Reassessed        Balance
Review of Cash Flow Models                 1                  (1)                                  0
Recording Accruals and
Obligations                                1                  (1)                                  0
Total Material Weaknesses                  1                  (2)                                  0

               Conformance with Financial Management Systems Requirements (FMFIA § 4)
Statement of Assurance           Systems do not conform to financial management system requirements
                                   Beginning                                                     Ending
Non-conformances                    Balance       New Resolved Consolidated Reassessed           Balance
Financial System Functionality         1                                                            1
Total Non-conformances                 1                                                            1

                Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                     Agency                    Auditor
Overall Substantial Compliance                         No                       No
1. System Requirements                                                  No
2. Accounting Standards                                                Yes
3. USSGL at Transaction Level                                          Yes




                                                 112
                               COMMODITY CREDIT CORPORATION
                                          Other Accompanying Information

          IMPROPER PAYMENTS INFORMATION ACT (IPIA)
                       COMPLIANCE
The President’s Management Agenda identified the reduction of improper payments as a key goal for Government
Agencies. The IPIA legislation requires that FSA, under the direction of the Department of Agriculture Chief
Financial Officer, annually review programs and activities to identify if any are susceptible to significant improper
payments. OMB is responsible for implementing IPIA. OMB defines programs as high risk if they have more than
2.5 percent and $10 million in improper payments annually. Annually FSA completes risk assessments of the
programs identified by the Office of the Chief Financial Officer (OCFO). The risk assessment determines whether
each program is at low or high risk for making improper payments. Also, OMB, during its review of the risk
assessment documentation, may conclude that a program should be high risk. If a program is identified as high risk,
FSA must complete a review of payments in accordance with the requirements outlined in Appendix C of OMB
Circular A-123. FSA then develops a statistically valid estimate to determine the projected annual amount of
improper payments for the program or activity. Based on the kinds of errors found during the review, FSA must
develop a corrective action plan for reducing improper payments and establish performance goals.

The results of FSA/CCC’s improper payment risk assessments are included in the USDA’s Management Discussion
and Analysis section of its annual Performance and Accountability Report (PAR). The PAR is released annually on
November 15.

FSA completed the risk assessment of all CCC programs identified for review as part of the FY 2009 Review Cycle.
The results of those reviews identified no new programs that were at high risk for making improper payments.
Statistical samples were completed for five of the seven high risk programs identified in previous years where
improper payments had exceeded the 2.5 percent maximum improper payment rate established by the legislation.
The five high risk programs reviewed were Marketing Assistance Loan Program, Direct and Counter-Cyclical
Payments, Conservation Reserve Program, Miscellaneous Disaster Programs, and Noninsured Disaster Assistance
Program. Two high risk programs, Marketing Assistance Loans and Loan Deficiency Payments were not reviewed
due to the low volume of payment activity. The FY 2009 statistical sample results are compared to the results from
FY 2008 in the table shown below.

 IMPROPER PAYMENTS INFORMATION ACT (IPIA) COMPLIANCE
                                                                       C
                              A                    B                Value of                D
                      Value of Outlay       Total Value of       Administrative     Value of Incorrect            E
                      Sample Universe     Improper Payments          Errors          Disbursements       Percent of Incorrect
     Program            (in million $)       (in million $)      (in million $)1      (in million $)1      Disbursements

 FY Testing Done     FY 2008   FY 2009    FY 2008   FY 2009    FY 2008    FY 2009   FY 2008   FY 2009    FY 2008    FY 2009

    Marketing
                     $4,981     $4,935      $92      $85.4       $82       $80.1     $9.8       $5.3     0.19 %      0.16%
 Assistance Loans

    Noninsured
    Assistance        $126       $67        $18       $8.4      $16.3       $5.4     $4.0       $3.7     3.29 %      6.37%
     Program

    Direct and
 Counter- Cyclical   $7,144     $4,948      $47      $19.4      $32.3      $15.1     $14.9      $7.9     0.22 %      0.17%
     Program

 Disaster Payments    $154      $2,245      $5       $19.2      $2.9        $2.3     $3.7       $17.8     3.13%      0.84%

   Conservation
                     $1,888     $1,876      $24      $11.1      $6.7        $5.8     $19.4      $6.8     1.02 %      0.44%
 Reserve Program

   All High Risk
                     $14,293    $14,071    $186      $143.5    $140.2      $108.7    $51.8      $41.5    0.36 %      0.29%
     Programs




                                                         113
                                 COMMODITY CREDIT CORPORATION
                                            Other Accompanying Information

Source of FY 2008 data was the FY 2008 USDA PAR and FY 2009 Data was the Memo dated May 27, 2009 from Director,
Operations Review and Analysis Staff to Director, Office of Budget and Finance.
1
  Estimates are individually calculated statistical projections and are not intended to conform to nor validate another estimate
using an arithmetical expression. Each point estimate is calculated with respect to its own expansion factors and lies within its
own confidence bounds. Because of the sample design complexity, additional calculations are generally necessary to add or
combine two distinct statistical estimates.




                                                               114
                                COMMODITY CREDIT CORPORATION
                                                  Glossary of Acronyms

ADA      Anti-deficiency Act

ADP      Automatic Data Processing

AMS      Agricultural Marketing Service

BEHT     Bill Emerson Humanitarian Trust

BDO      Barter Delivery Obligations

BPMS     Budget and Performance Management System

CAP      Corrective Action Plan

CCC      Commodity Credit Corporation

CFO      Chief Financial Officer

COR      County Office Review

COTS     Commercial-off-the-Shelf

CRP      Conservation Reserve Program

CSC 2    Credit Subsidy Calculator 2

DAFP     Deputy Administrator for Farm Programs

DCP      Direct and Counter-Cyclical Payment Program

DPSP     Daily Product Price Support Program

eDCP     Electronic Direct and Counter-Cyclical Payment Program

EQIP     Environmental Quality Incentive Program

EPAS     Economics, Policy, and Analysis

FACTS II Federal Agencies Centralized Trial Balance System II

FAI      Finance Account Interest

FAPRI    Food and Agricultural Policy Research Institute

FASAB Federal Accounting Standards Advisory Board

FAS      Foreign Agricultural Service

FATER Food Aid Targeting Effectiveness Ratio

FCRA     Federal Credit Reform Act of 1990

FDIIP    Financial Data Integration Improvement Plan

FFAS     Farm and Foreign Agricultural Services

FFMIA Federal Financial Management Improvement Act

FGP      Facilities Guarantee Program

FISMA Federal Information Security Management Act



                                                           115
                               COMMODITY CREDIT CORPORATION
                                                  Glossary of Acronyms

FMFIA Federal Managers’ Financial Integrity Act

FMMI     Financial Management Modernization Initiative

FNCS     Food, Nutrition, and Consumer Services

FNS      Food and Nutrition Service

FRBs     Federal Reserve Banks

FRPP     Farm and Ranch Lands Protection Program

FSA      Farm Service Agency

FSFL     Farm Storage Facility Loan Program

FSIO     Financial System Integration Office

FSIS     Food Safety and Inspection Service

FY       Fiscal Year

GAAP     Generally Accepted Accounting Principles

GMLoB Grants Management Line of Business

GPEA     Government Paperwork Elimination Act

GPRA     Government Performance and Results Act

GRP      Grassland Reserve Program

GSM      General Sales Manager

HIPC     Heavily Indebted Poor Countries

ICRAS    Inter-Agency Credit Risk Assessment System

IPIA     Improper Payments Information Act of 2002

IT       Information Technology

ITS      Information Technology Services

JFMIP    Joint Financial Management Improvement Program

MAL      Marketing Assistant Loans

MAP      Market Access Program

MIDAS Modernize and Innovate the Delivery of Agricultural Systems

MILC     Milk Income Loss Contract Program

MRP      Marketing and Regulatory Programs

NAP      Noninsured Crop Disaster Assistance Program

NIST     National Institute of Standards and Technology

NPS      National Payment Service



                                                          116
                                 COMMODITY CREDIT CORPORATION
                                                  Glossary of Acronyms

NRE     Natural Resources and Development

NRCS    National Resources Conservation Service

OCFO    Office of the Chief Financial Officer

OGC     Office of the General Counsel

OIG     Office of the Inspector General

OMB     Office of Management and Budget

PAR     Performance and Accountability Report

PART    Program Assessment Rating Tool

PECD    Production, Emergencies, and Compliance Division

P&F Schedule      Program and Financing Schedule

PL      Public Law

PP&E    Property, Plant and Equipment

PSD     Price Support Division

PV      Present Value

RD      Rural Development

REX     Re-enroll or Extend

RFI     Request for Information

RSI     Required Supplementary Information

RSSI    Required Supplementary Stewardship Information

SAP     Systems Applications Products

SCGP    Supplier Credit Guarantee Program

S&E     Salaries and Expenses

SBR     Statement of Budgetary Resources

SFFAC Statement of Federal Financial Accounting Concepts

SFFAS   Statement of Federal Financial Accounting Standards

SNC     Statement of Net Cost

SPPA    Strategic Partnership Program Agro-terrorism

TTPP    Tobacco Transition Payment Program

USAID United States Agency for International Development

USDA    United States Department of Agriculture

USFWS U.S. Fish and Wildlife Service



                                                           117
                           COMMODITY CREDIT CORPORATION
                                     Glossary of Acronyms

USGS   Geological Survey

USWA   United States Warehouse Act

WRP    Wetlands Reserve Program

WTO    World Trade Organization




                                            118
119
